<html>
<title> - HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 114-212]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-212
 
           HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                             _________ 
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
  96-832 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001        
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                 
                 
                               (II)
                       
                       
                       
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           September 16, 2015
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     1
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................     3
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    26
Boozman, Hon. John, U.S. Senator from Arkansas...................    27
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........    30
Rounds, Hon. Mike, U.S. Senator from South Dakota................    35
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    38
    Letters for the record 



Tillis, Hon. Thom, U.S. Senator from North Carolina..............    42

                               WITNESSES

Lynch, M.D., Thomas, Assistant Deputy Under Secretary for Health 
  Clinical Operations, Veterans Health Administration, U.S. 
  Department of Veterans Affairs; accompanied by Robert Worley, 
  Director of Education Service, Veterans Benefits 
  Administration; Cathy Mitrano, Deputy Assistant Secretary for 
  Office of Resource Management, Office of Human Resources and 
  Administration; Susan Blauert, Deputy Assistant General 
  Counsel, Office of General Counsel.............................     4
    Prepared statement...........................................     5
    Response to request arising during the hearing by:...........
      Hon. John Boozman..........................................    28
      Hon. Joe Manchin III 




      Hon. Mike Rounds...........................................    37
    Response to posthearing questions submitted by:
      Hon. Johnny Isakson........................................    45
      Hon. Dean Heller...........................................    46
Wescott, Joseph W., II, Legislative Director, National 
  Association of State Approving Agencies........................    47
    Prepared statement...........................................    49
Butler, Roscoe G., Deputy Director for Health Care, The American 
  Legion.........................................................    52
    Prepared statement...........................................    53
Morosky, Aleks, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    60
    Prepared statement...........................................    61
Kettl, Donald F., Professor, School of Public Policy, University 
  of Maryland....................................................    66
    Prepared statement...........................................    68

                                APPENDIX

Moran, Hon. Jerry, U.S. Senator from Kansas; prepared statement..    83
American Federation of Government Employees (AFGE), AFL-CIO; 
  prepared statement.............................................    83
Moten, Beth, Legislative and Political Director, American 
  Federation of Government Employees (AFGE), AFL-CIO; prepared 
  statement......................................................    86
Aircraft Owners and Pilots Association, General Aviation 
  Manufacturers Association, Helicopter Association 
  International, National Association of State Aviation 
  Officials, National Business Aviation Association; joint 
  prepared statement.............................................    87
Zumatto, Diane M., National Legislative Director, AMVETS; 
  prepared statement.............................................    90
American Speech-Language-Hearing Association (ASHA), Academy of 
  Doctors of Audiology (ADA), and American Academy of Audiology 
  (AAA); prepared statement......................................    92
Children of Vietnam Veterans Health Alliance; prepared statement.    96
Concerned Veterans for America; prepared statement...............    96
Atizado, Adrian M., Deputy National Legislative Director, 
  Disabled American Veterans (DAV); prepared statement...........    98
Stonecipher, John L., President and CEO, Guidance Aviation; 
  prepared statement.............................................   104
Elizabeth Welke, J.D., Legislative Associate, Iraq and 
  Afghanistan Veterans of America (IAVA); prepared statement.....   106
International Hearing Society; prepared statement................   107
Warthen, Travis, Vice President, Leading Edge Aviation, Inc.; 
  prepared statement.............................................   110
Military Officers Association of America (MOAA); prepared 
  statement......................................................   112
U.S. Office of Personnel Management (OPM); prepared statement....   115
Stier, Max, President and CEO, Partnership for Public Service; 
  prepared statement.............................................   122
Paralyzed Veterans of America; prepared statement................   125
Bonosaro, Carol A., President, Senior Executives Association; 
  letter.........................................................   128
Wyatt, Dr. Scott, President, Southern Utah University; prepared 
  statement......................................................   130
Hubbard, William, Vice President of Government Affairs, Student 
  Veterans of America (SVA); prepared statement..................   133
Saunders, Michael, National Deputy Legislative Director, The 
  Retired Enlisted Association; prepared statement...............   138
Grundmann, Susan Tsui, Chairman, U.S. Merit Systems Protection 
  Board; prepared statement......................................   139
Mower, Michael, Chief Operating Officer, Upper Limit Aviation; 
  prepared statement.............................................   148
Reid, Lois, Chief Executive Officer, Upper Limit Aviation; letter   150
Veterans Education Success (VES); prepared statement.............   154


           HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Heller, Cassidy, 
Rounds, Tillis, Sullivan, Blumenthal, Brown, Tester, Hirono, 
and Manchin.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
              CHAIRMAN, U.S. SENATOR FROM GEORGIA

    Chairman Isakson. This hearing of the Senate Veterans' 
Affairs Committee will come to order. I want to thank the 
Members for being here and Ranking Member Blumenthal for his 
attendance and all of you in the audience for your attendance.
    We have a jam-packed agenda where we are going to discuss 
legislation that is being proposed by Members of the Committee 
and other Members of the Congress, and we have two panels. The 
first panel will be members of the Veterans Administration 
testifying on the agenda. We will do Q&A after that period, and 
then we will have panel two, where we have The American Legion, 
Veterans of Foreign Wars, a public policy person from the 
University of Maryland, and the National Association of State 
Approving Agencies will be testifying, as well. So, we are 
going to have a busy, busy day.
    Now, I would like to introduce Ranking Member Blumenthal 
for any opening statement he might want to make.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
         RANKING MEMBER, U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thanks very much, Mr. 
Chairman. Thanks to everyone who is participating and attending 
this hearing and to my colleagues.
    We do have a packed agenda, a lot of bills reflecting the 
many needs that our veterans have, and most of them are 
bipartisan bills, again, reflecting the work of this Committee, 
its practice of leaving party differences at the door and 
working together to meet the needs of our veterans. It is one 
of the great things about this Committee, and I want to thank 
the Chairman for continuing that tradition and giving me and 
others the opportunity to introduce bills that are important to 
our veterans.
    First, the Career Ready Student Veterans Act, which I have 
introduced proudly with Senator Tillis and many other Senate 
colleagues, would make sure that our GI benefits are 
appropriate, applicable, and honestly administered. Too many of 
our veterans are misled into squandering those GI Bill benefits 
as a result of the pitches and the ads that they see, 
squandering them on worthless degrees, in fact, sometimes no 
degrees at all, and that hurts not only them, but also us as 
taxpayers, and this bill moves the GI Bill benefits system 
toward a more effective and efficient method.
    The Fry Scholarship Enhancement Act, which has been 
introduced by Senator Brown and Senator Tillis, I thank both of 
them and I am proud to be a cosponsor. Currently, Fry 
Scholarship beneficiaries are barred from receiving 
supplemental funding from the Yellow Ribbon Program, which is 
used in cases where tuition fees at private schools exceed the 
amounts provided by the Post-9/11 GI Bill. This measure will 
help to remedy that gap and it will help people across the 
country, including one of my constituents, Sarah Green, a 
surviving spouse. She has two children who are using the Fry 
Scholarship to attend college, and she was disappointed to 
learn that her children, who lost their father while servicing 
our country after 9/11, are not eligible for this program.
    I want to thank Senator Hirono for the Veterans' Survivors 
Claims Processing Automation Act, which will enable more 
survivors to process their claims through the currently all-
too-lengthy, time consuming process for VA survivor benefits. 
We cannot forget the families of the fallen, and I thank 
Senator Hirono for her leadership on this issue.
    Thank you to Senator Hirono, as well, for the Department of 
Veterans Affairs Emergency Medical Staffing Recruitment and 
Retention Act. Getting good people and making the system more 
flexible for them to care for our veterans is critical.
    Let me just close on this note, accountability. A lot of 
the focus and work in this Committee has been on accountability 
on the part of the VA. There is no question, in the wake of the 
debacle that we saw in Phoenix and elsewhere--with inordinate 
delays, cooked books, faulty recordkeeping, and worse--that 
there is a need for accountability so as to enhance and sustain 
the credibility of this great organization and the many, many, 
many hard working, honest, incredibly dedicated people who work 
there. We should be thanking them; many of them are veterans, 
as well.
    The bill that I have introduced, S. 1856, is a common sense 
accountability measure that is tough and constitutional. Tough 
and constitutional is what we need in an accountability 
measure. We are going to hear from Don Kettl, our expert 
witness on issues of public sector management, as to why this 
bill provides, to quote him, ``a strong and sensible strategy 
for solving many of the VA's most important problems.''
    There is a lot of important work to do on this agenda. This 
hearing is a sound and solid beginning. I thank my colleagues 
for their dedication to this cause.
    Thanks, Mr. Chairman.
    Chairman Isakson. Thank you, Mr. Ranking Member.
    Your comments cause me to say something for the public and 
the press that is here and anyone else, the Members of the 
Committee. You know, 3 months ago, we faced a major crisis when 
Richard and I both got a press release where the VA said it was 
going to be shutting down hospitals because they were running 
out of funding and, in a way, indirectly sort of blamed us for 
that. So, we had a ``come to vision'' meeting at the VA--the 
four corners, the Chairman and Ranking Member of the House of 
Representatives Committee and Richard and I. We met for, what 
was it, I guess about 3 hours that morning, really talking 
about how to solve problems rather than cause problems. We 
ended up saving the Veterans Choice Program, not closing any 
facility whatsoever, and having a far more accountable system 
in terms of veterans' benefits for health care. I want to thank 
Richard for his cooperation in getting us from point A to point 
B in doing that, as well as the Chairman and Ranking Member of 
the House.
    I think in the weeks ahead, we are going to find a similar 
resolution for the Denver situation. I am very hopeful that it 
is going to happen. We are very close to that actually 
happening, which will be two of the major problems that we 
faced when we came in as the new Ranking Member and new 
Chairman of this Committee, both of which are being resolved in 
the interest of our veterans and in the best interest of the 
country.
    Hopefully, this hearing today on bills before us will be a 
continuation of that type of a commitment, and I thank Richard 
for his cooperation and work on that.
    Senator Blumenthal. Thank you.
    Chairman Isakson. What we are going to do, we are not going 
to do opening statements by any other Members. You are welcome 
to submit statements, or you can wait until the very end and 
talk all you want, but----
    [Laughter.]
    Chairman Isakson [continuing]. We are going to hear from 
the people who have given us their valuable time, who have come 
here. Then, we are going to go by the ``early bird'' rule when 
we go to questions and answers.
    Our first panel is Thomas Lynch, M.D., Assistant Deputy 
Under Secretary for Health Clinical Operations, Veterans Health 
Administration, U.S. Department of Veterans Affairs, and that 
is a mouthful. He will be accompanied by Robert Worley, 
Director of Education Service, Cathy Mitrano, Deputy Assistant 
Secretary for the Office of Resource Management, and Susan 
Blauert, who is Deputy Assistant General Counsel, Office of 
General Counsel at the Department of Veterans Affairs.
    So, we will turn to you, Dr. Lynch. Make it as brief as you 
can, but do not leave anything out. If you go over the 5-minute 
timer and it blinks a little bit, just keep on talking until 
you have gotten your point across.

    STATEMENT OF THOMAS LYNCH, M.D., ASSISTANT DEPUTY UNDER 
   SECRETARY FOR HEALTH CLINICAL OPERATIONS, VETERANS HEALTH 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY ROBERT WORLEY, DIRECTOR OF EDUCATIONAL SERVICE, 
    VETERANS BENEFITS ADMINISTRATION; CATHY MITRANO, DEPUTY 
 ASSISTANT SECRETARY FOR OFFICE OF RESOURCE MANAGEMENT, OFFICE 
   OF HUMAN RESOURCES AND ADMINISTRATION; AND SUSAN BLAUERT, 
  DEPUTY ASSISTANT GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL

    Dr. Lynch. Thank you, sir. Good afternoon, Mr. Chairman, 
Ranking Member, and Members of the Committee. Thank you for 
inviting us here today to present our views on several bills 
that would affect VA benefits, programs, and services. As you 
indicated, joining me today is Cathy Mitrano, Robert Worley, 
and Susan Blauert.
    Mr. Chairman, we appreciate the Committee's attention to 
the many subjects important to the veterans we care for and we 
support many of the bills you are considering today.
    VA fully supports S. 1450, which would allow for increased 
flexibility with physicians' schedules. This bill not only 
helps with ensuring the continuity of hospital and emergency 
care operations, but also with enhancing our recruitment and 
retention of these vital medical professionals by accommodating 
their variable work schedules.
    VA sincerely appreciates Senator Hirono for sponsoring 
S. 1451, as this is one of VA's legislative proposals last 
year. VA recognizes the grief that a family has after the death 
of a loved one, and any efforts that VA can take to improve the 
notification process for a claim will ease anxiety in this time 
of stress.
    VA also supports S. 1460, which would authorize recipients 
of the Marine Gunnery Sergeant John David Fry Scholarship to be 
eligible for the Yellow Ribbon Program under the Post-9/11 GI 
Bill. There are costs associated with this bill, as VA would 
need to refine existing technology to calculate eligibility and 
award payments.
    VA supports the general intent of S. 1693, which would 
expand emergency treatment for certain veterans who were unable 
to access the VA health care system within the prior 24 months 
due to prolonged waiting periods. However, we request that no 
further action be taken on this bill until VA has completed its 
comprehensive review of the Department's Care in the Community 
Report, as required by Public Law 114-41, which includes 
evaluation of programs relating to emergency care.
    VA supports the intent behind S. 1938, to improve 
accreditation requirements for programs for veterans and their 
beneficiaries, but we have some recommendations to improve the 
final language of that bill.
    The draft legislation to improve educational assistance 
would make a number of changes that would affect the education 
benefits provided to veterans. VA is supportive of many of 
these sections and recommends some technical edits with others.
    VA does not support S. 563, the Physician Ambassadors 
Helping Veterans legislation, as we already have authority to 
appoint physicians on a ``without compensation'' basis, which 
is currently being used routinely. In fact, VA is in the 
process of establishing such a pilot program in at least two 
locations. We would like to evaluate the results from that 
pilot in order to better inform the Committee whether any 
legislative actions are necessary.
    In addition, VA does not support S. 564, the Veterans 
Hearing Aid Access and Assistance Act, because it is 
unnecessary and will unduly restrict the authority of the 
Secretary, which he already has to appoint health care 
practitioners under hybrid Title 38. Through this authority, VA 
is able to: (1) determine those occupations that possess the 
medical expertise needed for delivering high-quality health 
care; and (2) hire and retain highly-trained professional staff 
with credentials consistent with the qualification standards 
established for those occupations. Further, VA has concerns 
with the inconsistent licensure requirements for hearing aid 
specialists, which will fragment hearing health care services 
and limit the delivery of comprehensive hearing health care.
    VA is also very concerned with the accountability bills on 
the agenda. Although S. 1856 is less onerous of the two bills, 
VA still has a number of legal and policy concerns with both 
bills, as described in more detail in our written testimony.
    Mr. Chairman, I thank you for the opportunity to testify 
today. My colleagues and I would be pleased to respond to any 
questions that you or the other Members of the Committee may 
have.
    [The prepared statement of Dr. Lynch follows:]
   Prepared Statement of Thomas Lynch, M.D., Assistant Deputy Under 
       Secretary for Health Clinical Operations, Veterans Health 
                          Administration (VHA)
    Good afternoon Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee. Thank you for inviting us here today to 
present our views on several bills that would affect VA benefits 
programs and services. Joining me today are Robert Worley, Director of 
the Education Service in the Veterans Benefits Administration, 
Catherine Mitrano, Deputy Assistant Secretary for Resolution 
Management, and Susan Blauert and Kim McLeod, who are both Deputy 
Assistant Counsels in VA's Office of General Counsel
s. 290, increasing the department of veterans affairs accountability to 
                          veterans act of 2015
    S. 290 the ``Increasing the Department of Veterans Affairs 
Accountability to Veterans Act of 2015,'' would amend chapter 7 of 
title 38 by adding new sections 715, 717, and 719. These sections would 
affect Senior Executives, defined as career Senior Executive Service 
(SES) or Title 38 SES-equivalent employees, who work at VA.
    VA has policy concerns about the implementation of sections 715, 
717, and 719, as added by S. 290. VA is concerned that the provisions 
in this bill would impede VA's ability to recruit, retain, reward, and 
manage world-class talent to lead and sustain a transformed VA.
    VA has made it clear that it intends to transform VA into an 
organization that focuses on Veterans. This transformation depends on 
expert career Senior Executives who are trained and motivated to lead 
the VA workforce in better, more effective ways. VA Senior Executives 
include highly-qualified individuals with private-sector business 
backgrounds, medical doctors and public health care professionals with 
specialty care and research backgrounds, Veterans, and dedicated 
employees who have worked their way up through the Civil Service to the 
senior-most career leadership positions in VA.
    VA already is challenged to recruit and retain highly-qualified 
Senior Executives, in that many Senior Executives take a pay cut to 
join or stay at VA. For instance, the salary and benefits offered to 
most VA medical center directors are lower than the compensation 
package offered for a comparable position in the private sector. This 
bill, as currently drafted, would compound the challenges facing VA by 
arbitrarily capping VA Senior Executives' performance ratings, 
requiring VA to deliver those ratings to Congress while other agencies' 
executive ratings remain confidential, and requiring VA Senior 
Executives to change locations and programs every 5 years. Even the 
bill's reduction of retirement benefits for VA Senior Executives 
convicted of certain crimes singles out VA Senior Executives for 
treatment unparalleled in other agencies. Highly-qualified 
professionals are less likely to join or stay with VA as Senior 
Executives when they could serve elsewhere with higher pay and less 
punitive treatment.
    In general, section 715 would reduce the annuity paid to VA Senior 
Executives who are removed from their senior executive position under 
38 U.S.C. 713, or who leave VA while removal proceedings under section 
713 are pending, if they have been convicted of a felony that 
influenced their performance while employed as a VA Senior Executive.
    There are practical concerns regarding implementation of section 
715 that we believe would prove impractical for VA and the Government. 
First, section 715 does not specify whether it would apply to felony 
convictions in Federal or State court. Assuming section 715 will only 
to apply to convictions in Federal court, the section does not specify 
the roles and responsibilities of the various Government components 
that investigate (e.g., VA's Office of Inspector General, Federal 
Bureau of Investigation) and prosecute (e.g., DOJ) Federal criminal 
matters. The section also does not address the roles and 
responsibilities of OPM, the agency that administers Federal retirement 
systems.
    In order for section 715 to work properly, VA would have to be 
notified that an individual who was removed from VA under section 713 
was convicted of a felony. VA would then have to determine that the 
former employee's conviction influenced his or her performance while 
employed at VA and also determine the ``covered period'' applicable 
under section 715. Next, VA would need to notify OPM, which would have 
to exclude the ``covered period'' from the individual's annuity, and 
recalculate the annuity. Assuming that the individual retired a number 
of years ago, OPM may also need to collect annuity payments that have 
already been made to the individual. Further complicating this matter, 
an annuity may need to be recalculated by OPM if an individual's 
conviction is overturned on appeal.
    Section 715 also raises a number of legal issues, including 
concerns arising under the Due Process, Takings, and Ex Post Facto 
Clauses of the U.S. Constitution. Several of VA's concerns are shared 
by the U.S. Department of Justice (DOJ) and the U.S. Office of 
Personnel Management (OPM). . The bill raises substantive due process 
concerns if interpreted to have a retroactive effect. Additionally, OPM 
might need to collect annuity payments that have already been paid to a 
retired senior executive. Such collections would implicate the Fifth 
Amendment's Takings Clause. Finally, the legislation may raise concerns 
under the Ex Post Facto Clause, which are raised when a law would make 
punishable acts taken that were not punishable at the time they were 
committed.
    VA is unable to determine the costs for section 715, based on some 
of the implementation concerns expressed above. Significantly, whatever 
costs would be incurred by VA in making a determination under this 
section would also result in costs to DOJ, which would have to defend 
the Government in litigation before the courts, and OPM, which would 
have to adjust the pension of a VA Senior Executive, and defend its 
adjustment, if appealed by the employee, before the U.S. Merit Systems 
Protection Board.
    Section 717 would essentially require a forced distribution by 
limiting the number of individuals who can receive the top two rating 
levels (``outstanding'' and ``exceeds fully successful''). Section 717 
would require VA to consider complaints and reports (including pending 
reports) from various Government agencies when determining the rating 
of a VA Senior Executive. Section 717 would also require the Secretary 
to reassign VA Senior Executives once every 5 years to a position at a 
different location that does not include the supervision of the same 
personnel or programs. Under the proposed bill, VA would also be 
required to contract with a nongovernmental entity to prepare a report 
on management training for VA Senior Executives. The bill would mandate 
that VA prepare a plan for implementing the findings in the 
nongovernmental entity's report.
    VA Senior Executive performance ratings must be based on an 
individual's performance in order to maintain VA's OPM performance 
management certification. Limiting outstanding performance ratings to 
only 10 percent of VA Senior Executives, as proposed in the bill, would 
draw an arbitrary line for Senior Executive performance that is not 
based on individual performance. It would require the Department to 
rank executives against each other, rather than individual and 
organizational standards that are clearly established at the beginning 
of a performance period. VA's concerns are shared by OPM, which 
accredits SES performance management systems for the Government. OPM's 
current regulations prohibit assigning candidates to categories based 
on percentages.
    By capping the number of individuals who can receive outstanding 
performance ratings, the bill would also prevent the Secretary from 
making meaningful distinctions in performance and from appropriately 
assessing and rewarding individual executives' innovations and 
leadership achievements. Considering complaints and pending reports 
when reviewing Senior Executive performance also raises concerns about 
the ability of the employee to respond to management's review of his or 
her performance, since these complaints or pending reports may not be 
available to the employee. Moreover, complaints may later be 
unsubstantiated, and pending reports may be changed before they become 
final.
    Requiring all Senior Executives to rotate to different positions 
every 5 years would broaden the experience base of our executives. 
However, legislating this particular approach may prevent key Senior 
Executives identified by the Secretary from fully mastering strategic 
positions, and may hinder the recruitment and retention of highly 
qualified SES and title 38 SES-equivalent employees. In requiring 
periodic rotation, the bill constrains the Secretary's ability to 
determine which executives to reassign based on VA's needs. The 
legislation could further hinder the Secretary's efforts to create 
continuity and stability within VA's operations.
    Under section 3(b) of the bill, VA must prepare and report to 
Congress a plan to implement the recommendations of a report issued by 
a nongovernment contractor on management training for VA Senior 
Executives. If the expectation is that VA subsequently will implement 
this plan, section 3(b) might raise non-delegation doctrine concerns, 
because it would give a nongovernmental contractor authority to 
implement changes in Government policy and decide which policies should 
be changed. To avoid these concerns, we would construe section 3(b) as 
not necessarily requiring VA to implement the plan.
    There may also be little value for VA to enter into a contract with 
a nongovernmental entity to review and report on VA's management 
training programs. VA already has a robust portfolio of learning and 
development offerings available to its executives, including executive 
coaching, onboarding and orientation programs, and just-in-time 
workshops, which develop the critical skills required to address VA's 
current challenges. In addition, VA works with OPM, which offers cost-
free guidance to Federal agencies on management training.
    The costs associated with this section are as follows:

    <bullet> Initial year/first year costs:
            Performance Appraisal System:
         - SES Automated System: $18,000
         - GS Automated System: $3,000,000
         - Nongovernment Independent Training (one time cost): 
        $1,250,000

    <bullet> Five Year Costs:
            Performance Appraisal System:
         - SES Automated System: $90,000
         - GS Automated System: $5,000,000
            SES Relocation:
         - Relocation Costs (negotiable per contract) $21,000,000
         - Relocation Costs (required by regulation) $90,000,000

    <bullet> Ten Year Costs:
            Performance Appraisal System:
         - SES Automated System: $180,000
         - GS Automated System: $7,500,000
            SES Relocation:
         - Relocation Costs (negotiable per contract): $42,000,000
         - Relocation Costs (required by regulation): $180,000,000

    Section 719 would limit the Secretary's authority to place VA 
Senior Executives on administrative leave or in any other type of paid 
non-duty status for more than 14 days during a 365-day period.
    While VA does not object to the purpose of section 719, it does 
have significant concerns about the section, as currently drafted. VA 
recommends removing ``any other type of paid non-duty status'' from 
section 719(a), as this could be construed to mean that sick leave, 
earned annual leave, and excused absences for other purposes (such as 
weather-related closures), which are types of paid non-duty status, 
would also be subject to the limitations in this section. VA also 
recommends that the limitation of 14 days be increased to 60 days, as 
most administrative investigations that form the basis for disciplinary 
action take at least 30 days to complete.
    VA is unable to determine the costs for this section.
    For the reasons stated above, VA has major legal and policy 
concerns with S. 290.
           s. 563, physician ambassadors helping veterans act
    S. 563 would create a new section 7405A in title 38 establishing 
the Physician Ambassadors Helping Veterans Program. The bill would 
require VA to use its authority under 38 U.S.C. 7405 to seek to employ 
physicians on a without-compensation basis in any practice area where 
the average wait time for veterans seeking care exceeds VA's wait time 
goals or in any medical facility with demonstrated staffing shortages. 
The bill would also require the appointment of a volunteer coordinator, 
who would seek to establish relationships with local medical 
associations, recruit physicians for employment under this Program, and 
serve as the initial point of contact for physicians seeking employment 
on a without-compensation (WOC) basis in the facility. The bill would 
require that physicians appointed on a WOC basis agree to commit to 
serving a minimum of 40 hours in a year in the facility where they have 
been appointed. VA would be required to provide a credential or 
privilege, or decide within 60 days that such credentials or privileges 
will not be granted, for physicians who seek non-compensation 
employment under this Program. VA would be required to submit an annual 
report to Congress on physicians employed under this Program; the 
report would be required to include the number of physicians employed 
on a WOC basis in each Veterans Integrated Service Network (VISN) and 
information about staffing levels and appointment waiting times for 
facilities in each VISN.
    VA greatly values the services of WOC physicians, and will continue 
to leverage existing authorities to encourage WOC physicians to provide 
additional clinical capacity and expertise, but VA does not support 
S. 563 because VA already has authority to appoint WOC physicians under 
38 U.S.C. 7405. Under current practice, the facility Chief of Staff, 
Physician Recruiter, or another member of the Human Resources Office 
coordinates WOC physician recruitment efforts, while the legislation 
would require a new position, the Volunteer Coordinator, to handle 
these responsibilities. Additionally, the legislation directs the 
Medical Facility Director to grant credentials or privileges to 
practice medicine within 60 days, but there may be circumstances in 
which a determination could not be made within that time period. For 
example, if there was a pending investigation underway, a history of 
patient complaints, or a refusal or inability to comply with VA 
standards or protocols, it could be difficult to make a determination 
in the allotted time. Similarly, it may be particularly difficult to 
make these determinations for international medical graduates. 
Furthermore, the bill's reporting requirements would be resource 
intensive because VA does not currently have an automated system to 
track or monitor appointees in WOC status.
    VA estimates the costs of this bill would be negligible and would 
only be required for administration of the bill's requirements.
         s. 564, veterans hearing aid access and assistance act
    S. 564 would amend VA's appointment authority to include licensed 
hearing aid specialists and would require an annual report on the 
provision of hearing aid services to Veterans. Section 2(a) of S. 564 
would amend 38 U.S.C. 7401(3) to include ``licensed hearing aid 
specialists,'' and would include ``licensed hearing aid specialists'' 
among those whose qualifications can be prescribed by the Secretary.
    VA does not support section 2(a) of S. 564 because we do not 
believe it is necessary. VA already has authority under 38 U.S.C. 
7401(3) to appoint health care occupations it considers ``necessary for 
the recruitment and retention needs of the Department.'' Additionally, 
VA has authority under 38 U.S.C. 7402(b)(14) to establish qualification 
standards for health care occupations. Further, VA has concerns about 
the lack of standardized educational or professional health licensure 
requirements for hearing aid or instrument specialists. If this 
employee category is added to title 38, it could fragment hearing 
health care services and limit the delivery of comprehensive hearing 
health care.
    VA provides comprehensive hearing health care services and employs 
both audiologists and audiology health care technicians who, in 
collaboration, deliver high quality and efficient care. VA audiologists 
are doctoral-level professionals trained to diagnose and treat hearing 
loss, acoustic trauma and ear injuries, tinnitus, auditory processing 
disorders, and patients with vestibular complaints. VA currently 
employs 320 audiology health technicians (commonly known as audiology 
assistants) who function under the supervision of audiologists. Some of 
these audiology health technicians are licensed as hearing aid 
specialists, although they are hired as health technicians whether or 
not they are licensed as hearing aid specialists. VA can appoint 
hearing aid specialists as audiology health technicians under title 5. 
Audiology health technicians have a broader scope of practice than the 
typical hearing aid specialist. VA developed this position associated 
core competencies for health technicians to provide efficient support 
services and assist audiologists in providing comprehensive hearing 
care. VA audiology health technicians have duties and responsibilities 
beyond that allowed by State law for hearing aid specialists. The 
majority of states (33) only require a high school education, while 
nine states have no educational requirement and eight states require an 
associate degree. Hearing instrument specialists are licensed to sell 
hearing aids and are regulated primarily for their hearing aid sales 
roles. The license does not require professional education, clinical 
training, or experiential health care apprenticeships. Using 
occupations with limited or inconsistent educational and licensing 
requirements would fragment VA's current high quality health care 
delivery system.
    Section 2(b) of S. 564 would require VA, not later than 1 year 
after the date of the enactment of this Act and not less frequently 
than once every year thereafter, to report to Congress on several 
matters. First, VA would be required to report on timely access to 
Veterans to hearing health services furnished directly by VA, and VA's 
contracting policies for providing health care services to Veterans at 
non-VA facilities. VA would be required to report on staffing levels of 
audiologists, hearing aid specialists, and health technicians in 
audiology; a description of performance metrics with respect to 
appointments and care; the average wait times for appointments for 
disability rating evaluations, hearing aid evaluations, dispensing of 
hearing aids, and any follow-up hearing health appointments; and the 
percentage of Veterans whose waits times fell within certain defined 
time periods. Each report would also be required to include the number 
of Veterans who received care in the community for hearing health care 
appointments, the number of Veterans referred for certain identified 
services, and the policies of the Veterans Health Administration 
regarding the referral of Veterans to care in the community, and a 
description of how such policies will be applied under the Patient-
Centered Community Care (PC3) program.
    VA does not support section 2(b) of S. 564 because it is 
unnecessary. The requested data and information are already compiled as 
part of an ongoing and automated process. VA would be happy to brief 
the Committee on the various types of information currently compiled 
and disseminated on staffing levels and access to care.
    Furthermore, VA recommends against requiring in statute reporting 
standards specific to the PC3 program. Under the VA Budget and Choice 
Improvement Act, Public Law 114-41, VA is required to review the full 
range of its current Care in the Community program, including PC3, and 
submit a report to Congress with recommendations for how to consolidate 
these authorities and programs into a single program to be known as the 
``Veterans Choice Program.'' Until such a review and plan is complete, 
we believe it would be inappropriate to institute a reporting 
requirement that may have little purpose or value in the future if the 
PC3 program is modified.
    VA cannot estimate the cost of this provision at this time because 
we cannot know at what grade these positions would be classified, so we 
cannot determine the average salary or benefits for these positions.
  s. 1450, department of veterans affairs emergency medical staffing 
                     recruitment and retention act
    S. 1450 would allow VA to arrange flexible physician and physician 
assistant work schedules to allow for the hiring and full 
implementation of a hospitalist physician system and to accommodate the 
unusual work schedule requirements for Emergency Medicine (EM) 
Physicians.
    VA supports increased flexibility for critical medical personnel. 
Hospitalist physicians and EM physicians specialize in the care of 
patients in the hospital, often working irregular work schedules to 
accommodate the need for continuity of efficient hospital care. VA 
believes that increased scheduling flexibility would align VA practice 
with the private sector, facilitating the recruitment, retention of 
emergency physicians and the recruitment, retention and operation of a 
hospitalist physician system at VA medical centers (VAMC). We note 
concerns that the Office of Personnel Management will provide in its 
statement for the record with respect to certain of the bill's 
provisions. The Administration looks forward to working with the 
Congress and our agency partners to finalize language on these 
provisions.
    VA believes S. 1450 would be cost neutral in terms of impact on 
salaries as it merely authorizes flexibility in physician and physician 
assistant work schedules to allow for the hiring and full 
implementation of a hospitalist physician system and improvements in EM 
physician coverage and enhanced ability to recruit EM trained and 
experienced physicians.
 s. 1451, veterans' survivors claims processing automation act of 2015
    S. 1451, the ``Veterans' Survivors Claims Processing Automation Act 
of 2015,'' would authorize VA to pay benefits to a survivor of a 
Veteran who has not filed a formal claim if the record contains 
sufficient evidence to establish the survivor's entitlement to such 
benefits. The bill would specify that the date on which a survivor 
notifies VA of the Veteran's death would be treated as the date of 
receipt of the survivor's application for benefits. S. 1451 would be 
applicable to claims based on a death occurring on or after the date of 
enactment of this legislation.
    VA supports S. 1451. The Department submitted a similar legislative 
proposal for the Fiscal Year (FY) 2016 Budget. Under 38 U.S.C. 5101(a), 
a claimant must file a formal claim as a condition of receiving 
benefits. However, when a survivor of a Veteran files a claim for VA 
benefits based upon the Veteran's death, the information and evidence 
necessary to decide the claim is often contained in the Veteran's 
claims file. As a result, it is not necessary from a practical 
standpoint for a claimant to file a formal claim in such circumstances. 
Elimination of the formal-claim requirement would automate the delivery 
of uninterrupted benefits to qualifying survivors.
    VA has one technical comment. VA would prefer to change the 
language from ``the date on which a survivor of a Veteran notifies the 
Secretary of the death of the Veteran,'' to ``the date on which the 
Secretary is notified of the Veteran's death.'' The modified language 
would allow VA to be more liberal when providing benefits in instances 
where the survivor is not the individual notifying VA of the Veteran's 
death.
    VA estimates that there would be no benefit or general operating 
expenses (GOE) associated with S. 1451.
            s. 1460, fry scholarship enhancement act of 2015
    S. 1460 would allow recipients of the Marine Gunnery Sergeant John 
David Fry Scholarship to be eligible for the Yellow Ribbon program 
under the Post-9/11 GI Bill. The Yellow Ribbon program is currently 
available to Veterans and most transfer-of-entitlement recipients 
receiving Post-9/11 GI Bill benefits at the 100% benefit level 
attending institutions of higher learning. The program provides payment 
for up to half of the tuition-and-fee-charges that are not covered by 
the Post-9/11 GI Bill, such as charges that exceed an academic year cap 
or out-of-state charges, if the institution enters into an agreement 
with VA to pay or waive an equal amount of the charges that exceed 
Post-9/11 GI Bill coverage. This bill would take effect for the 
academic year (August 1) beginning after the date of enactment.
    VA does not object to S. 1460, subject to Congress identifying 
acceptable offsets for the additional benefit costs. VA would need to 
make modifications to its existing information technology (IT) systems 
to implement this legislation. Specifically, VA would need to modify 
the Benefits Delivery Network (BDN), the VA-Online Certification of 
Enrollment (VA-ONCE), and the Post-9/11 GI Bill Long-Term Solution 
(LTS), to calculate eligibility and award Yellow Ribbon program 
payments for Fry Scholarship beneficiaries. VA estimates that it would 
require 1 year from the date of enactment to make the IT system changes 
necessary to implement the proposed legislation.
    VA estimates the benefit costs associated with enactment of the 
bill to be $492,000 in FY 2016, $2.7 million over 5 years, and $6.2 
million over 10 years. Although VBA administrative costs are estimated 
to be insignificant, IT costs are estimated to be $5 million. This IT 
estimate consists of the design, development, testing, and deployment 
of the new functionality that would be needed to meet the requirements 
of this legislation.
      s. 1693, expanding emergency treatment for certain veterans
    Today, only Veterans who are ``active Department health-care 
participants'' (as defined by 38 U.S.C. Sec. 1725(b)) and who meet all 
of the other administrative and clinical eligibility criteria of 
section 1725 are eligible to receive reimbursement under this section 
for the reasonable value of (unauthorized) non-VA emergency treatment 
of non-service-connected disabilities furnished them by non-VA 
emergency providers. To be such a participant, a Veteran, in addition 
to being enrolled in VA's health care system, must, pursuant to section 
1725(b)(2)(B), have received care under 38 U.S.C. chapter 17, within 
the 24-month period preceding the furnishing of the non-VA emergency 
treatment. S. 1693 would amend section 1725(b)(2)(B) to include 
Veterans who have been unable to receive care under chapter 17 within 
the mandated 24-month period because of a waiting period imposed by the 
Department with respect to a new patient examination of such Veterans.
    VA supports S. 1693 but, as discussed below, requests that no 
further action be taken at this time. We recognize that some Veterans 
have been enrolled in VA's health care system but unable to become 
actual users of the system because they have not been able to receive 
their ``new patient examination'' due to waiting periods (in 
appointment scheduling) for care in VA. As a result, although enrolled, 
they fail to meet the full statutory definition of an ``active 
Department health-care participant'' for purposes of being able to 
receive reimbursement under section 1725. The bill would provide a fair 
remedy for those whose section 1725 claims are denied solely because VA 
scheduling procedures and wait times prevented them from receiving VA 
care within the 24-month period preceding their receipt of non-VA 
emergency treatment.
    While the goal of this bill is well-intentioned, we believe it 
premature for Congress to take any action on this measure until VA has 
completed its comprehensive review of the Department's Care in the 
Community programs, which includes a review of the monetary benefits 
available under section 1725. For that reason, we respectfully request 
that the Committee forbear consideration of S. 1693 (and any similar 
measure) until VA has an opportunity to complete its review and share 
the results, including recommendations, with the Committee.
    VA estimates that the cost associated with enactment of S. 1693 
would be $2.86 million in FY 2017, $3.0 million in FY 2018, $15.8 
million over 5 years, and $35.8 million over 10 years.
       s. 1856, va equitable employee accountability act of 2015
    S. 1856, the ``Department of Veterans Affairs Equitable Employee 
Accountability Act of 2015,'' would amend chapter 7 of title 38 of the 
United States Code by adding new sections 715, 709A, 717, and 719. It 
would also amend chapter 73 of Title 38 by adding a new section 7324A. 
These sections would affect all VA employees occupying a position under 
a permanent or indefinite appointment who are not on a probationary or 
trial period.
    S. 1856 is a more measured alternative to a series of recent 
legislative proposals targeting VA employees by providing extraordinary 
authority to sanction them, not available in other Federal agencies. 
However, VA has legal and policy concerns with S. 1856.
    Section 2(a) of S. 1856 would amend chapter 7 of Title 38 by adding 
in a new section 715, which would give the Secretary authority to 
suspend a VA employee without pay if the Secretary determines the 
performance or misconduct of the employee is a clear and direct threat 
to public health or safety. The Secretary would be authorized to remove 
an employee so suspended after providing a written statement of 
charges, allowing the employee not less than 7 business days to respond 
to the charges, and, at the request of the employee, providing a formal 
review of the proposed removal action within 15 business days of the 
employee's request. A decision to remove an employee under section 715 
could be appealed to the Merit Systems Protection Board (MSPB) under 
section 7701 of Title 5, and employees may seek judicial review of an 
MSPB decision under section 7703 of Title 5. If the Secretary 
determines a suspension or removal under this provision is unwarranted, 
illegal, violates a collective bargaining agreement, or is a prohibited 
personnel action, the employee is entitled to back pay for the time the 
employee was suspended or removed. At this time the Department does not 
have costs associated with this section.
    Section 715 raises a number of policy concerns. Under section 715, 
an employee would be able to have his or her proposed removal reviewed 
by a ``Department authority duly constituted for purposes of this 
section,'' before the Secretary can make a determination on the 
removal. An employee would also be entitled to appeal a removal 
decision to the MSPB and subsequently to the U.S. Court of Appeals for 
the Federal Circuit. Typically, an employee who is removed from the 
government receives notice of a proposed removal, an opportunity to 
respond, and a decision on the proposed removal. If entitled, the 
employee may appeal the removal action to the MSPB, or the employee may 
file a discrimination or whistleblower retaliation complaint. If the 
employee appeals to the MSPB, the employee may seek judicial review of 
the MSPB decision before the U.S. Court of Appeals for the Federal 
Circuit. By adding in a new departmental review, section 715 would add 
in an unnecessary new process, because a removal proposed under this 
section is already subject to review by the Secretary, and 
subsequently, if the action is taken, by the MSPB and the U.S. Court of 
Appeals for the Federal Circuit. Section 715 would also add to the cost 
of the agency to litigate and adjudicate the personnel action, as the 
section requires a new ``Department authority duly constituted for 
purposes of this section.'' To remedy this policy problem, VA 
recommends eliminating the departmental review in section 715(b)(3).
    VA also recommends that section 715 apply in cases where the 
Secretary determines the performance or misconduct of an employee 
``significantly or adversely impacts Veteran health care or benefits.'' 
This standard, in lieu of the proposed ``clear and direct threat to 
public health or safety'' standard is more particularly suited to the 
mission of VA and will provide the Secretary better flexibility in 
addressing its unique mission needs. In addition, it will avoid the 
application of case law decided in other contexts that have previously 
interpreted ``clear and direct threat to public safety'' in a manner 
that could restrict the Secretary's ability to invoke section 715. 
Similarly, VA recommends the proposed standard for removal in section 
715(a)(2) be changed from ``is necessary in the interests of public 
health or safety,'' to `` is necessary in the interests of providing 
quality veteran health care and benefits.''
    The back pay provision in section 715(e) provides a modicum of 
protection for employees who ultimately have their suspensions or 
removals under this section reversed. However, VA recommends clarifying 
that the determination that triggers back pay can be made by the 
Department, the Secretary, or by the courts on appeal. As currently 
drafted, the back pay provision is limited to determinations made only 
by the Secretary. Finally, to clarify the Secretary's authority when 
section 715 is invoked, VA recommends adding the clause, 
``Notwithstanding any other provisions of law,'' to subsections 715(a), 
(b), and (c).
    Section (2)(c) of S. 1856 would require the Inspector General to 
submit, no later than one year after S. 1856 is enacted, a report to 
Congress on the number of suspensions or removals taken pursuant to 
section 715. The Inspector General's report must include, among other 
things, the number of ``suspensions or removals that the Inspector 
General considers to be retaliation for whistleblowing.'' VA recommends 
removing section 2(c)(2)(E), as the Inspector General is not involved 
in taking disciplinary actions under section 715 and, moreover, may not 
be able to make a finding of whistleblower retaliation.
    Section 3 of S. 1856 would amend chapter 7 of Title 38 by adding in 
a new section 709A, which would require the Secretary to annually 
assess the performance of political appointees in a manner similar to 
the assessment of career Senior Executive Service employees.
    Section 4 requires managers to determine, not later than 30 days 
before the end of the probationary period, whether the employee has 
demonstrated successful performance. Probationary employees can be 
terminated for performance or conduct deficiencies and as such, it is 
recommended that the language be amended to require managers to also 
determine if the employee's conduct warrants continued employment past 
the probationary period. It should be noted that some probationary 
employees may meet the definition of ``employee'' as outlined in 5 
U.S.C. 7511, and if a probationer meets the definition of ``employee,'' 
management can no longer terminate during the probationary period with 
limited due process and appeal rights. Therefore, in some cases, even 
if a manager were to determine that a probationary employee was not 
suitable for continued employment, an employee who is serving a 
probationary period but has completed more than 1 year of current 
continuous service would be entitled to due process, including, if 
applicable, a performance improvement plan or application of 
progressive discipline, 30-days advanced notice, a right to review 
evidence, application of mitigating and aggravating factors, etc., 
prior to separation.
    Section 5 of S. 1856 requires that VA evaluate managers, as part of 
their annual performance plans, on actions that they have taken to 
address poor performance and misconduct among subordinate employees and 
steps that that the manager has taken to improve or sustain high-levels 
of employee engagement. VA is already committed to the principles of 
section 5 of S. 1856 and supports this section.
    Section 6 of S. 1856 would require VA to provide all managers with 
periodic training on whistleblower rights and managing and motivating 
employees. VA already offers managers the training discussed in section 
6. Moreover, some training, such as whistleblower rights and 
protections, is already required for all managers. Nevertheless, VA is 
committed to the principles of section 6 of S. 1856 and supports this 
section.
    Section 7 of S. 1856 would require VA to develop a promotional 
track, which does not involve a transition to a management position, 
for employees who are considered technical experts. VA is committed to 
ensuring that its employees are allowed to advance in their careers, 
regardless of whether the employee wants to be a manager. Consequently, 
VA supports this section.
    Section 8 of S. 1856 would amend Title 5 to expand the definition 
of ``personnel action'' under 5 U.S.C. 2302, which addresses prohibited 
personnel practices, to include performance evaluations under Title 38. 
VA is committed to ensuring that all performance evaluations are based 
on merit. Consequently, we do not have any legal or policy concerns 
with section 8.
    Section 9 of S. 1856 would require that any VA employee who 
participated personally and substantially in a VA acquisition over 
$1,000,000 or held a key position relating to acquisition obtain a 
written opinion from an ethics counselor regarding restrictions on 
activities that the official may undertake on behalf of a VA contractor 
or subcontractor within a 2 year period beginning on the date that the 
employee terminates his or her employment with VA.
    VA has some legal and policy concerns about section 9. The 
$1,000,000 threshold under section 9 would seemingly encompass a large 
number of VA's acquisitions. Moreover, this threshold falls below the 
$10,000,000 threshold set under the Procurement Integrity Act. To that 
extent, VA recommends that the acquisition threshold for section 9 be 
set at $10,000,000. Section 9, as currently drafted, would also 
encompass all acquisitions that an employee worked on during their 
career at VA. Because this number can be significant, VA recommends 
that language be inserted to section 9 that triggers the requirement 
under that section to acquisitions in which the employee participated 
during his or her last year of employment with VA. Limiting section 9 
to the employee's last year of employment with VA also mirrors the 
criminal conflict of interest statute, 18 U.S.C. 207, which prohibits 
employees from representing any non-Federal parties in connection with 
any specific party matters that were under their official 
responsibility during the last year of employment. Assuming that VA's 
recommended changes to section 9 are incorporated, similar changes 
should also be made to section 10 of S. 1856.
    Section 11 of S. 1856 stipulates that the Secretary may not place 
any covered individual on administrative leave for more than a total of 
14 business days during any 365 day period without notification to the 
Committees on Veterans' Affairs of the Senate and the House of 
Representatives. A covered employee is one who is subject to 
investigation or for whom any disciplinary action is proposed or 
initiated. An investigation conducted by local VA employees typically 
takes a minimum of 60 calendar days to complete and 45 calendar days 
for Department employees from outside the local facility. Therefore, VA 
suggests that this language be modified to allow the Secretary to 
approve 30 business days of administrative leave under the 
circumstances described in this section.
    In section 719(c)(1) and (2), administrative leave includes ``leave 
to which an employee of the Department is otherwise entitled, or credit 
for time or service'' and ``includes any type of paid non-duty 
status.'' Based on this language, the Secretary would be required to 
report to Congress any annual leave, sick leave, leave without pay, 
credit hours, compensatory hours, or excused absence for weather 
related events, for example, taken by an employee in excess of 7 
business days. Therefore, VA suggests modifying the in section 
719(c)(1) to language used by OPM, which is ``an administratively 
authorized absence from duty without loss of pay or charge to leave for 
which the employee is placed due to an investigation or for whom any 
disciplinary action is proposed or initiated.'' It is also suggested 
that section 719(c)(2) be modified to include the clause ``without a 
charge to leave'' to clarify the definition of administrative leave..
    Section 12 of S. 1856 would amend chapter 73 of Title 38 by adding 
in a new section 7324A to Title 38, which would require, within 60 days 
of the date of enactment of S. 1856 and periodically thereafter, VA's 
Office of Medical Inspector (OMI) to submit ``a report on any problems 
or deficiencies encountered by the Department in carrying out the 
programs and operations of the Veterans Health Administration, 
including any recommendations for corrective action.'' Under section 
7324A, OMI's report must be submitted to the Secretary, the Under 
Secretary for Health, and Congress.
    VA does not support section 7324A(a), as OMI's work would be 
duplicative of reports produced by VA's Office of Inspector General's 
(OIG), Office of Healthcare Inspection. OIG's Office of Healthcare 
Inspection routinely prepares reports on deficiencies within the 
Veterans Health Administration, and these reports include 
recommendations for corrective actions. OIG submits these reports to 
the Secretary and the Under Secretary for Health, in addition to both 
the House and Senate Committees on Veterans' Affairs.
    However, VA supports section 7234A(b), which would require OMI to 
provide their reports to Congressional oversight committees, as this 
would promote transparency, ensuring that Members of Congress are 
apprised of the issues encountered in the conduct of OMI's 
investigations. It will also help to restore trust in OMI and in VHA's 
broader quality assurance mission.
    However, only a small percentage of OMI's work in recent years 
consists of internal reviews requested by the Secretary or Under 
Secretary for Health, or so-called ``blue cover'' reports requested by 
Members of Congress. Approximately 95 percent of OMI's current work 
involves investigating whistleblower allegations that are referred to 
the Secretary by the U.S. Office of Special Counsel (OSC) for review. 
The Office of the Secretary releases VA's report of investigation to 
OSC, which then provides un-redacted copies (along with its 
determination whether each report meets statutory requirements) to the 
House and Senate oversight committees when OSC eventually closes the 
case.
    VA also supports section 7234A(c), which requires protecting any 
medical or other personally identifiable information contained in its 
reports. Currently, VA redacts such information from reports before 
they are shared with the public.
    If enacted, VA anticipates the cost for implementing section 7324A 
would be approximately $150,000 during the first year, $750,000 for the 
first 5 years, and $1,500,000 for 10 years.
    Section 13 of the bill would require a report from the Comptroller 
General on the implementation of these provisions and as assessment of 
the effects of these provisions. We defer to the U.S. Government 
Accountability Office on this provision.
    VA is unable to determine costs for the remainder of the 
legislation. However, there could be significant costs to VA to defend 
the Government in litigation over the legislation in courts.
    VA also has policy concerns about the implementation of section 
S. 1856; however, these concerns are more limited than our concerns 
with other pending legislation. VA is concerned that the provisions in 
this bill would impede VA's ability to recruit, retain, reward, and 
manage world-class talent to lead and sustain a transformed VA.
    The Secretary has made it clear that he intends to transform VA 
into an organization that focuses on Veterans. This transformation 
depends on a world-class workforce who are trained and motivated to 
contribute their talents to the VA and our Veterans in better, more 
effective ways. VA fully supports the concept that employees whose 
performance and conduct does not meet the standards our Veterans 
deserve must be held accountable. However, by singling out VA 
employees, many of whom are Veterans themselves, with legislation that 
provides them fewer protections and subjects them to greater scrutiny, 
a clear message is sent that VA employees are in a different, inferior 
class within the Federal workforce--a class that needs very close 
oversight with rapid and severe penalties for misdeeds or poor 
performance. This will hinder the Secretary's efforts to make the ``VA 
class'' of employees the very finest employees to serve our Veterans 
and ensure that they timely receive the benefits and care to which they 
are entitled.
           s. 1938, career ready student veterans act of 2015
    S. 1938, the ``Career-Ready Student Veterans Act of 2015,'' would 
amend title 38, United States Code, to improve the approval of certain 
VA programs of education for purposes of educational assistance.
    This bill would amend 38 U.S.C. 3676(c), pertaining to the approval 
of non-accredited courses, by adding new requirements to the criteria 
that must be met for State approving agencies to approve institutions' 
written applications for approval of non-accredited courses. First, in 
the case of a program designed to prepare an individual for licensure 
or certification in a State, the program would need to meet any 
instructional curriculum licensure or certification requirements of 
that State. Second, in the case of a program designed to prepare an 
individual for employment pursuant to standards developed by a board or 
agency of a State in an occupation that would require approval or 
licensure, the program would need to be approved or licensed by such 
board or agency of the State.
    The bill also would add subsection (f) to section 3676 to permit VA 
to waive the aforementioned requirements in the case of a program of 
education offered by an educational institution if VA determined:

    <bullet> The educational institution was accredited by an agency or 
association recognized by the Department of Education;
    <bullet> The program did not meet the requirements at any time 
during the two-year period preceding the date of the waiver;
    <bullet> The waiver furthers the purposes of the educational 
assistance programs administered by VA or would further the education 
interests of individuals eligible for assistance under such programs;
    <bullet> The educational institution does not provide any 
commission, bonus, or other incentive payment based directly or 
indirectly on success in securing enrollments or financial aid to any 
persons or entities engaged in any student recruiting or admission 
activities or in making decisions regarding the award of student 
financial assistance, except for the recruitment of foreign students 
residing in foreign countries who are not eligible to receive Federal 
student assistance.

    Subsection (d) of the proposed legislation would add a new 
subsection to section 3679 of title 38 to require VA to disapprove a 
non-accredited course of education designed to prepare an individual 
for licensure or certification in a State or for employment pursuant to 
standards developed by a board or agency of a State in an occupation 
that requires approval or licensure, if the educational institution 
providing the course of education does not publicly disclose any 
conditions or additional requirements, including training, experience, 
or exams, required to obtain the license, certification, or approval 
for which the course of education is designed to provide preparation.
    Subsection (e) of this bill would amend section 3672(b)(2)(A)(i) to 
include the new approval requirements for non-accredited courses in the 
approval requirements for ``deemed approved'' accredited programs.
    The bill would also amend 38 U.S.C. 3675, to apply the new 
requirements in section 3676(c), to the approval conditions for 
accredited courses offered by private for-profit institutions.
    VA supports the intent behind this bill. However, we do not support 
the bill as currently drafted for a number of reasons.
    If enacted, the bill would ensure that non-accredited courses 
pursued by GI Bill beneficiaries meet all of the State requirements for 
licensure or certification in a given occupation or career field and 
would be approved by the State board or agency that developed the 
standards. VA does not oppose the concept of additional criteria for 
the approval of non-accredited courses. However, we note that, as 
written, the bill would not allow the Secretary to waive the 
requirement for non-accredited courses, as the institution must be 
accredited in order to meet the criteria for a waiver. VA is unclear as 
to the reason why an accreditation requirement would be inserted in the 
approval criteria for non-accredited programs. In general, an 
institution's accreditation applies to all of the courses offered by 
the institution, and accredited courses have different approval 
requirements.
    Additionally, the bill would ensure that accredited courses at 
private, for-profit institutions meet all State requirements for 
certification and licensure. VA supports efforts to ensure that 
Veterans and other GI Bill beneficiaries are well-trained and 
adequately equipped to obtain employment and achieve economic success. 
However, we note that the proposed licensure and certification 
requirements would not be applied to similar programs at public and 
private, not-for-profit institutions. Consequently, the bill does not 
ensure that all Veterans and beneficiaries would receive all of the 
training required for licensure or certification in their chosen 
occupational fields.
    VA also has concerns about the language in the new section 3679(d), 
which would require the disapproval of waived programs if the 
educational institution does not publicly disclose the additional 
conditions or requirements needed in order to meet licensing or 
certification requirements. VA believes ``the Secretary or the 
appropriate State approving agency'' should be substituted for ``the 
Secretary,'' as the State approving agencies are responsible for the 
approval of non-accredited courses. As State employees, they have 
subject matter expertise with regard to the specific State requirements 
for licensure or certification and, consequently, are better-positioned 
to determine the gaps in training or conditions that must be 
publicized. In addition, to be consistent with approval authorities in 
other sections of chapter 36, VA believes that both the Secretary and 
the SAA should have this authority.
    VA is unclear as to the intent underlying the proposed amendment to 
3672(b)(2)(A)(i). As written, it could be interpreted to include non-
accredited programs in a ``deemed approved'' category. However, if the 
intent is to make the proposed paragraphs (14) and (15) of section 
3676(c) apply to accredited programs at public and proprietary not-for-
profit institutions of higher learning as well, then it should be 
reworded to read, ``Subject to paragraphs (14) and (15) of section 
3676(c) of this title, an accredited.'' In addition, we note that, as 
currently drafted, the licensure and certification requirements could 
not be waived for these programs. VA believes that the waiver authority 
should apply to accredited programs at public and proprietary not-for-
profit institutions of higher learning as well as to accredited courses 
at private, for-profit institutions and non-accredited programs.
    VA estimates that there would be no additional mandatory or 
discretionary cost requirements associated with the enactment of this 
bill.
      draft bill regarding improvements in educational assistance
    Section 1 of the proposed legislation would add a new section 
(3326) under subchapter III of chapter 33, title 38 U.S.C. 
Specifically, this section proposes to recodify the provisions of 
Public Law (Pub. L.) 110-252, section 5003(c), to bring those 
requirements into title 38, and it proposes a few amendments to those 
requirements.
    The Post-9/11 GI Bill (or chapter 33) requires individuals to 
relinquish eligibility to some other VA education benefit, as 
applicable, in order to receive the chapter 33 benefits.
    Subsection (a) of the proposed 38 U.S.C. 3326 would define the 
eligibility requirements for individuals to elect chapter 33 
educational benefits. Individuals would be able to elect to receive 
chapter 33 benefits if, as of August 1, 2009, they were entitled to the 
MGIB-AD, MGIB--Selected Reserve (SR), or the Reserve Educational 
Assistance Program, and had some or all of their entitlement remaining 
under those programs. Individuals would be able also to elect chapter 
33 if they are making contributions to receive MGIB-AD, or previously 
declined participation in the MGIB-AD program.
    Subsection (b) of the proposed 38 U.S.C. 3326 would call for the 
cessation of contributions toward MGIB-AD if an individual elects to 
receive chapter 33 while still making contributions to MGIB-AD. The 
obligation to make contributions would cease the first month after the 
individual elects chapter 33 benefits.
    Subsection (c) of the proposed 38 U.S.C. 3326 would address the 
revocation of remaining entitlement transferred to a dependent under 
MGIB-AD, if the individual who transferred the benefit elects to 
receive chapter 33 benefits instead. The proposed legislation would 
allow the transferor to revoke any unused benefits that have been 
transferred to a dependent. If the transferor revoked the transferred 
benefits from his or her dependent, then the remaining entitlement 
would be available for the transferor to use under chapter 33. If the 
transferor did not elect to revoke the transferred MGIB-AD benefits, 
then those benefits would remain available to the dependent under MGIB-
AD.
    Subsection (d) of the proposed 38 U.S.C. 3326 would state that 
individuals who make an election would be eligible for benefits under 
chapter 33, rather than under the relinquished benefit. It also would 
state that if individuals elected to receive chapter 33 in lieu of 
MGIB-AD, and had previously used entitlement under MGIB-AD, they would 
have eligibility under chapter 33 for the number of months of 
entitlement that were remaining under MGIB-AD, plus any entitlement 
that was revoked from a dependent in accordance subsection (c).
    Subsection (e) of the proposed 38 U.S.C. 3326 would allow 
individuals who elect to receive educational assistance under chapter 
33 to receive payments at the rate available under the relinquished 
benefit if their educational pursuit is authorized under the 
relinquished benefit, but not under chapter 33. Any entitlement used 
would be charged against chapter 33 in the same manner as it would be 
charged against the relinquished benefit.
    Subsection (f) of the proposed 38 U.S.C. 3326 would outline 
additional chapter 33 assistance for members who made contributions 
toward the MGIB-AD program. A refund of MGIB-AD contributions would be 
issued to a qualifying Veteran as an increase to the last monthly 
housing stipend when benefit entitlement is exhausted. The amount of 
the refund would be calculated by taking the remaining months of 
entitlement under MGIB-AD, at the time of the chapter 33 election, plus 
the number of months, if any, of entitlement under chapter 30 that were 
revoked by the individual and dividing that number by 36. The result 
would be multiplied by the dollar amount that the Veteran contributed 
toward the MGIB-AD, and the resulting amount would be issued in 
conjunction with the final monthly housing stipend. This proposed 
legislation would also change the corresponding language currently 
contained in section 5003(c) of Pub. L. 110-252 by also authorizing 
refunds to individuals pursuing programs at non-degree granting 
institutions.
    Subsection (g) of the proposed 38 U.S.C. 3326 would provide for 
continued entitlement to additional assistance for critical skills, 
specialty, and/or service (i.e., a college fund or kicker) to which an 
individual was entitled under MGIB-AD or MGIB-SR prior to relinquishing 
one of those benefits and establishing eligibility under chapter 33. 
The additional assistance would be paid in conjunction with the 
individual's monthly housing stipend.
    Subsection (h) of the proposed 38 U.S.C. 3326 would provide VA with 
the authority to make an alternative election for an individual if the 
election submitted by the applicant is not in his or her best interest. 
If an individual elected to receive a benefit that would be clearly not 
in his or her best interest on or after January 1, 2016, VA would be 
able to change the election and would be required to notify the 
individual of the change within 7 days. The individual would be allowed 
30 days from the date he or she received the VA notification to modify 
or revoke the election made by VA. In addition, VA would notify the 
individual of the change of election by electronic means whenever 
possible. These provisions are not included in section 5003(c) of Pub. 
L. 110-252; therefore, they would constitute a new authority.
    Subsection (i) of the proposed 38 U.S.C. 3326 would provide that 
any election made under section 3326 would be irrevocable.
    Finally, this section would repeal subsection (c) of section 5003 
of the Post-9/11 Veterans Educational Assistance Act of 2008 (Pub. L. 
110-252; 38 U.S.C. 3301 note).
    VA does not object to (a) through (g) of the proposed 38 U.S.C. 
3326 because these provisions are, generally, identical to those that 
were enacted in section 5003(c) of Pub. L. 110-252, with the exception 
of one minor change in the proposed section 3326(f), which would also 
authorize refunds of MGIB-AD contributions to individuals receiving 
monthly stipend payments for pursuit of non-degree programs under 38 
U.S.C. 3313(g).
    However, VA has concerns with subsection (h) of the proposed 38 
U.S.C. 3326, which would allow VA to make an alternative election on 
behalf of the Veteran that VA determines is in his or her best 
interests. As individuals' situations are different, elections made in 
the best interest of a Veteran would be highly subjective. While one 
claims examiner might view an election option as being the best, 
another might disagree. Therefore, VA recommends specific criteria for 
an election be added to the legislation that would eliminate 
subjectivity. For example, in some instances, a Veteran elects to 
relinquish MGIB-AD to receive chapter 33 benefits when he or she has 
only a few months of MGIB-AD entitlement remaining. If the individual 
has more than one qualifying period of service, it may be in that 
individual's best interest to finish 36 months of entitlement under 
MGIB-AD before beginning to receive chapter 33 benefits--the individual 
could then receive up to 12 months of entitlement under chapter 33. If 
this situation met the criteria in the legislation as enacted, the 
Veteran's claim would be processed under the chapter 30 program until 
his or her entitlement under that program ends.
    VA also recommends that the proposed legislation include language 
to allow VA to make an election in cases where a Veteran or 
Servicemember applies for chapter 33 benefits and does not elect to 
relinquish any benefit. This would allow VA to maximize automation, 
improve processing times, and obviate the need to contact the Veteran 
for an election.
    Further, VA has concerns with the impact this subsection would have 
on the automation of original claims using LTS. If VA has to make an 
alternative election under chapter 33 when a Veteran is eligible for 
more than one benefit, claims' examiners would have to review the 
majority of chapter 33 original claims. The need for this review would 
limit the number of original claims that could be automated through LTS 
without human intervention, increasing the length of time that Veterans 
would be waiting to receive their benefits.
    VA estimates the cost of this section would be insignificant 
because subsections (a) through (g) of the proposed 38 U.S.C. 3326 are 
provisions that are already in place under section 5003(c) of Pub. L. 
110-252 and, therefore, would result in no additional cost. In some 
cases, subsection (h) may result in a Veteran receiving a better 
benefit that would increase costs to VA. However, due to VA's current 
outreach efforts, such as the GI Bill Comparison Tool, and the amount 
of information available to assist Veterans in making informed 
decisions on education benefits, VA does not anticipate making a 
significant number of alternative elections. Therefore, anticipated 
costs to the readjustment benefits account are insignificant.
    Section 2 would amend 38 U.S.C. 3684(a) to define the term 
``educational institution'' to include a group, district, or consortium 
of separately accredited educational institutions located in the same 
State, and which are organized in a manner that facilitates the 
centralized reporting of their enrollments. This legislation would also 
amend section 3684(a) to include individuals enrolled under chapters 32 
and 33.
    The proposed legislation would apply to any reports of enrollment 
submitted on or after the date of enactment.
    VA supports section 2. This legislation would allow each 
institution in a district/consortium to certify a student's enrollment 
regardless of where the student is matriculated. Furthermore, since 
school certifying officials at ``District'' institutions have access to 
student records and all courses have universal numbering, VA compliance 
visits could be done at any institution and records would be available 
for students who attend any of the institutions included in the group, 
district, or consortium.
    There would be no additional cost for implementing this provision 
because the reporting fees would be paid to the school that is 
certifying the enrollment, regardless of the location of the 
institution.
    Section 3 would amend subsection 38 U.S.C. 3313(c)(1)(A) to limit 
the benefits paid for pursuit of certain degree programs at a public 
institution of higher learning (IHL). It would limit the amount of 
tuition and fees payable for certain programs at IHLs, specifically 
those that involve a contract or agreement with an entity (other than 
another public IHL) to provide a program of education or a portion of a 
program of education, to the same amount per academic year that applies 
to programs at private or foreign IHLs. This section would be effective 
the first day of a quarter, semester, or term (whatever is applicable) 
after the legislation's enactment.
    VA supports legislation that would limit the amount of tuition and 
fee payments at public IHLs that involve contracted training. VA is 
concerned about high tuition and fee payments for enrollment in degree 
programs involving flight training at public IHLs. Education benefit 
payments for these types of programs have increased tremendously with 
the implementation of Public Law 111-377, and in some cases, public 
institutions seem to be targeting Veterans for their flight-related 
training programs.
    There has been a significant increase in flight training centers, 
specifically those that offer helicopter training, that have contracted 
with public IHLs to offer flight-related degrees. Sometimes these 
programs charge higher prices than those that would be charged if the 
student had chosen to attend the vocational flight school for the same 
training.
    Additionally, VA has also noticed a growing number of VA 
beneficiaries are taking flight courses as electives. VA allows for 
``rounding out,'' whereby non-required courses may be taken to bring a 
student's course load up to full-time status in the student's last 
term. Based on anecdotal evidence, some schools are enrolling students 
in these very expensive flight courses when ``rounding out'' is 
applicable. In most cases, these courses are not specifically required 
for the Veteran's degree.
    VA is still determining the costs associated with this provision.
    Section 4 would add a new section 3699 to title 38, U.S.C., 
requiring VA to make available to educational institutions information 
about the amount of educational assistance to which a Veteran or other 
individual is entitled under chapter 30, 32, 33, or 35. This 
information would be provided to the educational institution through a 
secure information technology system accessible by the educational 
institution and updated regularly to reflect any amounts used by the 
Veteran or other individual.
    VA supports the intent behind providing educational institutions 
with the number of months of educational assistance to which a Veteran 
is entitled. Currently, VA provides the amount of a Veteran's 
entitlement (original and remaining) and other information (i.e., the 
delimiting date) to the educational institution through the VA Online 
Certification of Enrollment (VA-ONCE) system. The educational 
institution in which the student is enrolled can view this information 
for individuals training under chapters 30, 1606, and 1607 after VA 
processes an award for education benefits. This functionality is not 
currently available for Veterans or other individuals training under 
chapters 32, 33, or 35; therefore, VA would need to make programming 
changes to VA-ONCE in order to make this information available as well.
    VA recommends removing the requirement to provide information for 
individuals training under chapter 32 from the proposed legislation. 
Chapter 32 usage has decreased from 560 beneficiaries in FY 2008 to 2 
beneficiaries for fiscal year 2015 through June 30, 2015. Because 
eligibility for chapter 32 ends 10 years after an individual's release 
from active duty, the majority of those with remaining entitlement are 
likely also eligible for benefits under chapter 33.
    VA estimates the administrative costs for developing the functional 
requirements of this section to be $500,000, and the information 
technology (IT) costs associated with this section to be $5 million to 
make enhancements to VA-ONCE to provide newly required information to 
educational institutions.
    Section 5 would amend 38 U.S.C. 3672(b)(2)(A) to authorize State 
Approving Agencies (SAA) to determine if a program of education is 
deemed to be approved for purposes of this chapter if the program is 
one of the following:

    <bullet> An accredited standard college degree program offered at a 
public or not-for-profit proprietary educational institution that is 
accredited by an agency or association recognized for that purpose by 
the Secretary of Education.
    <bullet> A flight training course approved by the Federal Aviation 
Administration (FAA) that is offered by a certified pilot school that 
possesses a valid FAA pilot school certificate.
    <bullet> An apprenticeship program registered with the Office of 
Apprenticeship, Employment Training Administration, Department of 
Labor; or a State apprenticeship agency recognized by the Office of 
Apprenticeship pursuant to the Act of August 16, 1937 (popularly known 
as the ``National Apprenticeship Act;'' 29 U.S.C. 50, et seq.).
    <bullet> A program leading to a secondary school diploma offered by 
a secondary school approved in the state in which it is operating.
    <bullet> A licensure test offered by a Federal, state, or local 
government

    This legislation also would amend 38 U.S.C. 3675(a)(1) to 
substitute ``A State approving agency, or the Secretary when acting in 
the role of a State approving agency'' for ``the Secretary or a State 
approving agency.'' Further, this legislation proposes to amend section 
3675 to expand the approval of other courses by authorizing an SAA, or 
the Secretary when acting in the role of a SAA, to approve accredited 
programs (including non-degree accredited programs) not covered by 
section 3672 of title 38.
    VA supports the clarification of the approval requirements codified 
in 38 U.S.C. 3672(b)(2)(A), as detailed in section 2(a) of the proposed 
legislation. To be ``deemed approved,'' accredited programs must meet 
the requirements of a number of provisions in chapter 36 of title 38. 
Consequently, compliance with those provisions must be verified, which 
the proposed change will make more explicit. However, to be consistent 
with approval authorities in other sections of chapter 36, VA believes 
that both the Secretary and the SAA should have approval authority.
    VA also supports the proposed change to 38 U.S.C. 3675 in section 
5(b) of the bill, to make those approval provisions apply to accredited 
non-degree programs at public and private non-profit IHLs that are not 
covered by section 3672 or by any of the approval requirements 
currently contained in chapter 36 of title 38. However, VA does not 
support modifying the current language that grants approval authority 
to both the Secretary and the SAA. The Secretary was granted authority 
under Public Law 111-377 to approve those programs, if necessary. While 
VA has no plans to take over approvals of all educational programs, it 
does appreciate this flexibility of authority.
    VA estimates there are no costs associated with this section.
    Section 6 would amend 38 U.S.C. 3676(c)(14) as it pertains to the 
criteria used to approve non-accredited courses. Under the proposed 
legislation, VA, in consultation with the SAA and pursuant to 
regulations, would determine if additional criteria may be deemed 
necessary for the SAA to approve an institution's written application 
for a course of education. VA and the SAA must treat public, private, 
and private for-profit educational institutions equitably.
    The legislation would also amend 38 U.S.C. 3675(b)(3) to include 
this requirement as part of the approval conditions for accredited 
courses offered by private for-profit institutions.
    This change would apply with respect to criteria developed pursuant 
to 38 U.S.C. 3676(c)(14) on or after January 1, 2013, and an 
investigation conducted under 38 U.S.C. 3676(c) that is covered by a 
reimbursement of expense paid by VA to a state, pursuant to 38 U.S.C. 
3674, on or after October 1, 2015.
    While VA agrees with the intent underlining section 6, that the 
approval requirements for non-accredited courses should be applied 
equitably regardless of the type of institution providing the training, 
VA does not believe that it should be interjected into the SAA approval 
requirements applicable to educational institutions located in the 
state over which the SAA has jurisdiction. VA is not aware of any 
widespread concerns regarding unfair practices or unequal treatment 
with respect to additional SAA approval requirements. VA is concerned 
about the amount of resources that could potentially be involved in 
regulating the process, reviewing the SAA requirements, and making 
determinations regarding necessity and equity. In this instance, VA 
would have to coordinate with all 50 States, territories, and 
institutions of higher learning regarding policy and procedure changes. 
At this time, VA cannot quantify the level of effort required for 
coordination of this scope. Consequently, VA recommends adding the 
requirement that any additional criteria treat public, private, and 
proprietary for-profit educational institutions equitably, without 
requiring a formal process and a VA decision on each additional 
requirement. This would ensure the consistent application of additional 
SAA approval requirements, allow states to promulgate additional 
requirements for educational institutions located within their borders, 
and avoid the potentially burdensome administrative process proposed in 
this section.
    At this time, VA cannot quantify the costs and level of effort 
required for coordination of this scope.
    Section 7 would amend 38 U.S.C. 3693 by inserting a new subsection 
(a) that would require VA to conduct an annual compliance survey of 
educational institutions and training establishments offering one or 
more courses approved for enrollment of eligible Veterans or 
individuals, if at least 20 such Veterans or individuals are enrolled. 
VA would be responsible for:

    <bullet> Designing the compliance surveys to ensure that such 
institutions or establishments, as the case may be, and approved 
courses are in compliance with all applicable provisions of chapters 30 
through 36 of title 38;
    <bullet> Surveying each of these educational institutions and 
training establishments not less than once during every two-year 
period; and
    <bullet> Assigning not fewer than one education compliance 
specialist to work on compliance surveys in any year for each 40 
compliance surveys required to be made under this section for such 
year.

    Additionally, VA, in consultation with the SAAs, would annually 
determine the parameters of the surveys, and not later than September 1 
of each year, make available to the SAAs a list of the educational and 
training establishments that would be surveyed during the fiscal year 
following the date of making such list available.
    VA supports this section as it would improve the compliance survey 
process. VA recognizes the importance of compliance work in ensuring 
timely and accurate payments to Veterans and their families. As such, 
VA and the National Association of State Approving Agencies formed a 
joint committee, the Compliance Survey Redesign Working Group, to 
streamline and enhance the compliance survey process.
    Currently, there are approximately 16,000 approved domestic and 
international IHLs and non-college degree institutions. Of the 16,000 
institutions, there were 11,260 active institutions in calendar year 
2013. During FY 2013 and FY 2014, VA and SAAs completed well over 
10,000 surveys, with just over 5,000 surveys completed in FY 2014. VA 
anticipates completing a similar number of reviews in 2015. This work 
will be split roughly in half between VA and SAAs, as it has been for 
the last few years.
    The statute requires VA to conduct annual surveys at 100 percent of 
schools with greater than 300 beneficiaries and non-college degree 
programs. Schools with high numbers of beneficiaries are more likely to 
have one or more full-time school certifying officials and may not need 
a visit annually. Institutions with a smaller number of beneficiaries 
are more likely to have school certifying officials who have other 
duties, and these institutions may not be as well-versed in school 
certifying official requirements, especially as they relate to the 
Post-9/11 GI Bill program.
    This section would also create a new provision that would require 
the Secretary to consult with SAAs when determining the parameters of 
which institutions would receive a compliance survey each year. VA 
believes this provision is unnecessary as VA already consults with SAAs 
when determining where surveys will be conducted. With the 
implementation of section 203 of Public Law 111-377 (Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010), VA was granted the 
authority to utilize SAAs to assist VA in conducting compliance surveys 
at GI Bill-approved institutions. Although VA can use the services of 
SAAs, VA continues to be ultimately responsible for conducting 
compliance surveys.
    There are no mandatory costs associated with section 7, and there 
would be only minimal administrative costs associated with this 
provision.

    Mr. Chairman, thank you for the opportunity to present our views on 
the legislation today and we will be glad to answer any questions you 
or other Members of the Committee may have.

    Chairman Isakson. Thank you very much, Dr. Lynch.
    Let me start out by asking you this question. You referred 
to the two accountability bills. You mentioned specifically the 
Blumenthal bill was, in your words, ``less onerous,'' but you 
did not address S. 290 one way or another. I assume that is the 
other bill you are talking about.
    Dr. Lynch. Yes, sir.
    Chairman Isakson. And what is your position on S. 290, the 
Moran bill?
    Dr. Lynch. Our position on S. 290 is that we do not support 
it.
    Chairman Isakson. OK. Are you submitting for the record, or 
will you submit after this hearing your reasoning behind that?
    Dr. Lynch. The reasoning is included in our written 
testimony, Mr. Chairman.
    Chairman Isakson. In your written testimony? Good.
    My second question, you said you supported the intent of 
S. 1938, but you had some recommendations. Are those 
recommendations in the written testimony, as well?
    Dr. Lynch. Yes, sir.
    Chairman Isakson. OK. Then let me ask the $64,000 question. 
You very casually referred to the discussion draft language 
with regard to educational assistance. I think you used one 
sentence. This is the flight issue, flight schools, helicopter 
training, pilot training. All that is swirling around in the 
Capitol the last couple of weeks. I have had a number of visits 
in my office, and I understand you all have had a number of 
visits, and there are a lot of opinions back and forth in terms 
of what Congress should or should not do.
    The reason I put that subject on the agenda as a discussion 
draft is to start getting the information on the table. Would 
you care to elaborate on that issue?
    Dr. Lynch. We discussed that extensively in the written 
testimony. Mr. Worley would be happy to address the matter 
further.
    Chairman Isakson. Mr. Worley.
    Mr. Worley. Thank you, Mr. Chairman. We have been concerned 
for, really, the last 2 years that the significant rise in 
payouts specifically related to contracted flight programs, 
where they contract with a public institution of higher 
learning. Under the Post-9/11 GI Bill, that means that there is 
no statutory limit on the amount of money that could be paid to 
an individual in a program at an IHL that contracts with a 
flight program, or any other contracted program, for that 
matter.
    We have seen the costs go up. For example, in fiscal year 
2013, the number of beneficiaries in flight programs was about 
1,700 and we paid out $42 million. In 1 year, the payout number 
went up to $80 million for about 1,900 beneficiaries, so an 
increase of 200 in the number of students and a nearly doubling 
of the costs.
    As we look at these payouts in fiscal year 2013 and 2014, 
there were about 279 individuals who were individually paid 
$100,000 or over for their programs. It was our concern that 
that probably was not the intent of the Post-9/11 GI Bill, to 
pay out that kind of money, in some cases individuals receiving 
hundreds of thousands of dollars.
    Chairman Isakson. Excuse me. Let me interrupt you.
    Mr. Worley. Yes, sir.
    Chairman Isakson. I want to make sure I understand what you 
are saying. You are saying individuals. Do you mean individuals 
who were veterans who were claiming the benefit got paid, or do 
you mean people training under the benefit got paid?
    Mr. Worley. I am talking about the beneficiaries. The 
veterans who earned the benefit and were using the benefits in 
some cases have been paid $500,000, $600,000, $700,000 for 
pursuing flight programs that are associated with public IHLs.
    Chairman Isakson. I want you to tell me how that works. I 
am going to take the Chairman's prerogative here and get a 
couple things on the record, if everybody does not mind, if 
that is OK with you.
    When you tell me an individual got $100,000, you are 
talking about a veteran who was eligible for the program got 
$100,000 personally?
    Mr. Worley. Yes, sir. Well--no----
    Chairman Isakson. Whether or not they were trained?
    Mr. Worley. No. They received the benefits. In the Post-9/
11 GI Bill, as you know, Mr. Chairman, the tuition and fees 
gets paid to the school and the housing, books, and supplies 
get paid directly to the veteran. I am talking about the sum 
total of the benefits either paid on behalf of the veteran or 
paid to the veteran is $100,000 or more, depending on the 
situation. Because they are in a flight program in these cases, 
that is a contracted program with a public IHL. There is no 
cap. We pay the in-resident rate at a public IHL. There is no 
limit on that.
    Chairman Isakson. IHL, for your information, is institution 
of higher learning; correct?
    Mr. Worley. Yes, sir.
    Chairman Isakson. And that is a public school, right?
    Mr. Worley. Yes, sir. Well----
    Chairman Isakson. I apologize----
    Mr. Worley [continuing]. There are private IHLs, but we are 
talking about public IHLs.
    Chairman Isakson. And you have an 85/15 rule, is that 
correct?
    Mr. Worley. Yes, sir.
    Chairman Isakson. And that rule is designed to see to it 
that no more than 85 percent of the students in flight training 
are beneficiaries of the VA GI Bill and at least 15 percent 
have to be private pay?
    Mr. Worley. Essentially, that is----
    Chairman Isakson. Is that what the 85/15 rule means?
    Mr. Worley. That is the 85/15 rule which is in statute. 
Yes, sir.
    Chairman Isakson. That sounds like a pretty easy rule to 
enforce, but I read some of the articles in the Los Angeles 
Times and some other commentaries where it seemed like the 
enforcement of that rule varied from school to school.
    Mr. Worley. I would say that it is a somewhat complicated 
rule and there have been times in the past where a more lenient 
application of the rule has happened. We have tightened that up 
through a significant focus on proper application of the 85/15 
rule and enforcement. We reviewed all public schools that 
contract with flight programs to look at that, and some have 
been suspended as a result of violations of the 85/15 rule.
    As you know, Mr. Chairman, the 85/15 rule is really 
designed to prevent institutions from targeting veterans purely 
for their benefits. So, a program should be attractive by at 
least 15 percent to other individuals, non-veterans.
    Chairman Isakson. And in all cases of people who are paid 
benefits under that program, the VA ensures the 85/15 rule 
applies?
    Mr. Worley. Uh----
    Chairman Isakson. Let me restate, to make sure I am clear 
on the question. In all those cases where veterans have 
qualified for GI benefits for helicopter or fixed-wing 
training, in all those cases at public institutions, the 85/15 
rule applied?
    Mr. Worley. The 85/15 rule applies to----
    Chairman Isakson. VA made certain at least 15 percent of 
the students were private pay, non-GI beneficiaries?
    Mr. Worley. It is the responsibility of the school to 
ensure that the 85/15 rule is not broken, and the VA, through 
compliance survey work in partnership with the State-approving 
agencies, enforce that and review it.
    Chairman Isakson. OK. For the membership, you are going to 
hear more about this issue later on. I wanted to get some 
things on the table. One of our members, Senator Moran, wanted 
to introduce a statement for the record, which I think the 
staff has, is that correct?
    Mr. Shearman. It is on its way.
    Chairman Isakson. I would like to ask unanimous consent 
that the statement that is on its way from Senator Moran be 
entered into the record.
    [The prepared statement of Senator Moran can be found in 
the Appendix.]
    Chairman Isakson. I have gone through your testimony. I 
would like a precise VA evaluation of your position on this 
issue within a reasonable period of time. I do not know when it 
may come before us or whether it is going to come before us at 
all, but it has gotten enough publicity and there is enough 
angst in Congress on both sides of the issue where I want to 
make sure we do what is right as a Committee, which is why I 
took a little extra time, and I apologize to the Members for 
having done so.
    With that said, I will recognize Ranking Member Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I noticed that a number of your comments on S. 290--or, I 
am sorry, the bill that I have introduced requiring 
accountability, seem to focus on the difference between the way 
the VA does accountability and other agencies, as would be 
implemented under this bill. Is it not important to increase 
accountability in the VA so that maybe it provides a model for 
other agencies? And does this bill not strike you as better 
than some of the alternative measures that have been proposed?
    Dr. Lynch. I think, Senator, we acknowledge that the bill 
is perhaps less onerous than others, but I think we still have 
technical concerns regarding the bill, which Ms. Mitrano would 
be happy to address. I think from a clinical standpoint, my 
concerns would be that these bills may impair our ability to 
attract, recruit, and retain the best employees because of the 
more rigid accountability to which VA is held.
    Senator Blumenthal. Are you saying that the best and the 
brightest would be deterred by the provisions of S. 1856 
because it is rigid and inflexible? Is that the point?
    Dr. Lynch. I think my concern is more toward S. 290. I 
think that concerns regarding the S. 1856 bill would be more on 
a technical basis, and I might turn to Ms. Mitrano to discuss 
that a little bit further.
    Senator Blumenthal. Well, the technical stuff, we can deal 
with off the record. We do not need to spend that time at this 
hearing. But, I would like your endorsement and support for the 
goals and basic concepts that are embodied in S. 1856. As I 
understand you, there may be some technical issues, but, 
basically, you feel it is a good idea.
    Dr. Lynch. My position is that I am concerned about some of 
the accountability that is imposed and the way it is imposed. I 
feel that it may, in fact, deter some individuals, good 
individuals who might want to come to work for the VA because 
of the requirements of the bill.
    Senator Blumenthal. Is there any empirical evidence to 
support that?
    Dr. Lynch. There is no empirical evidence. It is based on--
--
    Senator Blumenthal. Is there any evidence?
    Dr. Lynch [continuing]. Experience working in health care 
systems.
    Senator Blumenthal. I know for a long time, and I have seen 
it in other contexts, the fear has been raised that 
transparency and accountability in our health care system will 
somehow deter good doctors from coming forward, but I think 
that the evidence is, in fact, to the contrary, that in 
Connecticut and elsewhere, in fact, doctors welcome 
accountability--the good ones--because they are far from 
fearful that they will be held accountable, and I would think 
that management and managers are the same. They do not come to 
a place wondering what will happen to them if they do a bad 
job. The best people come to a potential opportunity hoping 
that there will be the flexibility so they can do a good job.
    Dr. Lynch. I do not argue that people come to a job with 
optimism. I think what has been seen in the VA over the past 
year and one-half, there have been a number of good people who 
have been grouped in with those who may not have performed 
satisfactorily. So, there has been a blanket judgment on VA 
employees and VA physicians. I think this leads people to be 
reticent to look at the VA as an opportunity because of what 
they have seen.
    Senator Blumenthal. My time has just about expired, but I 
agree with you completely in your assessment of what has 
happened to some degree over the past year, which, in my view, 
is the strongest indictment of the present system and the 
strongest evidence as to a need for reform and for flexibility 
for good judgments about people and holding accountable the 
ones who should be rather than, as you said, grouping them 
together and perhaps drawing too broad a brush. So, I really 
welcome your comments. I hope that we share the same goals and 
that we can work through the technical difficulties.
    Thanks, Mr. Chairman.
    Chairman Isakson. Thank you.
    According to the early bird rule, the next four to question 
will be Senator Sullivan, Senator Brown, Senator Boozman, and 
Senator Manchin. Senator Sullivan, you are first.

                      HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and I want to 
thank you and Ranking Member Blumenthal for the authority to 
enable me to hold a field hearing and listening sessions with 
the Veterans' Affairs Committee in Alaska over the recess and 
to allow the staffers of this Committee to come to Alaska to 
see what some of the challenges-- significant challenges--are, 
with regard to the implementation of the Choice Act in Alaska.
    I also want to thank Dr. Lynch, Dr. Shulkin, and others of 
your team who spent almost a week in Alaska. I know we got a 
lot out of that trip. I appreciate you taking the time to come 
up, tour the facilities, go to the listening sessions, and hold 
the hearing that we actually had in my State.
    I did want to mention Secretary McDonald was in Alaska 
before I was there, about a week before. I was actually in the 
great State of North Carolina doing Marine Corps training at 
Camp Lejeune while the Secretary was there.
    I will say that one of the themes of his visit, a little 
bit was still this theme of ``the problems in the VA are kind 
of caused by the Congress.'' I do not think that is helpful, 
and I think we need to just get rid of that whole line of--it 
is almost whining, right. We need to focus on addressing these 
challenges. There is a lot of blame to go around. But to have 
the Secretary come up to Alaska and kind of insinuate that it 
is really Congress's fault, it is not helpful and it is 
actually inaccurate. So, I will pass that message on to him, 
but I wanted to make sure that you all heard about that.
    Dr. Lynch, I am sure that you would agree that we had a 
good result out there. In particular, I wanted to talk about 
from Dr. Shulkin's testimony, the six points that he made 
during the hearing we had in Alaska and to fix the huge problem 
in my State about the implementation of the Choice Act. I am 
sure that you saw it is quite a big problem.
    I know that one of the things that you have been talking 
about is starting to implement a way to correct those problems 
based on his six priorities by November. I am actually not 
pleased with that date of November, so I would like to work 
with you, Dr. Shulkin, and other senior officials at the VA to 
move that up. You saw that it is an urgent need to address some 
of these problems.
    What I want to do just briefly was talk about those six 
points and see from your perspective if those were required--if 
we needed additional legislation or through regulations we are 
able to address some of these. I do not know if you have those 
in front of you, but he talked, point one, about honoring the 
VA's agreements to ensure continuity of care for veterans 
seeking care with partners in the DOD, Indian Health Services, 
and tribal organizations. Do you have that authority, or do we 
need to do something legislatively?
    Dr. Lynch. We have that authority, Senator. Further, there 
is no question that we will continue to honor those agreements 
and look for ways that we can perhaps incorporate those into 
future Choice legislation. But there is no question----
    Senator Sullivan. You have that authority now.
    Dr. Lynch [continuing]. That we have the authority to work 
with DOD and the tribal nations to provide health care.
    Senator Sullivan. Because, again, what I want to do is work 
with you, work with Dr. Shulkin, to do what we all thought was 
very important when we were out in Alaska, is to fix this 
problem, and his six points were very helpful in that regard.
    Dr. Lynch. Absolutely. I do----
    Senator Sullivan. Do you have those six points in front of 
you?
    Dr. Lynch. I do not have them in front of me, 
unfortunately.
    Senator Sullivan. OK, because we can--I am going to run out 
of time here, but----
    Dr. Lynch. I will be happy to talk with you after the 
hearing----
    Senator Sullivan. Yes, because what we want to know--if we 
want to be able to work with the Committee and with the VA to 
make sure that any authorities that are needed with regard to 
those six points that he laid out in Alaska, I want to make 
sure we have the ability, hopefully to get through the 
Committee, to give you that legislative authority to fix those 
problems.
    Dr. Lynch. I can tell you that within about half a week of 
getting back, Dr. Tuchschmidt and I did meet with the network 
director, as well as the TriWest chairman, and we are moving 
ahead with the plan to integrate what had been a very 
successful care management system on the part of the Alaska 
Health Care System----
    Senator Sullivan. Right.
    Dr. Lynch [continuing]. With individuals from TriWest.
    Senator Sullivan. Let me ask you, on that November 2015 
date that you or somebody had mentioned, I would like to 
accelerate that. We have real problems in my State. A lot of 
veterans are suffering. Can you commit to me to move that date 
up by several months or by a few months, at least, like this 
month? [Laughter.]
    Dr. Lynch. Well, we have already met with TriWest and the 
network and we are moving ahead with the process of integrating 
service to the veterans between TriWest and the VISN 19. I can 
commit to that, yes.
    Senator Sullivan. OK.
    Dr. Lynch. The rest, I would like to speak to you a little 
bit to make sure we are on the same page.
    Senator Sullivan. OK. Thank you. And thank you, Mr. 
Chairman, again, for the opportunity to hold that hearing up in 
Alaska. It was very important.
    Chairman Isakson. Thank you for your leadership in doing 
so.
    Senator Brown.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman, and thank you for 
holding this really important hearing on a number of things 
this Committee should do.
    I want to thank Ranking Member Blumenthal for his words in 
support of the Fry Scholarship Enhancement Act. I want to thank 
Senator Tillis for his work on it. It has been endorsed by a 
number of groups. I would just like to mention, a number of 
witnesses on the second panel, the VFW, the National 
Association of State Approving Agencies have supported it, the 
Military Officers Association of America, the IAVA have 
submitted testimony for the record supporting the bill. It has 
the support of Gold Star Wives, the National Military Family 
Association, the Tragedy Assistance Program for Survivors, the 
Student Vets of America, and the Paralyzed Vets of America. So, 
I thank all them.
    I would like to ask Mr. Worley a series of pretty simple 
questions just to hear in your words an explanation of the 
importance, sort of the hole we face to fill. I think that from 
the discussions you have had with my staff, I think there is 
nobody better to explain it than you.
    Please explain the Fry Act's significance and its targeted 
beneficiaries, if you would.
    Mr. Worley. Thank you, Senator. The Fry Scholarship is a 
very important benefit. It came into effect around the same 
time as the Post-9/11 GI Bill. What it provides for is for 
children of military members who are killed in the line of duty 
and are on active duty at the time the full Post-9/11 GI Bill 
benefit. That is, again, at the 100 percent benefit level. The 
Choice Act recently passed last year, Section 701 of that Act, 
as you well know, includes spouses into the Fry Scholarship 
benefit opportunity. So, it is a very important benefit for 
those family members that we are proud to administer and 
implement.
    Senator Brown. So, what is the glitch that necessitates 
this legislation, the Enhancement Act?
    Mr. Worley. It is really, in my view, sir, an oversight in 
the last. The provisions for the Post-9/11 GI Bill provides for 
the opportunity to use Yellow Ribbon if a school offers that. 
The way the provision for the Fry Scholarship is put into the 
law, it just does not include the Yellow Ribbon opportunity. 
So, we welcome this correction, if you will, so that Fry 
Scholarship beneficiaries can use the Yellow Ribbon program.
    Senator Brown. So, let me repeat and make sure I get it. 
You are telling me that spouses and children of veterans who 
have died in combat since the September 11 attacks are treated 
less favorably under the law and this would correct it, or 
treated less favorably when it comes to educational benefits 
than are the spouses and children of veterans who did not die 
in combat.
    Mr. Worley. That is correct, sir, according to the law.
    Senator Brown. Thank you. This gets to the core of why this 
Committee should move on the Brown-Tillis bill. I hope the 
Chairman will join the Ranking Member in supporting it. I look 
forward to working with Members of both parties on this.
    Thank you, Mr. Chairman.
    Chairman Isakson. In response to the statement, the 
Chairman has taken a position never to cosponsor legislation 
before the Committee. Therefore, there is no prejudice. But the 
Chairman always votes for the most intelligent proposal coming 
forward. [Laughter.]
    Knowing the Senator from Ohio as I do--Tillis and Brown is 
a dynamic combo, I can tell you that.
    Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    Dr. Lynch, the first thing I would like to ask you, and you 
might not have the answer to this--it is really important to 
the people of Arkansas--the Central Arkansas Veterans Health 
Care System has been without a director for a year now. Dr. 
Margie Scott has been Interim Director, but she was recently 
reassigned to be VISN 16 Chief Medical Officer. The Veterans 
Hospital in Fayetteville has been without a director since 
March 2015. What is the status of filling those slots?
    We have really been blessed in Arkansas in having two 
excellent facilities. The reason for that is that we have had 
excellent leadership, and it really is important that we get 
those filled.
    Dr. Lynch. Senator, I do not have the specifics. I know we 
have been working very hard to begin recruiting and filling 
those positions. I can get that information for you in terms of 
where we are in that process.
    Senator Boozman. Good. That would be very helpful, if we 
could get that done----
    Dr. Lynch. Absolutely.
    Senator Boozman [continuing]. As far as some information 
fairly shortly.
    Dr. Lynch. Absolutely.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. John Boozman to 
  Thomas Lynch, Assistant Deputy Under Secretary for Health Clinical 
Operations, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Response. VA's selection of Senior Executive Service (SES) leaders 
is a thorough and rigorous process. VHA conducts a comprehensive 
background check, which includes the verification of the nominee's 
credentials and references check. The nomination package is then 
submitted to VA's Corporate Senior Executive Management Office (CSEMO) 
for concurrence and to the VA Chief of Staff (COS) for final approval, 
on behalf of the Secretary of VA.
    A nominee for the CAVHS Director position was identified, the 
clearances and reference checks are complete, and the nominee is 
currently going through the approval process.

    Senator Boozman. Like I say, we are blessed. We have got 
two excellent facilities that worked really hard to take care 
of veterans. But, again, that comes through leadership, and I 
think we have seen that all over the system.
    In regard to Senator Moran and Senator Tester's 
legislation, the Physician Ambassadors Helping Veterans Act, in 
your testimony, I believe you said, basically, it was not 
needed because there was already a statute in place----
    Dr. Lynch. Yes, sir.
    Senator Boozman [continuing]. That would do the same thing. 
Do you feel like with the existing authority that you have now, 
is it used? Is it used appropriately?
    Dr. Lynch. We have about 4,000 physicians now who are 
performing services without compensation. They are 
predominately from our academic affiliates. We are initiating 
pilots at at least two sites, and probably more, to begin to 
look at expanding this to community physicians who may be 
willing to help the VA.
    I think there are some things that we have to learn, moving 
forward. I think that we are understanding the credentialing 
and privileging process. I do not think that is an obstacle. I 
think we do need to learn a little bit about how we are going 
to train the community physicians in an efficient fashion to 
work in VA. I think we also have to learn how we are going to 
use the new processes of focused and ongoing professional 
reviews that are required by the Joint Commission and how we 
are going to apply those to volunteer physicians and how much 
work that is going to take. I think we are going to have to 
learn what is the best way to go out and recruit those 
physicians. Is it to work with a volunteer recruiter, or is it 
to actually look for a senior physician in the community who 
might be interested in working with the VA in the recruitment 
of those physicians.
    I have actually been working on the pilot program. I have 
had interest from actually more than two sites. I will be 
meeting with them later this week. But those are the questions 
that really, I think, need to be asked before we move forward 
with a large-scale program.
    Senator Boozman. Sure. Is liability a problem?
    Dr. Lynch. Liability is not a problem.
    Senator Boozman. OK.
    Dr. Lynch. Those physicians would be covered for what they 
do while they are working for the VA.
    Senator Boozman. Mr. Worley, you mentioned--again, I was 
listening to the testimony about the flying situation. It is 
interesting. I had a couple of Air Force Colonels in earlier 
today and they were talking about the fact that the airlines 
were so aggressively hiring right now, and with fighter pilots 
being in a situation where they were not flying as much as they 
have sometimes in the past, that we are losing a lot of fighter 
pilots because the industry is snagging them up. So, it is good 
to provide that service. I mean, these are kind of jobs that we 
are looking for, good high-paying jobs for our veterans to 
acquire.
    You mentioned that some were charging $500,000, $600,000, 
$700,000 for flight training. Does the veteran participating in 
the training have knowledge of that, of those fees, and should 
the State Approving Agency be authorizing payments of this 
magnitude? Does the VA have the authority to stop these bad 
actors?
    Again, I am--do not misunderstand. I am totally against 
that, and I am sure that we have similar situations not only in 
flight training, but just in education in general. But, I 
guess, what I am saying is my concern is that in order to 
rectify and throw out a few bad apples, that we do not hurt 
people that are legitimately trying to pursue an excellent 
career.
    Mr. Worley. Thank you, Senator. I would respond to that by 
saying that we, first of all, we certainly are not interested 
in the VA in restricting the benefits----
    Senator Boozman. I understand. Yes. I understand.
    Mr. Worley. We are very supportive of the breadth of 
opportunities that the Post-9/11 GI Bill provides for veteran 
servicemembers and their families.
    This is specifically a situation that I do not think was 
anticipated when the Post-9/11 GI Bill was passed, that a 
public institution of higher learning that does not have a cap 
on its in-resident rate would contract with another approved 
entity--these are GI Bill approved non-IHL institutions like 
flight schools--and end up paying those kinds of payouts. There 
really is not a comparable other contracted situation that we 
know of today. It is flight schools that are the primary 
concern.
    With respect to that, we felt like it was necessary to 
support this legislation in recognition of our concern on the 
high amount of money that is going out, notwithstanding the 
great job market that is out there. But, if the cap that is 
proposed in the legislation--again, we support that cap as a 
way of just putting some limits on what is going on today. The 
85/15 rule by itself is right now our only tool, but it is not 
sufficient to fix this problem.
    Senator Boozman. OK. My time is up. Thank you, Mr. 
Chairman.
    Chairman Isakson. Thank you, Senator Boozman.
    Senator Manchin, Senator Rounds, Senator Hirono, and 
Senator Tillis.
    Senator Manchin.

       HON. JOE MANCHIN, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, and thank you all 
for being here today.
    Dr. Lynch, there are many reports that the VA is not 
holding people accountable for their actions, and that is in 
all agencies, I know. We get that from GAO and IG all the time. 
But in West Virginia, at the Beckley VA in West Virginia--I 
think I brought to your attention some time ago, it has been 
over 6 months now--there were allegations, which were 
substantiated by Special Counsel, that they were switching 
antipsychotic drugs based solely on cost, not on performance 
and not on results, solely on cost. They have been doing that 
for years. One of the recommendations by the investigator was 
to take appropriate actions against the leadership in that VA 
center and others, as warranted, in proving actions were not 
inconsistent with VHA policy.
    I have asked for an update, I think for the last 6 months. 
I have not gotten anything yet. I do not know if you know about 
this, or----
    Dr. Lynch. Senator, I know that it is being looked at very 
carefully. I am reluctant to speak in public----
    Senator Manchin. OK.
    Dr. Lynch [continuing]. About what I know.
    Senator Manchin. OK.
    Dr. Lynch. But, I think I can assure you that the 
accusations are being looked at and are being assessed by VA--
--
    Senator Manchin. Well, I think they have been verified--
Special Counsel has verified they were accurate.
    Dr. Lynch. And they are now being looked at by our Office 
of Accountability review at this point----
    Senator Manchin. To take action on the employees----
    Dr. Lynch [continuing]. To make decisions regarding the 
necessity for action, sir, yes.
    Senator Manchin. Can we meet with you later on this, or 
maybe in private, so you can bring me up to speed? To be honest 
with you, the veterans themselves are concerned because they 
are not getting the right prescriptions that help them, and 
they found out about the switching, so now they have been 
substantiated saying that we were not getting the best medicine 
because they are making cost decisions, not based on 
performance or outcome. So, if you could help me with that, it 
would be greatly appreciated.
    Dr. Lynch. Yes, sir.
    Senator Manchin. Let me tell you the other one I have a 
problem with, and the drug problem in my State and all over 
this country is just horrendous. It is the number 1 killer, 
prescription drugs. Now I see where the FDA has approved for 
children as young as eleven years old to be prescribed 
oxycontin. You all have been able to take care of dependent 
children. Are you all prescribing that? Will you be doing that 
or practicing that?
    Dr. Lynch. We do not treat dependent children in VA.
    Senator Manchin. You do not?
    Dr. Lynch. We do not. So, that is not a VA issue.
    Senator Manchin. I thought that there was a limited number 
of dependent children that were treated, but you are saying 
there are no dependent children?
    Dr. Lynch. Not that I know of, Senator.
    Senator Manchin. I will check that out, then. OK. At least 
you do not have to answer that one, but----
    Dr. Lynch. I have been in the VA system for 30 years as a 
provider and I have yet to see a child.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Joe Manchin to 
  Thomas Lynch, Assistant Deputy Under Secretary for Health Clinical 
Operations, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Question. Does VA treat dependent children? CHAMPVA?
    Response. The statute governing the Civilian Health and Medical 
Program of the Department of Veterans Affairs (CHAMPVA), Title 38 
United States Code 1781, provides for health coverage to the dependents 
of a Veteran who has been rated permanently and totally disabled due to 
a service-connected disability. A child of a qualifying Veteran can be 
covered under CHAMPVA until the age of 18. Eligibility can be extended 
to the age of 23 if the child is a full-time student at an accredited 
school.
    The Patient Protection and Affordable Care Act, Public Law 111-148, 
was signed into law on March 23, 2010. Included in the Public Law was 
Section 2714, Extension of Dependent Coverage, which extends health 
care coverage to dependent children up to age 26 through a parent's 
group or individual health insurance. CHAMPVA is not considered a group 
or individual health insurance, but a Federal Benefit Plan; therefore, 
Congressional legislation is required for CHAMPVA to extend eligibility 
for dependent children up to age 26.
    As for treating dependent children in a VA health care facility, 
there is no statutory or regulatory restriction that precludes VA 
facilities from providing treatment to eligible CHAMPVA beneficiaries 
in VA facilities. Currently, both eligible children and adults access 
medical care in VA facilities through the CHAMPVA In-House Treatment 
Initiative also known as CITI. VA facilities are not required to 
participate in CITI. Participation is based on the facility determining 
that an excess capacity to provide medical care and services exist 
within the facility and have the resources to provide the needed care. 
However, VA facilities primarily provide treatment to adults and would 
have limitations on resources needed to provide pediatric and 
adolescent care to beneficiaries under CHAMPVA.

    Senator Manchin. Well, let me follow up on this, then----
    Dr. Lynch. OK.
    Senator Manchin [continuing]. Because of the addictive 
opiates that are on the market today, and there are many more 
coming out to consumers and you are using them.
    Could you all--and I think you all would be the ones that 
would kind of change the culture of America if our veterans, 
VA, Medicare, Medicaid, things that we have oversight on, would 
not be prescribing opiates for pain relief. There are other 
ways to cure pain or, basically, to handle pain. Have you all 
considered--I know you have tried probably more alternatives 
than anybody else. How is that working?
    Dr. Lynch. Senator, the VA has what we call a three-step 
plan. The first step of treatment is by the primary care 
provider. If the primary care provider reaches a point where he 
or she no longer feels competent to work with this patient, 
that patient can be referred to a facility committee, which 
generally consists of an interdisciplinary group of specialists 
that might include pharmacists, physical therapists, 
psychologists, a number of individuals to meet with and work 
with the patient to develop a plan to help control that 
individual's pain. The third step is that each of the networks 
is putting in place a specialty inpatient program to begin 
helping those patients who are most difficult to treat in terms 
of their pain and their use of opioid narcotics.
 Response to Request Arising During the Hearing by Hon. Joe Manchin to 
  Thomas Lynch, Assistant Deputy Under Secretary for Health Clinical 
Operations, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Issue. Senator Manchin also requested a listing of the alternative 
therapies that were available at the VISNs in his state of West 
Virginia.
    Response:
                        visn 4--clarksburg vamc
    <bullet> The VAMC provides the following: Pain Clinic, Physical 
Therapy, and a multidisciplinary pain management educational group on-
site.
    <bullet> The VAMC refers Veterans offsite for Chiropractic Care, 
Aqua Therapy, and Acupuncture as needed.
                        visn 5--martinsburg vamc
    <bullet> Yoga--Clinical Video Telehealth with Community Based 
Outpatient Clinics
    Yoga is provided as a part of the DRS Chronic Pain clinic continuum 
of services. For those Veterans who reside within the catchment areas 
of our CBOCs, we are working on providing ``tele-yoga,'' which occurs 
at the same time of the face-to-face sessions. We are currently 
awaiting approval for ``ports'' so that services will be simultaneous 
with those happening in the Heroes Health & Wellness Center. Tele-Yoga 
will be made available at Cumberland and Harrisonburg CBOCs, and then 
expanded to other CBOCs as appropriate.

    <bullet> Mindfulness--Clinical Video Telehealth with Community 
Based Outpatient Clinics
    Mindfulness Meditation is offered as a part of the holistic 
continuum of care within our Chronic Pain clinic. In hundreds of 
studies, researchers have examined meditation's effects, such as 
attention regulation, awareness of the body, depression, Post Traumatic 
Stress Disorder, addiction and pain. In these studies, meditation has 
been shown to help pain, sometimes significantly, though not cure it.

    <bullet> Guided Imagery--Martinsburg VA Medical Center
    Guided Imagery is another meditation technique. Chronic Pain 
affects every aspect of living. Guided imagery is an easy relaxation 
technique that can help manage stress and reduce. This modality relies 
on the concept that your body and mind are strongly connected. 
Meditation sends a quiet message to the muscles and mind to relax, 
draining the tension out of the body leading to a reduction in pain.

    <bullet> Biofeedback--Martinsburg VA Medical Center
    Provided in a one-on-one forum through our Behavioral Psychologist 
as part of an integrated model of care.

    <bullet> Acupuncture--Offered in the community under fee-based
    Due to vacated position, currently provided through Choice. 
Recruiting for vacant position of physiatrist with medical acupuncture 
certification.
                          visn 6--beckley vamc
    Veterans are provided the following via fee basis referrals to the 
community:

    <bullet> Epidural injections
    <bullet> Vertebral facet therapy
    <bullet> Hydrotherapy
    <bullet> Chiropractic
    <bullet> Acupuncture

    Veterans/residents of the CLC are offered additional options:

    <bullet> Art Therapy (weekly or bi-weekly)
    <bullet> Music Therapy (weekly)
    <bullet> Creative Arts Therapy (weekly)
    <bullet> Pet Therapy (weekly)
    <bullet> Aromatherapy (2-3 times a week)
    <bullet> BioFeedback (Snoezelen Therapy) (2-3 times a week)
                        visn 9--huntington vamc
    Complementary/ Alternative therapies offered at the VAMC 
Huntington, WV:

    <bullet> Acupuncture
    <bullet> Chiropractic therapy (through community referral)
    <bullet> Art therapy
    <bullet> Animal-assisted therapy

    VA Medical Center Huntington has two Community Based Outpatient 
Clinics in Charleston, WV and Prestonsburg, WV. It also has two small 
Outreach Clinics in Lenore, WV and Gallipolis, OH.

    Senator Manchin. Well, you know we have a tremendous 
addiction problem, right----
    Dr. Lynch. Yes.
    Senator Manchin [continuing]. And a lot of our veterans, 
because of the service they have given to our country, have 
been over-prescribed, if you will, and I get that complaint 
continuously from returning servicemembers in West Virginia. 
They can get any concoction of pills they want from VA.
    Dr. Lynch. I will also let you know, because I looked it up 
before I came down here this morning, how the West Virginia 
facilities are doing with respect to the Opioid Safety 
Initiative, which is VA's plan to help begin to control the use 
of narcotic opioid prescriptions. Statistically, all of the 
facilities are doing very well and some of them are actually 
performing better than the national average.
    Senator Manchin. Mm-hmm.
    Dr. Lynch. So, I do not think that solves the problem, but 
I think it does give us a way forward and it tells us that your 
facilities in West Virginia are performing and taking this 
seriously.
    Senator Manchin. Well, my time has run out. I would like to 
get with you personally on this and delve into it a little bit 
deeper, if you will.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Joe Manchin to 
  Thomas Lynch, Assistant Deputy Under Secretary for Health Clinical 
Operations, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Issue. Senator Manchin requested a review of how VA handles Opioid 
safety issues and how officials are dealing with the issue found that 
of a facility switched antipsychotic medications because of cost 
reasons.
    Response:
                      pain management with opioids
    <bullet> After many years of promoting the aggressive treatment of 
pain with powerful opioid analgesics, the United States is in the midst 
of an epidemic of misuse and abuse of opioid analgesics. Misuse and 
abuse of opioids can result in overdose, dependency and other negative 
consequences.
    <bullet> The safe and appropriate use of opioids is an especially 
important issue for VA due to the number of Veterans who have 
battlefield injuries and other conditions associated with chronic pain. 
Changing VA's patterns of opioid prescribing and consumption requires a 
significant cultural shift on the part of providers and Veterans alike 
and also requires that VA make other pain treatments available as it 
relies less on opioids. This cultural shift must be done in a careful 
and measured fashion to avoid the unintended consequence of Veterans 
receiving inadequate pain care.
                      va opioid safety initiative
    <bullet> To address opioid use in Veterans, after conducting a 
pilot in several VISNs, in August 2013 VA implemented a system-wide 
Opioid Safety Initiative (OSI). The OSI is intended to augment VA's 
national pain management strategies, which among other things include, 
stepped care, complementary/integrative medicine and focuses of 4 key 
metrics:

          - The percent pharmacy users receiving an opioid analgesic
          - The percent of pharmacy users receiving an opioid who are 
        also receiving a benzodiazepine (combined use increases risk of 
        an adverse event)
          - The percent of pharmacy users receiving opioids for longer 
        than 90 days who are also receiving a urine drug screen to 
        monitor treatment
          - The percent of pharmacy users who are receiving aggregate 
        doses of opioids greater than or equal to a 100 morphine 
        equivalent daily dose (MEDD)

    <bullet> To monitor the impact of the OSI, quarterly OSI trending 
data is disseminated to VAMC and VISN OSI points of contact and to VHA 
senior clinical managers. Data outlier facilities are required to 
submit action plans to VA Central Office and continued follow-up is 
conducted until they are no longer outliers.
                            clarksburg vamc
    The Clarksburg VA has made significant progress in the use of 
opioids, but like the VA system as a whole and in the United States in 
general, there will always be more work to do. From the fiscal quarter 
beginning in July 2012 to the fiscal quarter ending in June 2015:

    <bullet> The percent of pharmacy users receiving an opioid 
decreased 22% (3,125 to 2,438 Veterans), while the national percentage 
decreased 17% (679,376 to 563,801 Veterans).
    <bullet> The percent of pharmacy users receiving an opioid or 
tramadol who are also receiving a benzodiazepine decreased 30% (311 to 
217 Veterans), while the national percentage decreased 31% (122,633 to 
84,470 Veterans).

          - The percent change for this metric must be considered 
        within the context that Clarksburg has a significantly lower 
        percentage of Veterans receiving an opioid or tramadol who are 
        also receiving a benzodiazepine compared to the rest of VA.

    <bullet> The percent of pharmacy users receiving opioids for longer 
than 90 days who also received a urine drug screen to monitor treatment 
increased 27% (1,259 to 1,722 Veterans), while the national percentage 
increased 35% (160,601 to 247,533 Veterans).

          - The percent change for this metric must be considered 
        within the context that Clarksburg has a significantly higher 
        percentage of Veterans receiving opioids for longer than 90 
        days who also received a urine drug screen to monitor treatment 
        compared to the rest of VA.

    <bullet> The percent of pharmacy users who are receiving doses of 
opioids greater than or equal to 100 MEDD decreased 19% (132 to 107 
Veterans), while the national percentage decreased 23% (59,499 to 
45,768 Veterans).
                            martinsburg vamc
    The Martinsburg VA has made significant progress in the use of 
opioids. From the fiscal quarter beginning in July 2012 to the fiscal 
quarter ending in June 2015:

    <bullet> The percent of pharmacy users receiving an opioid 
decreased 8% (1,294 to 1,190 Veterans), while the national percentage 
decreased 17% (679,376 to 563,801 Veterans).

          - The percent change for this metric must be considered 
        within the context that Martinsburg has a significantly lower 
        percentage of Veterans receiving an opioid compared to the rest 
        of the VA.

    <bullet> The percent of pharmacy users receiving an opioid or 
tramadol who are also receiving a benzodiazepine decreased 28% (376 to 
272 Veterans), while the national percentage decreased 31% (122,633 to 
84,470 Veterans).
    <bullet> The percent of pharmacy users receiving opioids for longer 
than 90 days who also received a urine drug screen to monitor treatment 
decreased 13% (445 to 388 Veterans), while the national percentage 
increased 35% (160,601 to 247,533 Veterans).

          - The percent change for this metric must be considered 
        within the context that Martinsburg has a significantly higher 
        percentage of Veterans receiving an opioid for longer than 90 
        days who also received a urine drug screen to monitor treatment 
        compared to the rest of the VA and the number of patients on 
        opioids for longer than 90 days has significantly decreased 
        over time.

    <bullet> The percent of pharmacy users who are receiving doses of 
opioids greater than or equal to 100 MEDD decreased 48% (145 to 75 
Veterans), while the national percentage decreased 23% (59,499 to 
45,768 Veterans).
                              beckley vamc
    The Beckley VA has made significant progress in the use of opioids. 
From the fiscal quarter beginning in July 2012 to the fiscal quarter 
ending in June 2015:

    <bullet> The percent of pharmacy users in Beckley receiving an 
opioid decreased 18% (2,632 to 2,171 Veterans), while the national 
percentage decreased 17% (679,376 to 563,801 Veterans).
    <bullet> The percent of pharmacy users receiving an opioid or 
tramadol who are also receiving a benzodiazepine decreased 31% (1,054 
to 729 Veterans), while the national percentage decreased 31% (122,633 
to 84,470 Veterans).
    <bullet> The percent of pharmacy users receiving opioids for longer 
than 90 days who also received a urine drug screen to monitor treatment 
increased 30% (612 to 869 Veterans), while the national percentage 
increased 35% (160,601 to 247,533 Veterans).
    <bullet> The percent of pharmacy users who are receiving doses of 
opioids greater than or equal to 100 MEDD decreased 34% (91 to 60 
Veterans), while the national percentage decreased 23% (59,499 to 
45,768 Veterans).
                            huntington vamc
    The Huntington VA has made significant progress in the use of 
opioids. From the fiscal quarter beginning in July 2012 to the fiscal 
quarter ending in June 2015:

    <bullet> The percent of pharmacy users receiving an opioid 
decreased 20% (4,513 to 3,589 Veterans), while the national percentage 
decreased 17% (679,376 to 563,801 Veterans).
    <bullet> The percent of pharmacy users receiving an opioid or 
tramadol who are also receiving a benzodiazepine decreased 34% (895 to 
595 Veterans), while the national percentage decreased 31% (122,633 to 
84,470 Veterans).
    <bullet> The percent of pharmacy users receiving opioids for longer 
than 90 days who also received a urine drug screen to monitor treatment 
increased 60% (741 to 1,864 Veterans), while the national percentage 
increased 35% (160,601 to 247,533 Veterans).
    <bullet> The percent of pharmacy users who are receiving doses of 
opioids greater than or equal to 100 MEDD decreased 31% (270 to 186 
Veterans), while the national percentage decreased 23% (59,499 to 
45,768 Veterans).

    Senator Manchin. OK. Thank you, sir.
    Chairman Isakson. On that point, I want to acknowledge the 
VA's action at Tomah, WI, and what you have done to deal with 
what was a very tragic situation, and thank Senator Manchin, 
Senator Baldwin, and Senator Johnson, who have all three been 
outstanding spokesmen on this opioid issue. I also appreciate 
Senator Manchin's leadership on the Committee to continue to 
bring it up, because we do need to bring it under control and 
make sure when meds are prescribed, they are only necessary and 
we are not acting like a candy store. So, I appreciate Senator 
Manchin raising that issue continually in all the hearings.
    Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Dr. Lynch, with regards to the S. 564, the Veterans Hearing 
Aid Access and Assistance Act, the VA does not support the bill 
because there is a lack of standardized education or 
professional licensure requirements of hearing aid or 
instrument specialists, as I understand it. What type of 
certification would you like to see for these and other 
specialists before you could support this type of legislation?
    Dr. Lynch. First of all, I think VA does not feel it is 
required. We already are able to hire audiology technicians 
that work with our audiologists to provide care. They provide a 
broad range of services with respect to hearing aid 
evaluations, assessing patients post-implantation or post-
obtaining a hearing aid, and also dealing with hearing aid 
adjustments and problems.
    So, VA thinks that we already have a model that we can use. 
Hearing aid specialists can be recruited into those positions, 
and actually, our audiology technicians, if they undergo 
certification by the Council on Accreditation in Occupational 
Hearing Conservation, can perform hearing tests within the VA.
    Right now, community providers and the hearing aid 
specialists cannot perform the level of hearing tests that we 
require for C&P examinations and for our audiology 
examinations.
    Senator Rounds. How far should a veteran have to travel? 
What is an appropriate maximum distance that a veteran should 
have to travel in order to get glasses or hearing aids?
    Dr. Lynch. I think the Choice legislation has said about 40 
miles, sir.
    Senator Rounds. Right now, I have got veterans in the 
Pierre-Fort Pierre area in South Dakota. They have to travel 
halfway across the State just to get a pair of glasses. I am 
interested in being able to provide some sort of certification 
that if we can provide for hearing aids, and--look, these 
folks, if they were not veterans, would be able to get adequate 
hearing aids locally. But if they want to access or assess VA 
services or at least get payments for hearing aids and glasses 
right now, they have to travel, literally, travel across the 
State to get eyeglasses.
    I met one guy who is 83 years old. You do not want him 
driving halfway across the State without glasses to get 
glasses.
    Dr. Lynch. No, sir.
    Senator Rounds. So, what I am suggesting is that there may 
be some middle ground here for some of those areas, 
particularly in the rural parts of the country, where veterans 
should have access to these services, and I am not so sure that 
they would agree with your assessment that it has to be 
according to a set of standards. A lot of other people get 
hearing aids and they do not have to wait and find someone with 
those specific great standards that the VA is expecting. I sure 
would at least like your consideration of some sort of minimum 
standards for those areas that may not be within your service 
area.
    Dr. Lynch. I am sure we would be happy to work with your 
office to look at that further and to see if we could identify 
whether or not there is a middle ground. I will let you know, 
interestingly, it may not solve all the problems, but VA is 
also beginning to use telehealth not only to do hearing 
testing, but also to fit hearing aids so that, particularly in 
the rural States like North and South Dakota--I am from 
Nebraska--before I left Nebraska, we were actually having our 
audiologist in Omaha work with patients in Central Nebraska to 
provide hearing aid placement, and it was actually very 
popular.
    Senator Rounds. My point is, look, there has got to be a 
way to take care of these folks that are in these rural areas, 
and it is a fairly large part of the country that I think 
qualifies where we do not have those available right now, and I 
would just like to see it fixed. So, I will just take it that 
you will work with us and we will try to find a way around----
    Dr. Lynch. I will commit that we will be happy to sit down 
and work with you and see if we can come to a resolution.
    Senator Rounds. Fair enough. I have one more question, and 
this will be for Mr. Worley. With regard to the flight 
training, I am just curious, you indicated that the IHLs were 
contracting with approved flight schools and that that may have 
been part of the problem that you had not anticipated. But, I 
know prior to 9/11, approved flight schools were still 
authorized and folks were getting GI benefits and basically 
picking up licensure, back in the 1970s, anyway. I am just 
curious, what happened and why is it that an IHL coordinating 
with an approved flight school is adding to the cost?
    Mr. Worley. The difference in the example you use is, and 
this is true today, a vocational flight school--if I just go 
directly to a flight school, there is a cap built in that 
today, this year, is $12,000 a year. So, we cannot pay more 
than $12,000 for someone going to a vocational flight school to 
get a commercial license or whatever.
    Senator Rounds. One more question, sir, if I could. I am 
out of time, but do you allow--will you allow for a commercial 
rating, a commercial and an instrument rating, or do you go all 
the way to an ATP under the flight school guidelines?
    Dr. Lynch. I would have to----
    Senator Rounds. Do you know?
    Dr. Lynch. I would have to take that for the record, sir. I 
think any--if it is associated with a degree program at a 
public IHL, which is the scenario we are talking about here, it 
would be--if it is approved by the State Approving Agency or 
the VA, in that scenario, then it would probably cover any of 
those. But I would like to take that for the record to get a 
specific answer to you for all the ratings.
    Senator Rounds. I would like that. Thank you.
    Thank you, Mr. Chairman.
    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Mike Rounds to 
  Thomas Lynch, Assistant Deputy Under Secretary for Health Clinical 
Operations, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Response. GI Bill benefits can be paid for FAA-approved vocational 
flight training programs offered by flight schools with a pilot school 
certificate issued under part 141 of the Federal Aviation Regulations, 
in addition to flight training required as part of a standard college 
degree program. Such programs include Commercial Pilot (fixed-wing, 
rotor-wing, etc.), Instrument, Multi-Engine, Flight Engineer, Airline 
Transport Pilot, Commercial Flight Instructor (fixed-wing, rotor-wing, 
ground, instrument, multi-engine, etc.), as well as type ratings for 
numerous commercial aircraft. Benefit payments are limited to the 
actual net cost of tuition and fees, up to a maximum of $12,048.50 for 
the current academic year, under the Post-9/11 GI Bill. Montgomery GI 
Bill beneficiaries receive reimbursement for 60% of the approved 
charges, subject to the availability of remaining benefit entitlement.

    Chairman Isakson. Thank you, Senator Rounds.
    On the question about eyeglasses and hearing aids, is it 
not true in some of the VISNs, they have contracted with 
Walmart to be the provider of optometry services?
    Dr. Lynch. I cannot confirm that. We may be talking about 
it, but I do not think we have come to an agreement, if it has 
been under discussion, not that I----
    Chairman Isakson. In answer to Senator Rounds' question, 
where you have a reputable provider of that type of service 
that serves rural America, that would provide much easier 
access. I am not advocating for Walmart by any stretch of the 
imagination, but I believe in VISN 7 that has been approved in 
certain areas to be the provider of access, and you might check 
that out. That might help Senator Rounds out, as well.
    Dr. Lynch. Absolutely.
    Chairman Isakson. Not for hearing aids, but for eyeglasses.
    Senator Rounds. Mr. Chairman, in this particular case, we 
have got plenty of optometrists in the Pierre-Fort Pierre area 
that are clearly qualified, and yet they are not allowed to 
provide the glasses for our VA constituents. In order to get 
the glasses, you have got to go out to Sturgis to pick up the 
glasses, which is 170 miles away.
    Dr. Lynch. And just to be clear, that is an issue we are 
aware of and is being worked on. We would be happy to work with 
you.
    Senator Rounds. Thank you.
    Dr. Lynch. I think it does not make sense and we need to 
figure out a better way to do it, and there have been 
conversations with respect to optometrists and how best for the 
veteran to obtain the glasses once they have had the 
examination.
    Senator Rounds. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. You ought to be able to figure out a way 
to make that work.
    Senator Rounds. Yes, sir.
    Chairman Isakson. Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman, for holding 
today's hearing and for following through on the commitment 
that you made during the Committee markup that we had in July 
that you would hear some of your members' bills, including my 
own.
    I would like to say a few words regarding the three bills 
on the agenda that I introduced, and I would like to thank Dr. 
Lynch for acknowledging a couple of the bills that I had 
introduced, basically in support.
    S. 1450, the Department of Veterans Affairs Emergency 
Medical Staffing, Recruitment, and Retention Act, S. 1451, the 
Veterans' Survivors Claims Processing Automation Act, and 
S. 1693, a bill to provide VA emergency care reimbursement for 
new VA enrollees.
    S. 1450 relates to the restrictive requirements on minimum 
hours for full-time physicians and physician assistants. This 
bill is based on VA's proposal contained in its budget request 
for fiscal year 2016. As you testified, current statutory 
limitations make it difficult for VA medical centers to recruit 
and retain providers from the private sector, and, really, 
recruitment and retention is a huge challenge for VA, I know 
very well, speaking to the VA people in the State of Hawaii.
    I also would like to acknowledge your willingness to work 
on the accessibility of issues for veterans who live far from 
providers, such as Senator Rounds' situation and also in 
Hawaii, where we have islands and it is really hard for our 
veterans to drive from one island to another. In fact, you 
cannot. So, I acknowledge the willingness to really pay 
attention to the specific needs of our veterans.
    So, getting back to S. 1450, this bill would make it easier 
for VA medical centers to recruit providers by giving the 
Secretary the flexibility to modify minimum hour requirements 
for full-time physicians and physician assistants and making it 
easier for VA to accommodate the irregular work schedules of 
emergency care physicians and hospitals, in particular. With 
this flexibility, VA could better accommodate the needs of 
these providers and better meet the needs of our veterans, 
ensuring that they have the care they need when they need it 
the most.
    S. 1450 is supported by the American College of Emergency 
Physicians and the Veterans of Foreign Wars. Mr. Chairman, I 
would like to request that the letters of support from these 
two organizations be included in the record.
    Chairman Isakson. Without objection.

    [The letters of support from Senator Hirono follow:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    

    Senator Hirono. I do understand that the Office of 
Personnel Management has some questions regarding S. 1450 and I 
look forward to working with them and with you and with the 
Chair to enable this Committee to move S. 1450 along.
    Regarding S. 1451, the Veterans' Survivors Claims 
Processing Automation Act, this bill would make it easier for 
survivors of veterans to access benefits. Current statutory 
limitations require survivors to file formal claims regardless 
of whether VA or the Federal agencies already have the 
information it needs to make determinations about benefits. It 
makes so much sense that where the VA already has this 
information, to make claimants go through the process of 
collecting information that you already have and then 
requiring, I assume, the VA to then review this information 
really does not make any sense. So, I am glad that we are on 
the same page regarding this kind of flexibility, not to 
mention that we want to get the benefits to the people as soon 
as possible.
    So, again, the VA has already requested this kind of 
authority and flexibility. Veterans groups, including The 
American Legion, Disabled American Veterans, Veterans of 
Foreign Wars, and Paralyzed Veterans of America have already 
supported this measure.
    Turning to S. 1493, a bill that I introduced from last 
Congress to provide an emergency safety net to around 144,000 
veterans waiting for VA care, I appreciate the continuing 
support of the VFW and the Iraq and Afghanistan Veterans of 
America, their support of this bill. This bill really addresses 
a catch-22 situation in current law that puts veterans who are 
new enrollees in the VA system at financial risk if they 
experience a medical emergency and they have not met the 
current law's requirement that they should have visited a VA 
facility within the past 24 months. The intent of this 
requirement is to encourage veterans to seek preventative care, 
which decreases the need for the more expensive emergency care.
    I know you understand this particular catch-22 and it 
really flows from the inability of the veterans to get the kind 
of--the appointments that they needed, which I realize the VA 
is addressing very effectively in most places, including 
Hawaii, I would think, now. I know that you have some concerns 
about this particular bill as you are undergoing a review as to 
what would be involved in meeting the provisions of this bill.
    So, the one question I would have is how long is your 
review process going to take?
    Dr. Lynch. I think we have a Congressional mandate to have 
a report back to Congress by November 1, which will deal with 
how we are going to integrate a number of non-VA care services 
into a unified package, and that is part of that discussion. 
So, I would suspect we should have some information back around 
November 1.
    Senator Hirono. Before the end of this year. I would 
appreciate that.
    Mr. Chairman, I am rapidly--in fact, I seem to have gone 
over my time, but just very briefly, we are at the point of 
about 2 weeks away before a number of VA authorized measures, 
with regard particularly to the homeless veterans, will expire, 
and I know that you are well aware, as are a number of us, that 
we need to make sure that these programs continue beyond this 
fiscal year.
    Thank you very much, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chairman.
    First, Mr. Chair, an update. Senator Tester and I met again 
with Secretary McDonald and many of his senior staff this week. 
We had a very productive discussion. I look forward to giving 
you an update on that and, hopefully, we can have a committee 
hearing focused on some of the good things that I think the VA 
is doing in short order.
    I want to go back. Senator Brown mentioned one of the two 
bills that I wanted to talk about. Going back to the Fry 
Scholarship Enhancement Act, I actually think it may be better 
termed the Fry Scholarship Correction Act, because I do not 
believe that any reasonable person thinks that we intended not 
to have somebody who was killed in the line of duty, to have 
their families or their dependents be entitled to this. So, I 
will not get into the specifics of that because I think that is 
one of these policies where we should have uniform support, and 
I would expect it.
    I did want to get to some of the mechanics, though. I think 
that the 10-year cost of the benefit is estimated to be about 
$6.2 million. The cost to implement the underlying IT system is 
estimated to be $5 million, almost the equivalent of the 10-
year cost of the benefit. So, this may be less of a question 
and more of a statement.
    I think it may speak to some of the things that we need to 
fix at the IT level, when a program that is fundamentally 
bringing in a new class of recipients, and it only relates to 
the circumstances that led them there, would cost $5 million in 
a year before we could get it online. Please, if you would like 
to comment on that or comment on the merits of the bill, I 
would welcome anyone to speak.
    Mr. Worley. Senator, I would just comment that in order to 
take care of this new aspect of the benefit, at least three of 
the IT systems that we use would be impacted: the one that the 
school certifying officials use to input the information; the 
what we call Benefits Delivery Network, BDN, which is a legacy 
system that actually is on the other end paying the benefits; 
and our long-term solution, which is essentially the Post-9/11 
GI Bill automation.
    We do not like it any more than you do, but it does take 
time to--and we--right now, the whole system is basically in 
sustainment, so we have to get a development contractor and go 
through that process. So, that is why it takes that amount of 
time and that amount of money.
    Senator Tillis. Yes. I just think it is a good example of 
how we have to become more agile so that when we fix what was 
obviously an oversight or an unintended consequence of the Fry 
Scholarship Program, that we get to a point where we allow 
other people who should have been entitled from the beginning 
to come on board, that the cost to do that almost equals the 
cost of the benefit we want to give them and delays the process 
of having the systems and process infrastructure in place by a 
year. So, I want to help remove those barriers, particularly if 
some of those barriers really relate to either statutory or 
other requirements that you must get through in order to do 
your job. I sincerely believe you all know we want to do this 
as quickly as possible for the families of fallen soldiers.
    The other one I want to speak about is S. 1938, which I am 
a cosponsor on with Senator Blumenthal. I appreciate his work 
on this. It has to do with the Career-Ready Student Veterans 
Act. Again, when we have men and women in uniform coming back, 
they want to get skills that make them career ready. We want to 
make absolutely certain that they are putting their time and 
their energy into education that is going to get them the kinds 
of certifications they need in the States where they intend to 
get work.
    I was not able to be here during the opening comments. I do 
not know if you had any comments on this bill, whether or not 
you support it, but I would be interested in your feedback now.
    Mr. Worley. Senator, we do support the intent of the bill. 
We agree with you 100 percent that a course of instruction 
should result in the credential that it is supposed to provide 
the opportunity for the veteran to take. We do have some 
questions and concerns about some of the language in the bill, 
specifically with respect to the waiver, applicability of the 
requirements to all types of schools, and applicability of the 
waiver requirements to all types of schools, and we would like 
to work with the Committee to help with that if----
    Senator Tillis. Well, I would like to do that, because I 
think it is critically important. I have personal experience 
where I helped a veteran who worked on my staff down in the 
legislature to make sure that he was investing his time, while 
he is working a full-time job, trying to get the skills that he 
needs to move into another position, to make sure that he is 
spending that money wisely and not finding out he worked really 
hard, worked nights, raised a family, and still got a--he 
thought he got something, but he really did not get something 
that would help him get the job he wanted. So, I look forward 
to working with the Ranking Member and with the Members of the 
Committee to move forward.
    The last thing, it has nothing to do with the subject 
matter, but I do want to just mention, Mr. Chair, that the 
meeting with the VA, the Secretary and everybody, went well, 
but there is one thing that still nags at me that is not done, 
and that is getting a permanent replacement for the Inspector 
General. I think we are working on 20 months now. If you take a 
look at some of these programs that we want to do to really 
make you all more agile, make you more able to do the great 
things you want to do, we need somebody there who is looking at 
some of the systemic problems and issues that only an IG who is 
in the permanent position can do. So, I, for one, want to 
remind everybody that we need to get to that. Hopefully, the 
administration will agree and come forward with a nominee.
    Thank you, Mr. Chair.
    Chairman Isakson. Well, since you raised the question, 2 
weeks ago, I talked to the Chief of Staff of the administration 
and made a recommendation on an applicant that they ought to 
interview, and in that conversation, I encouraged them, 
whomever they hire, they needed to get about doing it. It has 
gone far too long without having a designated IG.
    Second, for the Veterans Administration itself, too many 
people in high positions of responsibility are titled 
``acting'' and not permanently hired. I think that sends a bad 
signal all the way. We have got too many acting directors of 
VISNs, too many acting directors of departments. So, I am 
hoping that both the administration, as far as the IG is 
concerned, will make their appointment, but that the VA also 
will designate those people that are permanent as permanent and 
no longer as acting so we can move forward with the business of 
the VA.
    I want to thank our panelists for their attendance, and if 
they will excuse themselves to the back, we will bring forward 
the second panel. [Pause.]
 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
  Mr. Robert Worley, Director of Education Service, Veterans Benefits 
          Administration, U.S. Department of Veterans Affairs
    Question 1.  During the discussion on capping Post-9/11 GI Bill 
benefits for certain education programs, it was mentioned that very 
large dollar amounts had been paid out in benefits for students in 
flight degree programs.
    a. i. What is the largest amount of cumulative Post-9/11 GI Bill 
benefits paid out to or on behalf of one individual for flight degree 
training since August 1, 2009?
    Response. Since inception through July 31, 2015, the highest amount 
paid for a student in a flight degree program was $916,708.44.
          ii. Was this an outlier or were other individuals paid 
        similar amounts?
          Response. Yes, VA paid similar amounts for students attending 
        public institutions of higher learning (IHLs) with contracted 
        flight programs. VA identified 29 students that were paid over 
        $500,000 since the inception of the Post-9/11 GI Bill.
          iii. Was this individual in an associate's or bachelor's 
        degree program?
          Response. The student was enrolled in an Associate of 
        Science, Professional Pilot degree program at Mid-South 
        Community College; however, the program was withdrawn in 2013. 
        The student transferred to Southern Utah University to pursue a 
        Bachelor of Science, General Studies with a concentration in 
        flight studies.
          iv. How many academic years did this enrollment span?
          Response. The student attended 4 academic years. The first 
        recorded academic term started on January 23, 2012. The last 
        date of attendance was recorded on August 3, 2015. This student 
        has 5 months and 28 days of entitlement remaining.
          v. Did the student complete their degree?
          Response. No, the student's education file does not show a 
        data entry of graduating from any degree or certificate 
        program.
          vi. Is their last flight degree institution currently in 
        compliance with the 85-15 rule? Were the amounts adjusted for 
        this individual following a compliance survey, and if so, what 
        were the changes?
          Response. The flight program at Southern Utah University is 
        currently suspended due to violation of the 85-15 Rule. 
        Students who were enrolled at the time of the suspension can 
        continue to complete their program. VA is still reviewing 
        students' records to determine if adjustments need to be made.

    b. Please provide the number of Post-9/11 beneficiaries in flight 
degree programs for whom benefits were paid out in the following dollar 
ranges for FY 2014:

           i. $500,000 or more
          ii. $300,000 to $499,999
          iii. $100,000 to $299,999
          iv. $50,000 to $99,999
          v. $49,999 or less

    Please include for each dollar range the number of students based 
on the initial reporting by IHLs as well as the corrected number of 
students after completion of the compliance surveys in 2015, if 
available.
    Response. VA has not made corrections for excessive hours certified 
at this time. School catalogs are still under review to determine the 
total amount to be repaid.

 
------------------------------------------------------------------------
                                           Number of   Total Expenditure
 Range of Expenditures Paid for FY 2014     Trainees          Paid
------------------------------------------------------------------------
$500,000 or more........................        1           $534,881
$300,000 to $499,999....................       40        $14,522,676.28
$100,000 to $299,999....................      167        $27,773,854.13
$50,000 to $99,000......................      208        $14,460,999.39
$49,000 or less.........................     1495        $22,524,789.79
------------------------------------------------------------------------
Please note: This is the number and amount paid out and any adjustments
  are not reflected.


    Question 2.  VA reported that 10 flight degree programs were 
suspended from enrolling new students using VA benefits due to non-
compliance with the 85-15 rule.
    a. How many VA students were enrolled in these 10 flight degree 
programs for FY 2014?
    Response. In FY 2014, there were 456 students enrolled at the 10 
public IHLs with contracted flight programs.
    b. What is the total amount of Post-9/11 GI Bill benefits paid out 
for the students in these 10 suspended flight degree programs for FY 
2014? What is the corrected amount of benefits for these students 
following the compliance surveys in 2015?
    Response. No compliance survey adjustments were made. When a school 
is suspended for the 85-15 Rule, current students are not impacted; 
however, no new enrollments are allowed.
    In FY 2014, the total amount paid under Post-9/11 GI Bill benefits 
to students at the 10 suspended public IHLs with contracted flight 
programs was $41,016,171.21. Below is a table showing this information.

 
----------------------------------------------------------------------------------------------------------------
                                                                     Location of    Number of
                       Name of institution                           institution     trainees      Total cost
----------------------------------------------------------------------------------------------------------------
Big Bend Community College......................................       Washington       30          $670,841.61
Chandler-Gilbert Community College..............................          Arizona        1           $37,584.50
Delaware State University.......................................         Delaware       10          $124,643.30
Dodge City Community College....................................           Kansas       12        $1,043,725.85
Dodge City Community College....................................          Arizona       87       $11,207,646.61
Dodge City Community College--Provo.............................             Utah       17        $1,559,787.88
Palm Beach State College-Central Campus Lake Worth..............          Florida      109        $2,968,309.95
Palm Beach State College-South Campus Boca Raton................          Florida        0                $0.00
Palo Alto College...............................................            Texas        0                $0.00
Pulaski Technical College-N Little Rock.........................         Arkansas       51        $1,023,719.25
Southern Utah University........................................             Utah       68       $15,702,297.46
Tarrant County College..........................................            Texas        2           $41,485.00
Yavapai College.................................................          Arizona       69        $6,636,129.80
                                                                                   -----------------------------
    Total.......................................................                       456       $41,016,171.21
----------------------------------------------------------------------------------------------------------------


                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Dean Heller to Mr. 
    Robert Worley, Director of Education Service, Veterans Benefits 
          Administration, U.S. Department of Veterans Affairs
    I have a few questions about a provision in the draft discussion 
related to flight training schools.
    This draft will cap tuition rates at public institutions under the 
GI Bill--effectively keeping veterans from using their benefits for 
flight training school.
    I think we know where some of the veterans groups, the VA, and the 
flight schools are at on this, but I'd like to share a letter from two 
of my constituents who wrote me on this issue.

    Question 1. The first, from a grandmother whose grandson is in 
flight school:

          ``The problem is that my grandson, as many other veterans, 
        researched this through the VA. Why would he chose a school 
        whose program would not meet the VA standards? The fact that 
        the Congress would take away any benefits because the law was 
        not `clearly' written is inexcusable.''

    Response. Use of a cap is not in our view ``taking away'' any 
education benefits. The cap's purpose is not aimed at limiting 
Veterans' educational opportunities, but to improve the integrity of 
the education benefits program by limiting profits that VA believes are 
so excessive that they constitute abuse of the program. Veterans are 
still able to pursue a flight degree and use education benefits should 
they choose to do so.

    Question 2. The second letter, from a 6-year Army veteran who 
recently separated after two deployments to Afghanistan:

          ``The purpose of my message is to express my strong 
        disagreement with the proposed changes to the G.I Bill * * *. 
        This unrealistic cap practically crushes the dream of flight 
        training for all veterans * * *.Instead of having the innocent 
        pay for the guilty, your Committee should address the source of 
        the abuse * * *.''
          ``Personally, I have always dreamed of pursuing a career in 
        aviation. The G.I bill represented an opportunity to achieve 
        that dream, it is truly a shame to have this taken away because 
        of the greed of a few individuals.''

    So, before taking a drastic action to cutoff access to this 
program, I'd like to know what VA has done to weed out bad actors.

    Question 3. Has VA conducted an audit of flight training schools?
    Response. Yes, VA conducted compliance surveys of all (110) IHLs 
with contracted flight programs in April and May 2015. VA also 
conducted compliance surveys at all vocational flight schools in 
July 2015.

    Question 4. What percentage of those schools were either 
overcharging or violating VA rules?
    Response. Of the 110 IHLS surveyed in April and May 2015:

    <bullet> 9% of the schools surveyed were in violation of the 85-15 
Rule requirements;
    <bullet> 2% of the schools were conducting training with flight 
schools that were not approved; and
    <bullet> 36% of the schools were certifying hours in excess of 
those listed in the catalog.

    Please note that some of the schools overlapped in the categories 
mentioned above.
    For the vocational flights schools reviewed in July 2015, VA found 
no violation of its rules or overcharged amounts.

    Question 5. What solutions, besides imposing a cap, would help weed 
out bad actors?
    Response. VA has concluded that legislation which would set a 
reasonable cap for costs of contracted flight programs is the only 
effective means of curtailing the specific problem of excessive charges 
by flight schools.

    Chairman Isakson. Let me welcome our second panel and thank 
you for your patience during the first one.
    Our second panel includes Joseph W. Wescott II, Legislative 
Director of the National Association of State Approving 
Agencies; Roscoe G. Butler, the Deputy Director for Health Care 
of The American Legion; Aleks Morosky, Deputy Director of the 
National Legislative Service, Veterans of Foreign Wars; and 
Donald F. Kettl, Professor of the School of Public Policy, 
University of Maryland.
    Welcome to all of you. We will begin with Dr. Wescott. I 
made you a doctor. You are a doctor? Well, that is good. I got 
it right.

   STATEMENT OF JOSEPH W. WESCOTT II, LEGISLATIVE DIRECTOR, 
        NATIONAL ASSOCIATION OF STATE APPROVING AGENCIES

    Mr. Wescott. Chairman Isakson, Ranking Member Blumenthal, 
and Members of the Committee on Veterans' Affairs, I am pleased 
to appear before you today on behalf of the National 
Association of State Approving Agencies and appreciate the 
opportunity to provide comments on certain bills pending before 
this Committee. I am accompanied today by our Legislative 
Committee Vice Chair, Retired Sergeant Major Robert Haley.
    The S. 1460 Fry Scholarship Enhancement Act, NASAA feels 
strongly that it is very much in keeping with the spirit and 
purpose of this important program to extend the Yellow Ribbon 
GI Bill Education Enhancement Program to cover the worthy 
recipients of the John David Fry Scholarship. As such, we 
strongly support this bill.
    The S. 1938 Career-Ready Student Veterans Act, the primary 
responsibility of State Approving Agencies is to approve 
quality educational programming in which a qualified veteran or 
dependent can enroll while using the GI Bill, which will 
prepare them for employment in a satisfying career. Already, 
many SAAs require that certain degree programs be accredited by 
the programmatic accrediting agency. So, although this problem 
is seemingly not widespread, one disappointed veteran is too 
many. NASAA supports this bill.
    The discussion draft, a bill to make improvement in the 
laws administered by the Secretary of Veterans Affairs relating 
to educational assistance, we support the provisions of Section 
1 of the discussion draft relating to the recodification and 
improvement of the election process for post-9/11 
beneficiaries. We do not oppose Section 2, relating to 
centralized reporting of veteran enrollment, as long as 
individual campuses continue to maintain a contact person so as 
to provide support to the veteran population.
    NASAA supports Section 3 of this bill, as it provides for 
clarification of assistance provided for certain programs of 
education, particularly contracted programs offered in 
conjunction with institutions of higher learning. It is 
important that we provide measures to improve cost control for 
specialized degree programs, such as aviation degrees offered 
by colleges and universities, which involve a contracted 
program which may or may not be approved by a State Approving 
Agency.
    NASAA strongly supports, as well, the provisions of Section 
4, which will provide updated information on the amount of 
educational assistance to which veterans or other individuals 
are entitled. This allows school officials to be in a better 
position to assist veterans in planning for and being 
successful in their educational programs.
    NASAA strongly supports Section 5, relating to the role of 
State Approving Agencies, and sees these provisions as critical 
to the protection of our veterans and the fair and equitable 
administration of GI Bill educational benefits. This section 
seeks to clarify and codify State approval authority and 
oversight over all non-Federal facilities. In addition, since 
the passage of Public Law 111-377, there has been no statutory 
authority for the approval of accredited NCD programs at public 
or private not-for-profit institutions, a situation that 
Section 6 corrects.
    NASAA does not oppose the section of the bill relating to 
additional reasonable criteria in that it requires that when 
the Secretary determines the review of that criteria is 
necessary, the Secretary must do so in consultation with the 
State Approving Agency, and the criteria must be necessary and 
treat all sectors of education within the State equitably.
    Finally, Section 7 mandates appropriate changes to 38 
U.S. 3693 compliance surveys, which would allow for flexibility 
to adjust resources to specific high-risk educational 
institutions as needs arise and allow SAAs to provide needed 
technical assistance and training visits to schools, as well. 
NASAA supports this section.
    Mr. Chairman, today, 56 State Approving Agencies composed 
of approximately 175 professional and support personnel are 
supervising over 12,000 approved facilities with 100,000 
programs. Last year, SAAs conducted more than 50 percent of all 
the compliance surveys accomplished. But even more 
impressively, we increased the number of education and training 
programs we approve by over 75 percent. This is just further 
evidence that we remain strongly committed to working closely 
with our VA partners, our VSO stakeholders, and educational 
institutions to ensure that veterans have access to quality 
educational programs.
    Mr. Chairman, I pledge to you and this Committee that we 
will not fail in our critical mission and in our commitment to 
safeguard the public trust, to protect the GI Bill, and to 
defend the future of those who have so nobly defended us. I 
thank you again for this opportunity and I look forward to 
answering any questions that you or committee members may have.
    [The prepared statement of Mr. Wescott follows:]
 Prepared Statement of Dr. Joseph W. Wescott II, Legislative Director, 
            National Association of State Approving Agencies
                              introduction
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee on Veterans Affairs, I am pleased to appear before you today 
on behalf of the 56 member state agencies of the National Association 
of State Approving Agencies (NASAA) and appreciate the opportunity to 
provide comments on bills pending before this Committee, particularly 
S. 1460, S. 1938, and the draft bill pertaining to improvements in the 
laws administered by the Secretary of Veterans Affairs relating to 
educational assistance and for other purposes. As a part of our review 
of these bills, we will also provide some additional comments that 
address the role of state approving agencies in approving and providing 
oversight of educational programs that provide for a secure future for 
our Nation's heroes and their families.
         role of the state approving agencies: past and present
    State Approving Agencies were established shortly after passage of 
the Veteran' Readjustment Act of 1944, or the GI Bill of Rights. 
Congress, recognizing that it was the responsibility of the states 
within our Federal system of government to oversee the education of its 
citizens, required that each state establish a ``State Approving 
Agency'' and the Governor of each state designated a state bureau or 
department as the SAA. The SAA was to be supported by reimbursement of 
its expenses by the US Department of Veterans Affairs (VA). Thus 
evolved a truly cooperative Federal-state effort that maintains the 
rights of the states while monitoring and protecting a federally-
sponsored program administered under the terms and conditions of 
Federal law.
    From a role of simply advising VA as to which educational and 
training programs were state-approved, State Approving Agencies have 
evolved to become the primary source of assuring institutional 
accountability. With specialized authorization under the Code of 
Federal Regulations and state statues, they exercise the state's 
authority to approve, disapprove and monitor education and training 
programs. SAAs also assist the states and VA with exposing fraudulent 
and criminal activity involving the payment of veteran's benefits.
    In 1948, SAA representatives met to form a professional 
organization to promote high professional standards, create a forum for 
the exchange best practices, and to promote uniformity of purpose and 
practice. For almost seventy years now, NASAA has worked with our VA 
partners, the VSOs, and all agencies to ensure that the greatest 
numbers of quality programs are available to those eligible for 
education and training programs. We do this through our primary mission 
of program approval and our related efforts; compliance, training, 
liaison and outreach. Indeed, with the exception of Federal facilities, 
the State Approving Agencies are responsible for the approval of all 
programs of education and training within the Nation.
            s. 1460, fry scholarship enhancement act of 2015
    There are no more worthy recipients than those who receive the 
Marine Gunnery Sergeant John David Fry Scholarship. The scholarship is 
available to surviving children and surviving spouses of active duty 
members of the Armed Forces who died in the line of duty on or after 
September 11, 2001. Full tuition and fees are paid directly to the 
school for all public school in-state students capped at the statutory 
maximum amount per academic year equal to the post-9/11 G.I. Bill. 
However, unlike dependents of living veterans who are eligible for 
Transfer of Entitlement under the Post-9/11 GI Bill and who can 
participate in the Yellow Ribbon program, recipients of the Fry 
Scholarship cannot. NASAA feels strongly that it is very much in 
keeping with the spirit and purpose of this important program to extend 
the Post-9/11 G.I. Bill Yellow Ribbon Education Enhancement program to 
cover the recipients of this scholarship. As such, we support this 
bill.
               s. 1938, career ready student veterans act
    The primary responsibility of state approving agencies is to 
approve quality educational programming in which a qualified veteran or 
dependent can enroll while using the GI Bill, which will prepare them 
for gainful employment and a satisfying career. While it is true that 
all persons that attend career schools, such as law or nursing, do not 
always seek or find satisfying employment in that particular career 
field, it is certainly not an unfair expectation for a veteran who 
graduates from such programs to be qualified to sit for the license or 
certification exam. Already, many SAA's require that certain degree 
programs be accredited by the programmatic accrediting agency, so 
although this problem is seemingly not widespread, one disappointed 
veteran is too many. NASAA does however believe strongly that this 
requirement should apply equally to public and not-for-profit 
institutions as well as proprietary for profit institutions and non-
accredited schools. Of course, that requires that we be aware of the 
deemed approved programs, which we will address later in this 
statement. Given our role to safeguard the future of veterans and their 
families and to protect the integrity of the GI Bill educational 
program, NASAA supports this bill.
discussion draft, a bill to make improvements in the laws administered 
by the secretary of veteran affairs relating to educational assistance, 
                        and for other purposes.
    Though our primary role is to approve quality education programs 
and provide oversight of those programs at educational and training 
institutions, we understand well the importance of timely payment of 
benefits to veterans and the importance of veteran enrollment in the 
correct chapters of entitlement available to them. We often work with 
the VA Education Liaison Representatives in our states to help resolve 
difficult cases involving veteran payment issues and entitlement. As 
such we support the provisions of this bill in Section 1 relating to 
the recodification and improvement of the election process for Post-911 
beneficiaries. NASAA does not oppose Section 2, relating to centralized 
reporting of veteran enrollment but would desire that even though 
reporting is centralized, that individual campuses must continue to 
maintain a contact person so as to provide support to their veteran 
population and local accountability to state approving agencies and VA 
personnel. NASAA supports Section 3 of this bill as it provides for 
clarification of assistance provided for certain programs of education, 
particularly contracted programs offered in conjunction with 
institutions of higher learning (IHLs). It is important that we provide 
measures to improve cost control for specialized degrees offered by 
colleges and universities, which involve a contracted program which may 
or may not be approved by a state approving agency. For example, some 
public higher education institutions have instituted extreme costs for 
aviation program fees as there are presently no caps in place for 
public IHLs. In some cases, benefits have been paid for aviation degree 
programs at public IHLs provided by a third-party flight contractor 
with no approval issued by the governing SAA. This was exacerbated by 
the implementation of 3672. And some students were taking flight 
classes as electives with no cost cap for flight fees. In those cases, 
students could foreseeably take flight classes as an ``undeclared'' 
student for up to two years. This section would limit Chapter 33 
payments for aviation programs and similar contracted training at 
public institutions to the prevailing cap, presently $21,084.89. There 
would be no impact on the institutions' ability to access Yellow Ribbon 
funds. We feel strongly that veterans should continue to have access to 
quality contracted programs overseen by state approving agencies, but a 
reasonable cap is necessary to protect both our veterans and the 
integrity of the GI Bill.
    NASAA supports as well the provisions of Section 4 which will 
provide through a secure information technology system to educational 
institutions offering SAA approved programs updated information on the 
amount of educational assistance to which veterans or other individuals 
are entitled. This allows school officials to be in a better position 
to assist veterans in planning for and being successful in their 
educational programs. We might add that we would also like to see 
changes and improvements made to VA information technology systems such 
that all original and supplemental chapter 33 claims, to the maximum 
extent possible, are adjudicated electronically, to include on-the-job 
training and apprenticeship programs, which are all still processed 
manually. Indeed, for the last two years, we have worked side by side 
with our VA partners to redesign the compliance survey process so that 
corrections to claims generated during those visits would be handled 
utilizing the VA Once automation system and not paper referrals. We 
continue to work with the VA to further refine the handling of these 
claim adjustments so that veterans may receive monies owed them as 
expeditiously as possible.
    NASAA strongly supports Section 5 relating to the role of state 
approving agencies and sees these provisions as critical to the 
protection of our veterans and the fair and equitable administration of 
GI Bill educational benefits. This section seeks to clarify and codify 
State approval authority and oversight over all non-Federal facilities. 
It would accomplish this by identifying SAAs as the primary entity 
responsible for approval, suspension, and withdrawal. These proposed 
changes would ensure that an actual process for approval, suspension, 
and withdrawal will be adhered to (as opposed to our current scenario 
under the present often misunderstood ``deemed approved'' concept). The 
law does not do away with the concept that accredited degree programs 
at public and not for profit private institutions of higher education 
(IHLs) may be ``deemed approved,'' rather, it would maintain the intent 
of the statute by adhering to an expeditious list of approval criteria 
for those programs that have been reviewed and/or endorsed by another 
appropriate entity. Furthermore, these changes would lessen the 
opportunity for third-party contracted training programs to be ``deemed 
approved'' with no review, in that SAAs would clearly possess the 
authority to review contracted training programs as a part of their 
annual evaluation of programs and policies.
    In addition, since the passage of the Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010 (111-377) in 
January 2011, there has been no statutory authority for the approval of 
accredited NCD programs at public or private not-for-profit 
institutions. We estimate over 10,000 such programs are in existence 
today over which neither us nor the VA have existing statutory 
authority to maintain their approval. These programs include teacher 
certification programs, accounting certificates, dental assisting as 
well as graduate certificates not a part of a degree program. Section 6 
expands 3675 to cover all accredited programs not already covered under 
3672, while maintaining all previous approval criteria for private-for-
profit institutions. We are concerned with the recent proliferation of 
transition and training programs at accredited institutions of higher 
learning, particularly community colleges, as well as certifications 
that may or not meet industry standards or have real earning power.
    As the oversight of education within their borders remains both a 
key role and responsibility of the states, NASAA strongly supports 
``additional reasonable criteria'' which are used to approve non-
accredited courses. Examples of such criteria that states mandate 
within their borders include a requirement for licensing to operate an 
educational institution or requirements for health and safety 
regulations. Likewise, some states require additional attendance 
requirements or a careful monitoring of standards of progress. Such 
additional criteria are for the protection of the states and their 
residents and/or citizens. NASAA does not oppose the section of the 
bill relating to additional reasonable criteria in that it requires 
that, when the Secretary determines that if review of the state 
criteria is necessary, the Secretary must do so in consultation with 
the State approving agency and the criteria must be necessary and treat 
all sectors of education within the state equitably. Equitable 
application of statute is a shared value of our member agencies.
    Finally, Section 7 mandates appropriate changes to 38 US 3693 ( 
Compliance Surveys) to maximize the opportunity to protect the GI Bill 
while changing the manner in which we perform these surveys to reflect 
the changes that have occurred in higher education and training in the 
past three decades. The current statutory requirements for VA to 
conduct Compliance Surveys represent an almost impossible mission, 
given present resources. The statute requires an annual survey be 
conducted at each and every facility that offers anything other than a 
standard college degree as well as each and every institution enrolling 
at least 300 GI Bill recipients. This section makes changes in the law 
to allow for a manageable mission in which VA, with the assistance of 
SAA partners, can conduct compliance surveys on a regular scheduled 
basis at the majority of approved institutions, while allowing for 
continued waiver of those institutions with a demonstrated record of 
compliance. At the same time, NASAA feels strongly that no school 
should go without a visit of some kind for longer than three years. 
Such compliance surveys should be designed to ensure that the 
institution and its approved courses are in compliance with all 
applicable provisions of chapters 30 through 36 of this title, but 
should also allow for limited program review, interviews with veteran 
students and training for school officials. Plus, the changes should 
allow for flexibility to adjust resources toward specific high-risk 
educational institutions as specific needs arise, allowing both VA and 
SAAs to be nimble and proactive in response to risks identified through 
the new complaint system and will allow SAAs to provide needed 
technical assistance and training visits to schools. By amending the 
law to provide that ``the Secretary will conduct a compliance survey at 
least once every two years at each institution or facility offering one 
or more courses approved for the enrollment of eligible veterans or 
persons if at least 20 veterans or persons are enrolled in such course 
or courses,'' we will make sure that schools that need a visit will 
receive one and will allow enough flexibility for SAAs to focus more on 
their primary roles of approval, training and technical assistance. We 
believe in the wisdom of preventing problems through carefully 
approving programs that provide jobs to veterans, not by creating debts 
or allowing veterans to go months without proper payment when such 
could and should be avoided.
                               conclusion
    Mr. Chairman, today, fifty-six (some states have two) and the 
territory of Puerto Rico, composed of approximately 175 professional 
and support personnel, are supervising over 12,000 approved facilities 
with 100,000 programs. Last year, we increased the number of compliance 
visits we conducted to 2,672 visits, an increase of 17% over the 
previous year and more than fifty (50) percent of the visits 
accomplished by state approving agencies and the VA. But even more 
impressive, we increased the number of education and training programs 
we approved by over 75% while expanding our outreach efforts to new 
institutions and veterans by 26%. I am also pleased to report that 
State Approving Agencies, through NASAA, have taken a leading role in 
assisting their individual states in becoming compliant with Section 
702 of the Choice Act and because of that initiative 47 states are 
compliant with section 702 requirements and the others are working 
diligently to become so before years end. This is just further evidence 
that we remain strongly committed to working closely with our VA 
partners, VSO stakeholders and educational institutions to ensure that 
veterans have access to quality educational programs delivered in an 
appropriate manner by reputable providers. For we all share one 
purpose, a better future for our veterans and their dependents.

    Mr. Chairman, I pledge to you that we will not fail in our critical 
mission and in our commitment to safeguard the public trust, to protect 
the GI Bill and to defend the future of those who have so nobly 
defended us. I thank you again for this opportunity and I look forward 
to answering any questions that you or committee members may have.

    Chairman Isakson. Thank you, Mr. Wescott.
    Mr. Butler.

STATEMENT OF ROSCOE G. BUTLER, DEPUTY DIRECTOR FOR HEALTH CARE, 
                      THE AMERICAN LEGION

    Mr. Butler. Chairman Isakson, Ranking Member Blumenthal, 
and distinguished Members of the Committee, on behalf of our 
newly elected National Commander Dale Barnett and over two 
million members of The American Legion, we thank you for the 
opportunity to testify regarding pending legislation.
    There are several bills on the agenda for today and you 
have our full written remarks on the record. Therefore, I will 
focus on a couple of key concerns and then answer any questions 
you may have.
    Accountability within VA is a concern to all veterans. 
Although we have seen VA move to react to last year's scandals, 
we know that veterans in the community are still frustrated 
about a perceived lack of consequences for those responsible 
for the failures. Last year's Veterans Access to Care and 
Accountability Act provided VA with some easier measures for 
firing executives within VA. Contrary to fears of draconian 
purges and a new spoils system, this authority has been 
scarcely used. Veterans need to see there are consequences for 
those who manipulate the system to their benefits and to the 
determent of the veterans they serve. The system should be 
simple and transparent, open for all to see.
    We should not need new laws to terminate VA employees if 
they are committing crimes. VA should already have that 
authority. If a VA employee commits a crime, they should be 
prosecuted by special prosecutors, if necessary. We should not 
need to micromanage how VA handles their managers with quota 
rationing. Working toward arbitrary quotas and numbers is 
perhaps what led to VA's problems in the first place.
    VA can restore accountability by becoming directly 
accountable to the veterans in the community and engaging with 
them, showing them step by step the measures they are taking to 
right the mistakes when a medical system fails our veterans.
    While The American Legion applauds the aims of S. 290 and 
S. 1856, we do think there is more work to be done to make sure 
we are not just adding more layers to a bureaucracy when layers 
need to be stripped away to enable more direct accountability.
    S. 1450, the Veterans Affairs Emergency Medical Staffing 
Recruitment and Retention Act, will provide much needed 
flexibility for staffing so VA facilities can implement 
staffing models more in keeping with current medical practices. 
This is especially necessary in terms of staffing emergency 
rooms. Doctors and nurses do not keep to the same schedules to 
a nine-to-five office workers, and, therefore, the government 
regulations about hourly staffing can make VA shift planning 
far more difficult than comparable civilian medical centers. 
This is a common sense fix that will help with staffing, 
particularly as emergency rooms have had to close because of 
staffing scheduling issues. It makes sense to staff VA 
facilities as you would other medical facilities.
    Finally, S. 564, the Veterans Hearing Aid Access and 
Accountability Act, is a simple measure that could provide some 
help to VA in terms of relieving staffing burdens. According to 
VA's own figures, veterans attended over 903,000 appointments 
for audiology services in fiscal year 2014. This area of 
treatment is growing, and hearing loss and tinnitus are the two 
most prevalent service-connected disabilities, and yet not all 
required services need a full-time audiologist. In April of 
this year at an IOM presentation, it was estimated nearly half 
of patients awaiting care in VA were for audiology services.
    Furthermore, treatment often requires multiple visits. Not 
all of these visits require an audiologist. This legislation 
would enable the hiring of hearing aid specialists who could 
take some of the workload off the audiologists and still 
deliver the needed care to veterans. This is a small fix, but 
could potentially have a big impact on this large and growing 
segment of the veteran population.
    Thank you again, Mr. Chairman, Ranking Member Blumenthal, 
for turning the Committee's attention to getting this right. I 
appreciate the opportunity to present The American Legion's 
views and look forward to answering any questions you may have.
    [The prepared statement of Mr. Butler follows:]
Prepared Statement of Roscoe G. Butler, Deputy Director of Health Care, 
  National Veterans Affairs and Rehabilitation Division, The American 
                                 Legion
    Chairman Isakson, Ranking Member Blumenthal, and distinguished 
Members of the Committee, On behalf of our National Commander, Dale 
Barnett, and the over 2 million members of The American Legion, we 
thank you for this opportunity to testify regarding The American 
Legion's positions on pending legislation before this Committee. We 
appreciate the Committee focusing on these critical issues that will 
affect veterans and their families.
s. 290: increasing the department of veterans affairs accountability to 
                          veterans act of 2015
    To amend title 38, United States Code, to improve the 
accountability of employees of the Department of Veterans Affairs, and 
for other purposes.
    Reacting to the firing of Phoenix VA Healthcare System Director in 
November of last year, then National Commander of The American Legion 
Mike Helm noted:

        ``This is one long-overdue step in a journey that is far from 
        over. Unfortunately, as we all soon discovered after the story 
        broke last April, this problem was not isolated to Phoenix. It 
        was widespread, and we expect to see additional consequences, 
        even criminal charges if they are warranted, for anyone who 
        knowingly misled veterans and denied them access to medical 
        services.''\1\
---------------------------------------------------------------------------
    \1\ ``Legion: VA director's overdue firing applauded''--Nov. 24, 
2014

    The American Legion believes it is important to ensure there is 
accountability at all levels within VA and that the process is 
completely transparent. Where VA employees are found to have engaged in 
wrongdoing, The American Legion supports the appointment of a special 
prosecutor to be assigned to investigate and vigorously prosecute any 
VA employees engaged in fraudulent practices designed to improperly 
award bonuses or other financial or meritorious awards to the 
perpetrator.\2\ While those in the Senior Executive Service (SES) can 
and should receive performance bonuses when their performance is 
exemplary, The American Legion believes any bonuses need to be tied 
clearly to quantitative and qualitative measures.\3\ There must be an 
open process for determining these awards that all stakeholders can 
examine to determine the propriety of the awarded bonuses.
---------------------------------------------------------------------------
    \2\ Resolution No. 107--Aug. 2014
    \3\ Resolution No. 128--Aug. 2014
---------------------------------------------------------------------------
    This legislation addresses some of the concerns of The American 
Legion. Our organization supports increased accountability, and those 
employees found guilty of having committed crimes at the expense of the 
veterans entrusted to their care should never profit from those crimes. 
To receive bonuses based on manipulation and lies undercuts any trust 
with the veterans' community. Requiring additional transparency about 
SES performance outcomes is also laudable and supported by The American 
Legion.
    While The American Legion understands the intent of over hauling 
the VA's performance appraisal system, The American Legion has concerns 
with the proposed changes. We believe there must be a system that is 
clear, transparent and tied to observable quantitative and qualitative 
goals. However, the level of specificity and the quota rationing may be 
too constrictive to VA's ability to manage. This should be worked out 
in collaboration between Congress and VA to ensure the system remains 
an effective management tool.
    The American Legion recognizes the importance of reforming the 
bonus system and indeed the management culture within VA, and applauds 
the initial efforts by VA Secretary Robert ``Bob'' McDonald to begin 
that process, as well as the diligence of this Committee to direct 
oversight efforts toward that task. This legislation has great 
intentions, and the portions related to adding transparency to the 
system and preventing employees from profiting at the cost of veterans 
is important. With further work, perhaps more of the legislation could 
be supported, and The American Legion looks forward to working with 
this Committee to ensure impactful legislation is passed toward this 
end.
    The American Legion generally supports this legislation, but 
believes additional work as noted above may be necessary to support the 
entire legislation.
           s. 563: physician ambassadors helping veterans act
    To amend title 38, United States Code, to establish the Physician 
Ambassadors Helping Veterans program to seek to employ physicians at 
the Department of Veterans Affairs on a without compensation basis in 
practice areas and specialties with staffing shortages and long 
appointment waiting times
    S. 563 would increase the timeliness and quality of care for 
veterans enrolled in the VA healthcare system. The Physicians 
Ambassadors Helping Veterans Act would direct the VA to use its 
existing authority to promptly offer privileges to physicians who 
volunteer to serve at least 40 hours per year at VA medical centers. 
This bill would eliminate the barriers for licensed physicians who are 
not employed by the Department of Veterans Affairs to volunteer their 
time and expertise for the purpose of getting veterans the medical care 
they need in a timely and efficient manner.
    The American Legion supports this legislation.
         s. 564: veterans hearing aid access and assistance act
    To amend title 38, United States Code, to include licensed hearing 
aid specialists as eligible for appointment in the Veterans Health 
Administration of the Department of Veterans Affairs, and for other 
purposes
    Many veterans throughout the country are experiencing long wait 
times and having to travel long distances for audiology appointments. 
The increased use of hearing aid specialists used by VA would lead to 
decreased wait times, provide more convenient care, and increase 
follow-up audiology services for several thousand enrolled veterans.
    Recently, The American Legion reached out to the VA regarding wait 
times for audiology appointments. According to VA figures, as of 
July 2015, there were 12,910 new enrolled patients and 4,351established 
patients who were waiting longer than 30 days for an audiology 
appointment. Currently, under the Veterans Choice Program any veteran 
waiting over 30 days is given the option to seek care in the private 
sector. Nevertheless, the Denver Acquisition and Logistics Center 
(DALC) reported that there were no backlogs in processing hearing aids 
for veterans. The American Legion believes VA already has the authority 
to address this problem through the outsourcing of care, however 
outsourcing care ultimately distances VA from its mission of caring for 
the veteran. Ultimately, VA's own resources should be built up to 
address these problems in-house.
    The American Legion supports the hiring and utilization of hearing 
aid specialists to perform hearing aid testing, fitting, and dispensing 
services.\4\ Such additions would augment VA's capacity in-house 
without necessity for creating an overabundance of full audiologists. 
VA would be able to better manage their workload and maximize their 
ability to deal with the easier problems, freeing up audiologists to 
deal with more serious medical issues.
---------------------------------------------------------------------------
    \4\ Resolution No. 64--Sept. 2015
---------------------------------------------------------------------------
    The American Legion supports S. 564.
 s. 1450: veterans affairs emergency medical staffing recruitment and 
                             retention act
    To amend title 38, United States Code, to allow the Secretary of 
Veterans Affairs to modify the hours of employment of physicians and 
physician assistants employed on a full-time basis by the Department of 
Veterans Affairs
    The Veterans Affairs Medical Staffing Recruitment and Retention Act 
would give the Veterans Health Administration (VHA) the ability to 
address the unbalanced work schedules that are often associated with 
providing emergency room health care. Since 2003, The American Legion 
through the ``System Worth Saving Program'' has been actively tracking 
staffing shortages at VA medical centers across the country. The 
American Legion's 2014 System Worth Saving report entitled `` Past, 
Present, and Future of VA Health Care'' found that several VA medical 
centers continue to struggle to fill critical positions across many 
disciplines within the healthcare system.
    The American Legion believes the Veterans Health Administration 
must continue to develop and implement staffing models for critically 
needed occupations.\5\
---------------------------------------------------------------------------
    \5\ Resolution No. 101--Sept. 2015
---------------------------------------------------------------------------
    The American Legion supports S. 1450.
 s. 1451: veterans' survivors claims processing automation act of 2015
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to adjudicate and pay survivor's benefits without 
requiring the filing of a formal claim, and for other purposes.
    Eligibility for survivors' benefits can often be easily obtained 
either by evidence held by VA or through items such as a death 
certificate. For example, if a veteran received 100 percent service 
connection for 10 years prior to their death, the surviving spouse is 
entitled to Dependency and Indemnity Compensation (DIC). DIC benefits 
could also be awarded based upon a service-connected condition either 
causing or contributing to the veteran's death. This information could 
easily be extracted from a death certificate.
    S. 1451 strives to reduce the burden for many grief-stricken 
surviving spouses. If evidence obtained by VA clearly indicates the 
veteran's death was caused or contributed to by military service or a 
previously service-connected condition, then the award should be 
granted. The American Legion supports VA discovering more effective and 
efficient methods to administer its disability benefits, provided those 
methods do not strip away due process from veterans.\6\ The American 
Legion strongly believes S. 1451 would assist in reducing the burden on 
surviving spouses and allow VA to adjudicate claims in a more efficient 
manner.
---------------------------------------------------------------------------
    \6\ Resolution 28--May 2015
---------------------------------------------------------------------------
    The American Legion supports S. 1451.
            s. 1460: fry scholarship enhancement act of 2015
    To amend title 38, United States Code, to extend the Yellow Ribbon 
G.I. Education Enhancement Program to cover recipients of the Marine 
Gunnery Sergeant John David Fry scholarship, and for other purposes.
    S. 1460 would expand the Yellow Ribbon G.I. Education Enhancement 
Program (public-private contributions for educational assistance in 
addition to post-9/11 educational assistance) to the child of an 
individual who, on, or after September 11, 2001, dies in the line of 
duty while serving on active duty.
    The American Legion currently has no position on S. 1460.
  s. 1693: veterans emergency health safety net expansion act of 2015
    A bill to expand eligibility for reimbursement for emergency 
medical treatment to certain veterans that were unable to receive care 
from the Department of Veterans Affairs in the 24-month period 
preceding the furnishing of such emergency treatment, and for other 
purposes.
    Under current law, Title 38, United States Code (U.S.C.) 1725 and 
1728 VA is permitted to make payment and reimbursement to a claimant 
for emergency treatment provided to service- connected and nonservice-
connected veterans with a timely filing limit for unauthorized 
inpatient or outpatient care claims (two years from the date of care 
for service-connected veterans and 90 days for nonservice-connected 
veterans). Several veterans have reported to The American Legion that 
delayed payments for emergency care treatments by the VA to non-VA 
providers have resulted in numerous credit issues for those veterans 
who received emergency care treatments.
    Veterans who have not been seen at the VA medical center in 24 
months have to pay out of pocket if they receive emergency medical 
treatment outside the VA healthcare system, and will not be reimbursed 
by the VA. Under this bill the burden of that cost would shift from the 
veteran to the VA. This legislation includes a provision that would 
prevent insurance companies from denying and/or limiting reimbursements 
to the VA for medical care rendered to veterans who have insurance on 
the basis that VA is not an in-network provider. According to VA, this 
provision is estimated to enable the VA to have the ability to collect 
an estimated $98 million in 2015, or $1.1 billion over 10 years, from 
insurers who would no longer be able to list VA hospitals as out-of-
network.\7\
---------------------------------------------------------------------------
    \7\ KSNT.com--June 12, 2014
---------------------------------------------------------------------------
    The American Legion believes VA should promptly pay non-VA 
providers for emergency care furnished; furthermore, VA should conduct 
outreach to veterans regarding the effect of delayed payments of claims 
for emergency medical care furnished by non-VA medical providers.\8\
---------------------------------------------------------------------------
    \8\ Resolution No. 100--Sept. 2015
---------------------------------------------------------------------------
    The American Legion supports S. 1693.
      s. 1856: department of veterans affairs equitable employee 
                       accountability act of 2015
    A bill to provide for suspension and removal of employees of the 
Department of Veterans Affairs for performance or misconduct that is a 
threat to public health or safety and to improve accountability of 
employees of the Department, and for other purposes.
    This legislation attempts to address the issues of accountability 
within the Department of Veterans Affairs. The lack of accountability 
has been a consistent problem dating back long before the health care 
access crisis came to the forefront in Phoenix last year. Even so, when 
manipulation of the scheduling system was brought to light, and it was 
apparent that the secret wait lists were in use in at least 70 percent 
of VA facilities examined, only one employee connected to the scandal 
has been fired, and for offenses unrelated to the wait time scandal.\9\ 
\10\
---------------------------------------------------------------------------
    \9\ Washington Times--June 9, 2014
    \10\ Arizona Central--December 23, 2014
---------------------------------------------------------------------------
    Secretary Bob McDonald has publically commented on the Byzantine 
and arduous process, noting on 60 Minutes last year that ``[I] can't 
punish or fire a thousand people right now, [I'm] discovering how 
different the Capitol is from capitalism. To fire a government manager 
he has to put together a case and prove it to an administrative judge * 
* * . So we propose the action, the judge rules and the individual has 
a time to appeal. That's why we have a lot of people on administrative 
leave.'' \11\
---------------------------------------------------------------------------
    \11\ 60 Minutes--November 9, 2014
---------------------------------------------------------------------------
    This legislation proposes to make it easier to remove VA employees 
in certain circumstances, however in doing so may actually create more 
bureaucracy, rather than less needed to efficiently clean up the VA. 
It's staggering to think that VA currently does not have the authority 
to rapidly remove employees if:

    <bullet> Their supervisor has reasonable cause to believe the 
employee committed a crime that could lead to imprisonment
    <bullet> The employee is believed to be a threat to themselves or 
others
    <bullet> The employee is engaging in behavior that may result in 
loss or damage of government property

    Yet these are the provisions the legislation puts forward as 
criteria for expedited firing. These are provisions that should already 
be baseline, yet there are other actions outside immediate threat to 
physical health or crimes that should still lead to dismissal. Shunting 
a veteran to a secret wait list may not directly lead to physical harm, 
a lawyer for the employee certainly can tie up a firing with that 
argument, but that kind of culture that puts gaming the system above 
the veterans' best interests is exactly what all of the stakeholders 
are trying to fix.
    The American Legion does not support this legislation at this time, 
although we recognize the intent to attempt to improve accountability. 
The American Legion believes we will get more accountability with a 
more streamlined system to remove bad actors from the system, not by 
adding more layers of bureaucracy and conditions.
    The American Legion does not support this legislation.
               s. 1938: career ready student veterans act
    To amend title 38, United States Code, to improve the approval of 
certain programs of education for purposes of educational assistance 
provided by the Department of Veterans Affairs, and for other purposes.
    It is important to keep in mind that there are different types of 
accreditation, including institutional accreditation and program 
accreditation. Institutional accreditation is typically done by 
regional and national accreditation bodies. Programmatic accreditation 
is for specific programs offered within an educational institution. 
Programs are typically accredited by specialty organizations. An 
example would be the American Psychological Association (APA) and the 
American Bar Association (ABA) which are programmatic accreditation 
bodies, respectively.
    It is common for licensing and certification agencies to require 
institutional accreditation and/or program accreditation. In Virginia, 
for example, to be licensed as a clinical psychologist:

        The applicant shall hold a doctorate from a professional 
        psychology program in a regionally accredited university, which 
        was accredited by the APA within four years after the applicant 
        graduated from the program, or shall meet the requirements of 
        subsection B of this section.\12\
---------------------------------------------------------------------------
    \12\ LIS Virginia Law

    This does not make effective use of GI Bill benefits if an 
individual uses the benefit to prepare for a licensed or certification 
occupation, but the program does not meet licensure requirements. This 
would include the requirement that a program be accredited by a 
programmatic accrediting agency.
    The American Legion urges the requirement apply equally to 
institutions of higher education, as well as non-accredited schools. 
This always means the Congress should not exclude deemed approved 
degree programs, and ensure that State Approving Agencies (SAAs) can 
have adequate oversight of all institutions of higher learning.
    The American Legion also believes if this task should fall as a 
responsibility of the SAA, the proposed legislation should incorporate 
how the Department of Defense (DOD) determines program approval for 
usage of Tuition Assistance (TA). Questions remain as to if the 
legislation would only cover meeting the licensure or certification 
standards in the respective state where the institution is located. If 
that is the case, it is troubling for those veterans who do not plan to 
practice in the state where the school is located or individuals taking 
distance learning courses. The legislation should make clearer who will 
determine the requirements for these programs in all states.
    If the intent of the Congress is to add to the existing workload of 
the SAAs, which are already spread thin, then Congress should give 
great consideration and revaluation of the existing budget of the SAAs, 
to include increasing such budgets to ensure the SAA's are able to take 
on their current workload, as well as the possibility of this new add-
on. The American Legion believes there is validity in the underlying 
reason for the proposed legislation and supports S. 1938. However, we 
also believe there are a few items that need to be fleshed out.\13\
---------------------------------------------------------------------------
    \13\ Resolution No. 312--Aug. 2014
---------------------------------------------------------------------------
    The American Legion supports this legislation, with some revisions, 
and we look forward working with the Committee.
discussion draft: a bill to make improvements in the laws administered 
     by the secretary of veterans affairs relating to educational 
                   assistance, and for other purposes
    Section by section analysis:
Sec 1. Recodification and improvement of election process for Post-9/11 
        Educational Assistance Program
    Section 1 represents another administrative improvement to the 
processing of the Post-9/11 GI Bill. The American Legion is pleased to 
participate in and recognize ongoing efforts like this to improve the 
Department of Veterans Affairs' products, services and processes. The 
American Legion supports the Senate's efforts to streamline how VA 
approves initial claims for Post-9/11 GI Bill beneficiaries. Currently, 
claims processors must go through a time-intensive back-and-forth with 
potential student-veterans who accidentally revoke the wrong GI Bill 
benefit before they can properly enroll them in Chapter 33. This bill 
would allow VA to make a reasonable effort to contact the veteran to 
enroll them in the best education benefit that suits their needs. This 
section goes further in also adjusting how VA reimburses veterans 
eligible for the Montgomery GI Bill (Chapter 30) and who have paid into 
the benefit, but elect to use Chapter 33 instead. Currently, Chapter 
30-eligible veterans who elect to use Chapter 33 must wait until they 
have finished using their benefits before the VA can repay them for 
their Chapter 30 contribution. Under this law, the Chapter 30 
contribution would be prorated and added into living stipend payments 
while the veteran is enrolled in Chapter 33. The American Legion 
supports this section of the discussion draft proposed legislation
Sec 2. Centralized reporting of veteran enrollment by certain groups, 
        districts, and consortiums of educational institutions
    This section amends veterans' educational assistance program 
reporting requirements under which enrolled veterans (or eligible 
persons) and educational institutions must report enrollment 
information to the Secretary of Veterans Affairs (VA). It requires 
individuals and educational institutions participating in the post-
Vietnam era and post-9/11 veterans' educational assistance programs to 
report to the Secretary such enrollment and any updates on interruption 
or termination of the education (thereby making the enrollment 
reporting requirements for the post-Vietnam and post-9/11 programs 
consistent with other veterans' educational programs).
    Finally, it defines ``educational institution'' to permit the 
inclusion of groups, districts, or consortiums of separately accredited 
educational institutions located in the same state that are organized 
in a manner facilitating the centralized reporting of enrollments. 
Increasing program consistency and streamlining reporting requirements 
are often desirable administrative improvements. In this case, for 
example, community college districts in a state that have multiple 
schools would be allowed to centralize their veterans' educational 
assistance program reporting information and submit only one report for 
the district as a whole rather than having to submit multiple reports 
for each school. The American Legion is pleased to participate in and 
recognize ongoing efforts like this to improve the Department of 
Veterans Affairs' products, services and processes. The American Legion 
supports this section of the discussion draft proposed legislation
Sec 3. Clarification of Assistance provided for certain programs of 
        education
    The American Legion supports measures to improve cost control in 
the case of a program of education at any institution of higher 
education (IHL) that enters into a contract or agreement with an entity 
to provide such a program of education to servicemember or veteran 
students using GI Bill. Some institutions of higher learning (IHL) have 
instituted extreme costs for certain programs as there are presently no 
caps in place for certain contracts between IHL's and third party 
providers. The American Legion agrees with the senate discussion draft 
legislation that cost control is needed and strongly supports this 
section of the discussion draft proposed legislation.
Sec 4. Provision of information regarding veteran entitlement to 
        educational assistance
    Allowing higher education institutions to access their respective 
student-veteran body education benefits in real time will allow for 
school certifying officials and institution to better provide academic 
and financial advising to those beneficiaries about other financial aid 
opportunities and programs available to them prior to the semester 
beginning. This section also falls in line with President Obama's 2012 
Executive Order, Establishing Principles of Excellence for Education 
Institutions Serving Servicemembers, Veterans, Spouses, and Other 
Family members, section 2(g), which states:

        ``Provide educational plans for all individuals using Federal 
        military and veterans educational benefits that detail how they 
        will fulfill all the requirements necessary to graduate and the 
        expected timeline of completion.''

    However, without this provision of the draft legislation, it is too 
difficult for higher education institutions and their staff to properly 
advise their respective GI Bill beneficiaries in this way, as well as 
ensure their success in higher education.
Sec 5. Role of State Approving Agencies
    While The American Legion applauds the expansion of the GI Bill 
applicability, we find it problematic that State Approving Agencies 
(SAAs) have been removed from a large portion of the approval process. 
SAAs focus explicitly on the GI Bill and serve to protect it, and, by 
extension, the veterans using it. They ensure that programs meet 
certain eligibility criteria, in order to see that the funds are not 
wasted, but are put to the best use possible. Their unique focus on how 
GI Bill funds are spent makes their mission distinct from all other 
oversight and approving bodies. Furthermore, as federally authorized 
arms of their respective state governments, SAAs are in a unique 
position to evaluate programs that are offered in their state, given 
their proximity. This arrangement also maintains the federalism 
required by the Constitution.
    Therefore, The American Legion supports the SAAs, and believes that 
they should have a role in reviewing, evaluating, and approving all 
educational and training programs for GI Bill use. While some may argue 
that the work that the SAAs do is redundant to the work of accrediting 
bodies, The American Legion believes that SAAs approval is, in fact, 
unique. This is because the charge of the SAAs is to specifically focus 
on protecting GI Bill funds. While traditional accreditation provided 
by Department of Education-recognized accrediting bodies does a 
significant portion of work toward ensuring quality programs, SAA 
approval should work in tandem with that accreditation, rather than the 
stark division that is represented in the current statute.
    However, under Pub. L. 111-377, SAAs lack the statutory authority 
to inspect many questionable programs that have sprung up since the 
passage of the Post-9/11 GI Bill at not-for-profit institutions. Given 
that the original mandate of the SAAs was to protect GI Bill funds from 
being squandered in unscrupulous programs, it seems reasonable that 
SAAs should be allowed to inspect all suspicious programs, even if they 
are housed in not-for-profit institutions. As such, The American Legion 
supports the portion of the legislative proposal submitted by NASAA 
that would statutorily make SAAs the primary approving body for all 
programs approved for GI Bill use. Programs may still be deemed 
approved, but at the discretion of the SAAs, not the VA secretary.
    As the author of the original G.I. Bill and one of the biggest 
driving forces behind the creation and implementation of the Post-9/11 
G.I. Bill, The American Legion has long been at the forefront of 
supporting and developing legislation that improves higher education 
benefits for servicemembers.\14\ This legislation helps to address some 
of the legitimate concerns about how some aspects of higher education 
funding for veterans are administered, and will improve the higher 
education process for all veterans.
---------------------------------------------------------------------------
    \14\ Resolution No. 312: Ensuring the Quality of Servicemember and 
Veteran Students' Education at Institutions of Higher Learning--Aug. 
2014
---------------------------------------------------------------------------
    The American Legion supports this draft legislation.
                               conclusion
    As always, The American Legion thanks this Committee for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization. For additional information regarding this 
testimony, please contact Mr. Warren J. Goldstein at The American 
Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bacdddd5d6dec9cedfd3d4fad6dfddd3d5d494d5c8dd94">[email&#160;protected]</a>

    Chairman Isakson. Thank you very much, and please pass on 
our regards to the new Commander and thank him for his service.
    Mr. Morosky.

     STATEMENT OF ALEKS MOROSKY, DEPUTY DIRECTOR, NATIONAL 
         LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS

    Mr. Morosky. Chairman Isakson, Ranking Member Blumenthal, 
and Members of the Committee, on behalf of the Veterans of 
Foreign Wars of the United States, I would like to thank you 
for the opportunity to testify on today's pending legislation.
    In the interest of time, I will comment briefly on each of 
the bills on the agenda. For VFW's complete testimony, I refer 
you to our written statement.
    The VFW strongly supports the Increasing the Department of 
Veterans Affairs Accountability to Veterans Act. We believe 
this bill will prevent Senior Executive Service (SES) employees 
who are under investigation for serious crimes from being able 
to retire with full benefits if they are subsequently found 
guilty. Veterans cannot understand why, and they should not 
have to accept that a VA executive can commit a crime and opt 
to retire without any consequence. We also support other 
sections of this bill which would reform the SES performance 
appraisal system and limit the amount of time SES employees may 
be placed on administrative leave.
    The VFW supports the Physician Ambassadors Helping Veterans 
Act, which seeks to streamline the VA credentialing process for 
volunteer physicians. We believe that the current VA policies 
that require volunteer doctors to go through a similar process 
as permanent employees is overly cumbersome and inhibits 
volunteerism. That said, we believe that placing a 60-day 
deadline on the VA to credential volunteer doctors is overly 
prescriptive. As such, we encourage the Committee to amend this 
bill to require VA to develop a more streamlined credentialing 
process for volunteer doctors.
    The VA does not support the Veterans Hearing Aid Access and 
Assistance Act, which would authorize VA to hire hearing aid 
specialists as full-time employees at Department facilities to 
provide hearing health services alongside audiologists and 
hearing health technicians. Although we appreciate the bill's 
intent to increase hearing aid health access, the VFW believes 
that VA has the ability to address that issue under its current 
hiring authority.
    The VFW supports the VA Emergency Medical Staffing 
Recruitment and Retention Act, which would grant VA medical 
staff the ability to have flexible working hours that best suit 
the demand for health care by the veterans they serve. We 
believe this bill will put VA on par with the rest of the 
health care industry.
    The VFW supports the Veterans' Survivors Processing Claims 
Automation Act, which would allow VA to pay benefits to 
veterans' survivors who have not filed formal claims, so long 
as there is sufficient evidence in the veteran's record to 
establish eligibility. We also believe, however, that the 
survivor should have the opportunity when providing 
notification of the veteran's death to submit necessary 
documents that may be contained in the record, such as the 
death certificate, also without the need to file a formal 
claim.
    The Fry Scholarship Enhancement Act of 2015 extends the 
Post-9/11 GI Bill Yellow Ribbon Program to cover recipients of 
the Fry Scholarship. The VFW strongly supports the bill, 
believing that in no instance should dependents of 
servicemembers who paid the ultimate sacrifice receive less 
than any other beneficiary.
    The VFW supports S. 1693, which would authorize VA to 
reimburse veterans for emergent care who were unable to receive 
care within a 24-month period. The current policy is 
particularly problematic for newly enrolled veterans, many of 
whom have not been afforded the opportunity to receive a single 
VA appointment due to appointment wait times. The VFW strongly 
believes that this should never prevent veterans from seeking 
emergent, possibly life-saving care that they may need.
    The Department of Veterans Affairs Equitable Employee 
Accountability Act provides many provisions aimed at improving 
accountability at VA. The VFW supports the vast majority of 
those provisions, but has concerns with its proposed employee 
suspension and removal process. The bill outlines a process for 
the suspension and removal of employees for performance or 
misconduct that is a threat to public health or safety. The VFW 
suggests that the reasons for removal be broadened to include 
gross mismanagement, gross waste of funds, and abuse of 
authority, in addition to clear and direct threat to public 
health and safety that are already covered by the bill. This 
would allow the Secretary to quickly remove an employee based 
not only on the harm they bring veterans, but also on the harm 
that they bring to other employees and to VA.
    While the VFW supports the provision for immediate removal 
of employees without pay, the remaining procedures for removal 
and the appeals process have considerable differences with H.R. 
1994, which the VFW already supports. Our membership insists 
that a prompt removal process be developed to give the 
Secretary broader authority to remove bad employees. The VFW 
looks forward to working with the Committee and finding common 
ground to remove bad actors from VA's workforce.
    Finally, the VFW supports a discussion draft which offers a 
variety of enhancements to the way the GI Bill benefits are 
processed. This bill strengthens the authority of State 
Approving Agencies, improves the information available to 
student veterans about their benefits, and makes a favorable 
adjustment in the way that veterans are reimbursed for Chapter 
30 contributions, among many other improvements. The VFW was 
one of the main proponents of the Post-9/11 GI Bill and we 
thank the Committee for its dedication in continuing to improve 
this critically important benefit.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions you or other Members of the Committee 
may have.
    [The prepared statement of Mr. Morosky follows:]
    Prepared Statement of Aleks Morosky, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on today's pending 
legislation.
      s. 290, the ``increasing the department of veterans affairs 
                accountability to veterans act of 2015''
    One of the greatest needs within the Department of Veterans Affairs 
(VA) is culture change. Like most places, VA employees work in an 
environment that rewarded specific outcomes based on specific 
performance standards. Unfortunately, over time, these outcomes became 
unattainable. But instead of evaluating why standards could no longer 
be met, VA leadership put pressure on employees to achieve the 
unattainable. This left employees with two options--be a poor performer 
or find a way to do the impossible. All too often, the doing the 
impossible was the wrong thing to do.
    Now VA is left with an employee-base that has been trained to 
believe that doing the wrong thing is right. To change this paradigm, 
VA needs the authority to take quick and decisive actions against those 
senior managers who perpetuate doing wrong and ensure they have proper 
training so they will be the leaders VA needs them to be. S. 290, takes 
steps to do both.
    Section 2 will allow the Secretary to reduce a Senior Executive 
Service (SES) retiree's annuity payment when the SES employee is found 
guilty of a felony, for the period of time the felony occurred. Simply 
put, if an SES employee is under investigation for that crime, and they 
choose to retire, VA will be able to reduce that employee's retirement 
annuity by the number of months or years that employee committed the 
crime.
    Veterans cannot understand and they should not have to accept that 
a VA executive can commit a crime and opt to retire without any 
consequence. The VFW supports Section 2.
    Section 3 redefines the SES performance appraisal system and 
ensures SES employees have quality training. Accountability goes much 
further than firing employees. Quality training and job performance 
evaluations provide employees with a clear understanding of their job 
expectations and how to best execute their duties, as well an annual 
opportunity to honestly review that performance. Section 3 limits the 
number of SES employees who can receive ``outstanding'' level to 10 
percent of employees and allows 20 percent to receive ``exceeds fully 
successful'' level evaluation. This will prevent the practice of making 
every employee outstanding; leaving the employee to believe there is no 
room for improvement. The second part of this section establishes a 
review of the current SES training program, ending with a report on any 
areas that need to be improved. The VFW supports Section 3.
    Section 4 limits the period of time VA can place an SES employee on 
administrative leave, but provides VA the ability to extend that period 
of time if they report to Congress why that employee's administrative 
leave lasts longer than 14 days. The VFW sees this provision as more of 
a congressional oversight role than a disciplinary tactic. Congress 
should know why executives are on extended administrative leave and 
what VA is doing to either bring that employee back to work or removed 
from service. The VFW supports Section 4 of this legislation.
       s. 563, the ``physician ambassadors helping veterans act''
    This legislation would streamline the process health care providers 
undergo when applying to volunteer at VA medical facilities. The VFW 
supports this legislation and would like to offer suggestions to 
strengthen it.
    VFW members and their families embrace the spirt of volunteerism. 
Every year, more than 10,000 VFW and Auxiliary members volunteer their 
time at VA facilities throughout the country. With their assistance and 
the support of more than 66,000 additional volunteers, VA is able to 
maintain vital programs that help veterans reintegrate back into 
civilian life, provide much needed aide and services to homeless 
veterans, organize recreational activities that improve patients' 
quality of life, and expand access to care for veterans. Unfortunately, 
the process volunteers are required to undergo is often cumbersome, 
especially for physicians who wish to volunteer their time at VA 
medical facilities. Such physicians must go through processes that were 
designed for health care providers being hired by VA medical 
facilities, to include the credentialing process.
    This legislation seeks to streamline that process by establishing 
at 60-day deadline for VA to complete the credentialing process for 
volunteer physicians. While the VFW supports expediting the approval 
process for volunteer physicians, we do not support establishing an 
arbitrary deadline for the VA credentialing process. While it may be 
grueling at times, the credentialing process serves to ensure the 
safety of those under VA's care and should not be unduly rushed. We 
also fear such a mandate would result in VA medical facilities 
prioritizing volunteer physicians over new hires in an effort to meet 
statutory requirements, further delaying VA's lengthy employment 
process. That is why we urge the Committee to amend this legislation 
and require VA to develop a new hiring process specifically tailored 
toward volunteer physicians. The new process must not impede a medical 
facility's ability to process applications for new hires. It should, 
however, reduce or eliminate requirements that may not be necessary for 
volunteer physicians, such as requiring a minimum of three references 
from previous employers.
    As the demand on the VA health care system continues to grow, 
opportunities for new volunteers will also grow. However, not all VA 
medical centers have staff dedicated to recruiting volunteers, 
developing volunteer assignments, and maintaining a program that 
formally recognizes volunteers for their contributions. That is why the 
VFW supports requiring each VA medical center to have at least one 
volunteer coordinator to establish a relationship with local 
organizations, recruit new volunteers, and serve as the initial point 
of contact for persons seeking to volunteer at VA medical facilities. 
However, volunteers must not be considered a solution to VA's staffing 
shortages. The VFW continues to believe that the only way VA can 
provide veterans the timely access to the care they have earned and 
deserve is by ensuring VA has the resources and tools necessary to 
maintain appropriate staffing levels at each VA medical facility. 
Volunteers are a vital force multiplier, but VA cannot rely on 
volunteers to meet the health care needs of our Nation's veterans.
     s. 564, the ``veterans hearing aid access and assistance act''
    This legislation would authorize VA to hire hearing aid specialists 
as full time employees at department facilities to provide hearing 
health services alongside audiologists and hearing health technicians. 
Hearing aid specialists would assume many responsibilities currently 
performed by technicians and audiologists. Although we appreciate this 
bill's intent to increase hearing health access and reduce wait times 
for hearing aids and repairs, the VFW believes that VA has the ability 
to address these issues under its current hiring authority.
    The VFW strongly believes that VA must improve timeliness in 
issuing and repairing hearing aids. A February 20, 2014, VA Office of 
Inspector General (VAOIG) report revealed that 30 percent of veterans 
were waiting longer than 30 days to receive new hearing aids, and 
repairs took an average of 17 to 24 days to complete, far exceeding 
VA's timeliness goal for those services. According to the report, the 
long wait times were attributed to a steadily increasing work load, 
which will likely continue to increase as the veteran population grows 
older. This problem is compounded by the fact that many audiology 
clinics are not fully staffed. Additionally, VAOIG found that the 
Denver Acquisition and Logistics Center, which performs major hearing 
aid repairs for VA medical centers nationwide, lacked an adequate 
tracking system for the devices it receives.
    However, adding a new class of provider whose scope of practice 
overlaps that of existing employees does not get to the root of the 
problem. To fully address these issues, VA must develop and 
periodically evaluate the staffing levels and scope of practice for 
audiologists, hearing health technicians and other health care 
professionals to ensure VA audiology clinics have the staff necessary 
to meet timeliness standards.
    s. 1450, the ``department of veterans affairs emergency medical 
                staffing recruitment and retention act''
    The VFW supports this legislation, which would grant VA medical 
facility staff the ability to have flexible working hours that best 
suit the demand for health care by the veterans they serve. In response 
to last year's access crisis, VA has made a full fledged effort to 
increase access for veterans who rely on the VA health care system for 
their health care needs. In the past year, VA has completed more than 
2.7 million additional appointments at VA medical facilities than 
previous years by expanding clinic hours, adopting best practices from 
the private sector, and increasing the number of health care employees 
by more than 12,000. Yet, VA continues to face numerous challenges in 
meeting the growing demand on its health care system.
    One of those challenges is the statutory 40-hour work week 
limitation for title 38 employees. While most health care providers 
work a traditional 40-hour work week, hospitalist and emergency room 
physicians often work irregular schedules to accommodate the need for 
continuity of efficient hospital care. The VFW supports efforts to 
eliminate this access barrier and improve VA's ability to recruit and 
retain high-quality hospitalist and emergency room physicians.
 s. 1451, the ``veterans' survivors claims processing automation act''
    The VFW supports the intent of this legislation, which would allow 
VA to pay benefits to veterans' survivors who have not filed formal 
claims, so long as there is sufficient evidence in the veteran's record 
to establish eligibility. Covered benefits would include Dependency and 
Indemnity Compensation (DIC), Death Pension, funeral expenses, and 
accrued benefits. This would allow expedited access to benefits for 
survivors, while also giving VA an additional tool to reduce the claims 
backlog by issuing decisions more quickly. Often, veterans' records 
already include the documents necessary to grant benefits to his or her 
survivors. Such documents may include DD Form 214, service-connected 
disability ratings, medical records, and household income information. 
The VFW believes that survivors should not be made to fill out 
unnecessary paperwork or resubmit evidence when adequate documentation 
is already on file. We do believe, however, that the survivor should 
also have the opportunity when providing notification of the veteran's 
death to submit necessary documents that may not be contained in the 
record, such as the death certificate, without the need to file a 
formal claim. Additionally, we believe that this legislation should 
require VA to issue a report on how many survivors are granted benefits 
under this authority, in order to ensure that it is properly utilized 
at all VA Regional Offices and Pension Management Centers.
        s. 1460, the ``fry scholarship enhancement act of 2015''
    The VFW supports this legislation, which extends the Post-9/11 GI 
Bill Yellow Ribbon Program to cover recipients of Marine Gunnery 
Sergeant John David Fry Scholarship.
    The Fry Scholarship is available to surviving children and 
surviving spouses of active duty members of the Armed Forces who died 
in the line of duty on or after September 11, 2001. The scholarship 
provides full tuition and fees paid directly to the school for all 
public school in-state students capped at a statutory maximum amount 
per academic year equal to the post-9/11 G.I. bill.
    Currently, dependents of living veterans who are eligible for 
Transfer of Entitlement under the Post-9/11 GI Bill may participate in 
the Yellow Ribbon Program, which covers additional costs for out-of-
state tuition or private colleges and universities. Recipients of the 
Fry Scholarship, however, are not eligible for the Yellow Ribbon 
Program. The VFW believes this must be corrected. In no instance should 
the dependents of those who made the ultimate sacrifice receive a 
lesser benefit than others.
s. 1693, to expand eligibility for reimbursement for emergency medical 
treatment to certain veterans that were unable to receive care from the 
  department of veterans affairs in the 24-month period preceding the 
                furnishing of such emergency treatment.
    The VFW supports this legislation which would authorize VA to 
reimburse veterans who were unable to receive VA care within a 24-month 
period for emergent non-VA care. The strict 24-month requirement is 
problematic for newly enrolled veterans, many of whom have not been 
afforded the opportunity to receive a VA appointment due to appointment 
wait times, despite their timely, good faith efforts to make 
appointments following their separation from military service.
    Currently, VA does not have the authority to reimburse veterans if 
they experience medical emergencies during such a waiting period. This 
barrier to access has caused undue hardship on veterans who are 
undergoing the difficult transition from military service back to 
civilian life and has resulted in veterans receiving unnecessarily 
large medical bills through no fault of their own. VA is aware of this 
problem and has requested the authority to make an exemption to the 24-
month requirement for veterans who find themselves in this situation. 
The VFW strongly supports this legislation and believes that long 
appointment wait times should never prevent veterans from seeking the 
emergent, possible life-saving, care they need.
   s. 1856, the ``department of veterans affairs equitable employee 
                      accountability act of 2015''
    This bill provides a long list of provisions aimed at improving 
accountability within VA. The VFW supports the vast majority of these 
provisions, but has concerns with its proposed employee suspension and 
removal process.
    Section 2 of the bill would amend Chapter 7 of title 38 by 
including a new paragraph that outlines the suspension and removal of 
employees for performance or misconduct that is a threat to public 
health or safety. While it is critically important to ensure the safety 
and health of veterans, the narrow definition of performance or 
misconduct this provision provides would be limited to health care 
providers and only in cases when negligent care is involved. This 
leaves out a vast majority of employees and situations when removal 
should take place.
    The VFW suggests that reasons for removal be broadened to include 
gross mismanagement, gross waste of funds, abuse of authority, as well 
as the clear and direct threat to public health and safety that are 
current in the legislation. This will allow the Secretary to quickly 
remove an employee based not only on the harm they bring to veterans 
but also the harm they bring to other employees and VA.
    While the VFW supports your proposal for immediate removal of 
employees without pay, the remaining procedures for removal and appeal 
process have considerable differences with H.R. 1994, which the VFW 
supports. Our membership insists that a prompt removal process be 
developed to give the Secretary broader authority to remove bad 
employees. The VFW looks forward to working with both parties to find 
common ground and a final solution to removing bad actors from VA's 
workforce.
    The VFW supports the remaining sections of this bill, as they 
provide clearer guidelines on evaluating job performance and personnel 
actions, improve management training, provide promotion opportunities 
for technical careers and improve medical oversight, among other 
provisions. Each of these will improve overall accountability and 
sustainability of a quality workforce.
           s. 1938, the ``career-ready student veterans act''
    The VFW supports this legislation to ensure that education programs 
in fields that require licenses and credentials offer the proper 
programmatic accreditation necessary for employment in each state as a 
condition of GI Bill approval.
    Some schools offer degrees that do not provide graduates the needed 
credentials to qualify for certain professions. Worse yet, many of 
these schools offer prospective students unclear information about 
programmatic accreditation and the requirements for professional 
certification. Some schools use terms like ``fully accredited,'' which 
in theory may be true for the institution, but in reality do not offer 
the programmatic accreditation needed to secure employment. 
Unfortunately, student-veterans often fall prey to misleading 
recruiting sales tactics. We believe that student veterans need to be 
given the resources to be informed shoppers when deciding how best to 
use their education benefits.
                            discussion draft
    The VFW supports this draft bill, which offers a variety of 
enhancements to the way GI Bill benefits are processed.
    Section 1 would streamline how VA approves initial claims for Post-
9/11 GI Bill (Chapter 33) beneficiaries. Although improvements have 
been made in recent years, we remain concerned that it still takes too 
long to approve initial claims, due to outdated business practices. 
Currently, claims processors must go through a time intensive back and 
forth with potential student-veterans who accidentally revoke the wrong 
GI Bill benefit before they can properly enroll them in Chapter 33. 
This bill would allow VA to make a reasonable effort to contact the 
veteran to enroll them in the most advantageous benefit.
    The section also adjusts how VA reimburses veterans eligible for 
the Montgomery GI Bill (Chapter 30) and who have paid into the benefit, 
but elect to use Chapter 33 instead. Currently, Chapter 30-eligible 
veterans who elect to use Chapter 33 must wait until they have finished 
using their benefits before VA can repay them for their Chapter 30 
contribution. Under this legislation, the Chapter 30 contribution would 
be prorated and added into living stipend payments while veterans are 
enrolled in Chapter 33, granting them a faster system of reimbursement 
while they are still in school and need it most. The VFW fully supports 
this section.
    Section 2 would allow educational institutions to report 
enrollments to VA as groups, districts or consortiums. The VFW supports 
this, believing it will bring consistency across the different chapters 
of GI Bill benefits, making it easier for VA to determine beneficiary 
status and track student-veterans as they seek to accomplish their 
academic goals.
    Section 3 places a cap on the amount of tuition and fees that may 
be paid under the Post-9/11 GI Bill for programs of education in which 
a public institution of higher learning enters into an agreement with 
another entity to provide such education. The cap would be set at the 
same amount allowable for private and foreign institutions of higher 
learning.
    Currently, third party training programs that contract with public 
schools are able to charge unlimited fees since public schools have no 
set dollar amount cap. The law states only that the Post-9/11 GI Bill 
covers the actual cost of in-state tuition and fees. Last year, it came 
to light that some contracted flight training programs were charging 
exorbitant fees, which far exceeded the cost of an average in-state 
education. The VFW believes this is a loophole that must be closed by 
placing reasonable caps on these sorts of training programs.
    Still, we believe that veterans should have a path to receive the 
training necessary to enter highly technical, high demand fields like 
aviation, which offer good paying jobs to those who are qualified. We 
also recognize that it may not be realistic for certain flight schools 
to provide that training within a $21,235.02 cap per academic year. For 
this reason, we encourage the Committee to further examine this issue 
in order to determine what reasonable caps might be for flight training 
and similarly contracted training in other high demand fields, so that 
veterans can continue to have access to these kinds of programs, but 
that such programs offer transparency in their fee schedules and cannot 
simply charge the government an arbitrary rate. This is why the VFW 
also continues to support strict enforcement of standing VA policies, 
like the 85/15 rule, which ensures that third party contractors and 
their partner schools are charging appropriate fees, while continuing 
to offer high quality training to veterans.
    The VFW supports section 4, which would require VA to make 
available to institutions of higher learning, by secure internet Web 
site, information on the amount of education benefits each student-
veteran has remaining. This will allow schools to provide better 
counseling to veterans on how best to maximize their remaining benefits 
to achieve their academic goals.
    Section 5 would codify the authority of State Approving Agencies 
(SAAs) to inspect and approve non-college degree (NCD) programs at not-
for-profit institutions of higher learning to validate their quality. 
This is an authority previously held by SAAs, but rescinded by the 
Post-9/11 Veterans Educational Assistance Improvements Act of 2010. As 
a result, some not-for-profit schools developed NCD programs of 
questionable value. Although the VA Office of Economic Opportunity 
issued guidance allowing the SAAs to inspect NCD programs in subsequent 
years, the VFW still believes that this policy should be strengthened 
by statute.
    Section 6 would require VA to apply the same reasonable criteria 
standard when approving education programs across all types of 
institutions of higher learning: public, private, and proprietary for-
profit. The VFW believes this is equitable and supports this section.
    Section 7 makes changes to the way VA and the SAAs must conduct 
compliance surveys every year. Under current law, VA must conduct 
compliance surveys annually on all facilities reporting at least 300 
enrolled GI Bill recipients. The VFW believes that this is an 
impossible mission, which will cause some smaller schools to go years 
without a compliance survey, as VA and the SAAs struggle to satisfy the 
requirement to survey schools with large veteran populations. Such a 
requirement can hinder both VA's and the SAAs' response to at-risk 
programs that may enroll far fewer veterans, while wasting significant 
time and resources inspecting perennial top performers who happen to 
have large student veteran populations. This section would correct that 
problem by requiring that compliance surveys be conducted once every 
two years at each educational institution or training establishment 
that enrolls at least 20 GI Bill recipients.

    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any questions you or the Committee members may have.

    Chairman Isakson. Thank you very much.
    Professor Kettl.

   STATEMENT OF DONALD F. KETTL, PROFESSOR, SCHOOL OF PUBLIC 
                 POLICY, UNIVERSITY OF MARYLAND

    Prof. Kettl. Mr. Chair and Ranking Member Blumenthal and 
Members of the Committee, I want to thank you very much not 
only for the opportunity to testify here today, but more 
importantly, for your sustained and careful attention to the 
need to try to provide for our veterans the care and benefits 
they have so richly deserve and for which they have worked and 
sacrificed so much.
    I want to speak in particular in favor of S. 1856, but 
before doing that, I want to talk about the broad problems of 
performance that the VA must--absolutely has to try to find 
ways of resolving, trying to find ways, in particular, of 
improving the accountability and performance of the Department 
of Veterans Affairs. We have talked a lot already today and 
have talked more broadly about the issue of trying to improve 
accountability and performance by making it easier to fire 
employees and to increase accountability; we surely want to be 
able to remove people who have performed poorly.
    But, the question is, how much of the problem would we 
solve if, in fact, we did that? My own guess is that would be 
somewhere in the neighborhood of 5 percent, perhaps, of the 
VA's problems. But suppose even that it was as high as 50 
percent, ten times higher than what my best guess would be. 
What are we going to do to solve the other 50 percent of the 
performance and accountability problems that the VA faces?
    The lesson from the best managed private companies is that 
you cannot fire your way to success and that success and 
performance really must build on other strategies that try to 
build the people power inside organizations to deliver results, 
and I want to look at five things in particular that are 
important about that.
    The first is the question of inadequate resources. It is 
clear from testimony that we have heard already that the VA in 
too many places is simply short-staffed. There are 41,500 staff 
vacancies as of June of this year, including 5,000 physicians 
and 12,000 nurses. In some cases, vacancy rates are as high as 
20 percent. It it clear that the VA is not going to be able to 
perform better unless it has the staff in place to be able to 
do so.
    And that gets into the second topic, which the Chair, 
Senator Isakson, mentioned just a little while ago, the 
importance of vacancies in key areas. Twenty-five percent of 
the medical director positions in VA facilities are vacant. 
Among the vacancy rate leaders are the Department's Veterans 
Integrated Service Networks, which are responsible for 
coordinating care; the vacancy rate is 43 percent. Those simply 
are much too high, so we have to fill those positions if we 
expect to be able to solve the problems.
    The third point is that it is very clear that these 
vacancies hurt the Department's performance. It is not 
surprising that I have data in my testimony that show across 
the board for those units of the VA that are operating under an 
acting or vacant manager, that the level of performance by 
employees and the level of employee morale is substantially 
lower than it is when there is a manager--not surprising, 
because, in fact, the VA's own surveys demonstrate that.
    On top of that, it is also clear that the more morale in 
the VA suffers, the more the staff members within the VA feel 
under attack, the higher the level of vacancies are likely to 
be. The Partnership for the Public Services Best Places to Work 
in the Federal Government has surveyed Federal agencies and 
according to the survey, it turns out that both the lowest 
level of employee satisfaction and the biggest drop in 
satisfaction in 2014 were: the lowest was the Department of 
Homeland Security; next after that is the Department of 
Veterans Affairs. So, it is unlikely we are ever going to be 
able to solve the problem of performance unless we can find a 
way to try to improve employee morale.
    I come now to the fifth point that I want to talk about, 
which is the rate at which the VA actually fires employees. If 
you look carefully at data for the Office of Personnel 
Management, which I included in my testimony, it turns out that 
layoffs and discharges in the private sector amount on an 
annual basis to about 1.1 percent of the workforce. In the 
Federal Government overall, it is about 0.4 percent. That is 
substantially lower. But in the VA, it is more than 1.5 times 
higher than it is in the rest of the Federal Government, 
approaching the levels of what it is in the private sector.
    So, it is not clear not only that increasing the rate of 
firing would solve the problems of performance in VA, because 
there are many other problems that we have to solve, but more 
fundamentally, it is not clear that the rates of firing in the 
VA are substantially out of line with what is the case in the 
private sector, according to the Federal Government's own 
statistics.
    So, what we need to do is to focus much more on solving the 
real underlying problems, and that is why I am here today in 
support of S. 1856. It would hold the Department's top managers 
more accountable. It develops stronger performance rubrics and 
measures to try to ensure that managers are held accountable. 
It would require managers to make an affirmative decision at 
the end of the probationary period of employees to retain them. 
But, most importantly, it would also create a strong employee 
development system within the Department to try to ensure that 
the best managers which we need for the future are managers 
that we cultivate now.
    There are important human capital strategies that the VA 
needs to focus on much more carefully. In particular, since the 
VA has now been placed on the High-Risk List of the Federal 
programs most prone to waste, fraud, abuse, and mismanagement 
by the GAO, it is an opportunity for this Committee, in 
particular, to conduct intensive oversight to ask the top VA 
officials about what the VA plans to do to remove itself from 
that list.
    Our Nation's veterans have given so much to this country 
and the country has made promises to them. It is a sacred 
obligation to make good on those promises and it is going to 
require improved management, especially better management of 
the people within the VA, to make good on the promises that our 
Nation has made.
    Thanks very much to the Members of the Committee and I look 
forward to answering any questions that you might have.
    [The prepared statement of Prof. Kettl follows:]
  Prepared Statement of Donald F. Kettl, Professor, School of Public 
                     Policy, University of Maryland
    Let me thank the Committee for the opportunity to testify today on 
the important issues facing our Nation's veterans and the care they're 
earned from the Department of Veterans Affairs. It is always a great 
privilege to speak before a congressional committee. It is an even 
greater privilege to speak about such an important issue.
    I am Donald F. Kettl, a professor at the University of Maryland 
School of Public Policy. I have devoted my professional career over the 
last 40 years to exploring how best we can ensure that government 
serves our people. I have written and researched extensively on issues 
of public management. I have consulted broadly for government agencies 
in the United States and abroad, and I have chaired two blue-ribbon 
commissions in Wisconsin. I want to draw on that experience today to 
explore how we can best serve the Nation's veterans.
    In my testimony before you today, I want to speak in support of S, 
1856, ``The Department of Veterans Affairs Equitable Employee 
Accountability Act.'' It provides a strong and sensible strategy for 
solving many of the VA's most important problems. Before speaking 
directly to the act's provisions, however, let me first talk about the 
broad problems of performance that the VA faces.
    There is one thing on which we can all agree: The Department of 
Veterans Affairs is not now performing at the level that we--the Nation 
and its veterans--expect. As the Government Accountability Office has 
repeatedly documented, the VA's health care system is struggling to 
deliver timely, high-quality, cost-effective health care. Those 
problems, in fact, have put the VA's health care system on the GAO's 
list of 32 high-risk programs especially prone to fraud, waste, abuse, 
and mismanagement.\1\ The problems are large. They must be solved.
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office, High-Risk Series: An 
Update, GAO 15-290 (February 2015), at https://docs.google.com/
viewer?url=http%3A%2F%2Fwww.gao.gov%2Fassets% 2F670%2F668415.pdf
---------------------------------------------------------------------------
    Some reform proposals have focused squarely on the VA's managers, 
both at the highest levels and at the department's middle levels. These 
proposals have begun with a singular diagnosis of the problem--that the 
VA is troubled by the poor performance of these managers--and a 
singular solution to the problem--that Congress must make it easier for 
the department to fire poor-performing managers and that Congress 
should then pressure the Department to ensure that this happens. The 
department has certainly been troubled by serious management problems, 
and poor performing managers certainly should be fired. More broadly, 
the Nation's human capital system, for both political appointees and 
civil service, has fallen out of sync with the challenges it faces, and 
the system needs fundamental reform.
    Before examining the legislation pending before this Committee, we 
need to step back and ask three questions. First, how many of the VA's 
problems would be solved by making it easier to fire poor-performing 
managers? Second, would proposals focusing solely on making it easier 
to fire these managers actually help? Third, what other steps can we 
take to improve care for veterans.
                    understanding the va's problems
    No one knows for sure just how many of the department's problems 
flow from the difficulty in firing poorly performing managers. My best 
guess is that it is probably about 5 percent. But suppose it's far, far 
higher--higher, in fact than I believe anyone realistically supposes. 
Let's assume that the problem of firing poor performers is as high as 
50 percent of the problem.
    Can we fire our way to success in solving any of the VA's issues? 
And, even if we could, what should we do to solve the other 50 percent 
of the problem? The answer to this question requires working through a 
series of puzzles.
    1. Inadequate resources. In part, the VA's problems flow in part 
from not enough resources, in both money and people. A July 23, 2015 
report in USAToday, based on a Freedom of Information Act request, 
showed that the VA had 41,500 staff vacancies in June of this year, 
including 5,000 physicians, almost 12,000 nurses, and more than 1,200 
psychologists. In some locations, one of five positions was vacant.\2\ 
The VA can't provide the care that veterans deserve if it doesn't have 
the resources to do so. Part of the answer requires providing the VA 
with more money, but many Members of Congress are understandably 
reluctant to do so without assurance that the money will be spent well.
---------------------------------------------------------------------------
    \2\ Meghan Hoyer and Gregg Zoroya, ``VA has 41,500 unfilled medical 
jobs, forcing vets into costly private care,'' USAToday (July 23, 
2015), at http://www.usatoday.com/story/news/nation/2015/07/23/va-has-
41500-unfilled-medical-jobs-forcing-vets-into-costly-private-care/
30504525/
---------------------------------------------------------------------------
    2. Critical management vacancies. In addition to problems in 
providing sufficient staffing for front-line care, the VA has been 
struggling to recruit managers. As Chairman Johnny Isakson pointed out 
in a July 23, 2015 letter to VA Secretary Robert McDonald, the 
department has a vacancy rate of 25 percent among its medical 
directors. Among the leaders of the department's Veterans Integrated 
Service Networks, which are responsible for coordinating the care for 
veterans, the vacancy rate is 43 percent.\3\
---------------------------------------------------------------------------
    \3\ Sen. Johnny Isakson to Secretary Robert McDonald (July 23, 
2015), at http://www.veterans.senate.gov/newsroom/majority-news/
isakson-to-va-secretary-fill-vacant-va-leadership-positions-now
---------------------------------------------------------------------------
    3. Vacancies hurt the department's performance. These vacancies 
have created severe problems for managing the turnaround that the VA 
needs. As the department's Undersecretary for Health, David Shulkin, 
has pointed out, ``How can you possibly make the changes that we are 
doing unless you have the right leadership in place?'' \4\ Moreover, 
vacancies badly hurt employee performance and morale. In the VA's All 
Employee Survey, facilities with a vacancy in the director position in 
FY 2015 had lower scores across all survey questions.
---------------------------------------------------------------------------
    \4\ Scott Maucione, ``VA's top health official's five ways to 
transform access to health care,'' FederalNewsRadio.com (September 4, 
2015).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
Source: Department of Veterans Affairs, 2014 All Employee Survey (AES).

    This evidence makes clear that vacancies in key VA senior 
management positions hurt the department's performance.
    4. A focus on increasing the firing of senior managers increases 
the number of vacancies. Firm survey evidence is hard to come by, but 
the accumulated analysis of reporters for the media and anecdotal 
evidence from the field makes one thing clear: VA employees feel under 
assault, and that is vastly complicating the challenge of filling 
critical vacancies throughout the department. The Partnership for 
Public Service's ``best places to work in the Federal Government'' 
shows that the VA is second-lowest in employee satisfaction and had the 
second biggest drop in satisfaction in 2104, in both cases after the 
Department of Homeland Security.\5\ It's one of the most troubled 
departments in the Federal Government, and continued attacks on the 
department aren't making it any better.
---------------------------------------------------------------------------
    \5\ Partnership for Public Service, ``Best Places to Work Agency 
Rankings'' (2015), at http://bestplacestowork.org/BPTW/rankings/
overall/large
---------------------------------------------------------------------------
    In fact, the Office of Personnel Management's 2014 Federal Employee 
Values Survey shows that the VA is among the Federal Government's most 
troubled departments. Its employee engagement score is low. The fact 
that it has so many employees only multiplies the problem.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: Department of Veterans Affairs, based on 2013 Office of 
        Personnel Management Federal Employees Viewpoint Survey.

    Secretary McDonald has pointed out that the attacks on the 
department are making it harder to hire. He has said, ``We can't hire 
the people [we need] when Members of Congress are going to somehow 
differentiate the VA versus other departments in government. That 
doesn't cause people in government to want to work for the VA.'' \6\
---------------------------------------------------------------------------
    \6\ Quil Lawrence, ``Some Veterans Affairs Reforms Undermine 
Medical Recruitment Efforts,'' NPR.com (August 31, 2015), at http://
www.npr.org/2015/08/31/436377436/some-veterans-affairs-reforms-
undermine-medical-recruitment-efforts
---------------------------------------------------------------------------
    5. The rate at which the VA fires employees for cause is already 
above the Federal average. The underlying assumption of many debates 
about the VA is that poor performers are allowed to continue in their 
positions. There is a question about whether we ought to adjust the 
balance of employee rights and managerial flexibility. But a careful 
look at the rate at which the VA terminates employees for disciplinary 
or performance reasons shows that it terminates employees at a rate 
more than one and a half times the Federal Government's average.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Source: Office of Personnel Management, FedScope.

    The question is often raised--rightly--about whether government 
jobs in general enjoy more employment security than in the private 
sector. In July 2015, for example, the Bureau of Labor Statistics found 
that layoffs and discharges in the public sector occurred at a rate of 
0.4 percent of the workforce, compared with 1.1 percent of the 
workforce in the private sector. However, the public and private 
comparisons include both termination for cause and layoffs for 
strategic and economics reasons; the BLS data do not separate them. The 
private sector has a higher rate of layoffs because the nature of its 
functions and business models are more variable.
    It seems very likely, therefore, that public employees are 
terminated for cause at a lower rate than in the private sector, but 
the gap is smaller than is often believed. Moreover, since termination 
for disciplinary or performance reasons is higher in the VA than 
throughout the rest of government--0.75 percent of VA employees in 
2014--it is likely that the gap between termination for cause in the VA 
compared with the private sector is not as large as usually assumed.
    What does this mean? The VA is in trouble, but a singular focus on 
firing bad performers:

    <bullet> Won't help the department hire the managers it needs.
    <bullet> Will further damage the department's performance.
    <bullet> Won't deal with most of the department's biggest problems, 
which lie beyond the performance of some poor department managers.
                          steps to real reform
    The firing process unquestionably needs to be improved. There's no 
place in the Federal Government for bad managers and bad management. 
But:

    <bullet> We need to find the right balance between firing poor 
performers, and other disciplinary actions, on the one hand, and 
providing the protections that employees need to prevent political 
interference in their work, on the other. The Nation's civil service 
original civil service act was the product of a partnership between a 
Democratic Senator, George Pendleton (Ohio), and a Republican 
President, Chester Arthur (New York). It's evolved since through 
bipartisan support of both parties.
    <bullet> We need to find the right balance between these 
disciplinary actions and the fundamental talent management requirements 
of the Nation's veterans care system.
    <bullet> We need to find the right balance between these talent 
management needs and the mission of serving the Nation's veterans.
    <bullet> We can't expect to solve any of these problems by dealing 
with the VA in isolation, especially in changing the balance on any of 
these issues.
        legislative recommendations for improving veterans care
    Let me explore the two principal pieces of legislation now before 
the Committee.

    S. 290. The ``Increasing the Department of Veterans Affairs 
Accountability to Veterans Act of 2015,'' S. 290, would take steps to 
impose greater penalties on poor-performing employees, toughen the 
standards for employee performance ratings, mandate the reassignment of 
Senior Executive Service employees every five years, and restrict the 
Secretary's ability to place employees on administrative leave.
    On a broad level, placing restrictions on employee benefits for 
those convicted of a felony makes sense. We need improvements in the 
employee rating system, although mandated distribution of ratings 
rarely works well. The SES originally anticipated that the Federal 
Government would create a corps of senior executives who would move 
among Federal managerial assignments. However, mandating reassignment 
within the VA without fixing the SES's broader issues would surely not 
prove effective. Finally, no one wants employees to be placed on 
administrative leave any longer than necessary, but due-process 
standards need to dictate the length of an administrative leave, not an 
arbitrary period.
    More fundamentally, S. 290 does not deal with the fundamental 
issues facing the VA, and it would not get at the core problems that 
must be solved if we are to serve our veterans well.

    S. 1856. The ``Department of Veterans Affairs Equitable Employee 
Accountability Act,'' S. 1856, would significantly advance the Nation's 
efforts to strengthen health care for its veterans. In particular:

    <bullet> It provides the Secretary with greater power to suspend 
without pay and remove an employee found to behave in ways that do not 
serve the needs of veterans. More managerial flexibility is clearly a 
good step.
    <bullet> It establishes reasonable procedures to ensure that 
employees suspected of posing such a threat are provided with due 
process, in the best bipartisan traditions of the Nation's civil 
service policies.
    <bullet> It clearly holds the department's top officials 
accountable for the department's management. In particular, it focuses 
on the importance of recruiting employees, motivating them, training 
them for their roles, and holding them accountable. The VA is a people-
based business. Better people policies are essential to better 
performance. Key managers need to be subject to an annual performance 
plan that provides a game plan for effective management.
    <bullet> It focuses the performance plan for managers squarely on 
the department's human capital needs. It cannot fulfill its mission 
without planning for the people it needs, recruiting them, training 
them, retaining them, and developing them for future leadership 
advances. Every great private company follows these steps. The nation 
owes its veterans nothing less.
    <bullet> It requires managers to make an affirmative decision to 
keep employees at the end of the probationary period. Too often, it's 
been easy for low-performing employees to slip through to permanent 
status. A government position ought to be earned through demonstrated 
successful performance. It is the responsibility of the manager to 
review each employee during the probationary period to ensure that the 
employee's work rises to that level--and to conduct regular reviews and 
to provide career help afterwards to ensure that the employee's 
contributions continue to advance.
    <bullet> It puts training at the center of the VA's career 
development work. The most essential component is helping employees 
learn how best to motivate, manage, and lead. We are now not only 
trying to solve the serious problems that plague the department today. 
We are also building the foundation on which its future service to 
veterans depends. The only effective way to avoid future crises is to 
build--now--for the capacity the department will need tomorrow.
    <bullet> It provides a separate promotional track for technical 
experts outside of the management track. As the Nation's largest health 
care system, the VA will need.
    <bullet> It engages the department directly with the GAO. That is a 
valuable step in improving the department's performance.
         oversight recommendations for improving veterans care
    In addition, the Committee could significantly improve its 
oversight of the department's care for veterans through its oversight 
functions. A regular, sustained strategy for reviewing the following 
issues would prove especially effective, through the Committee's 
hearings and through the staff's field investigations:

    <bullet> Removal and due process. Reviewing the balance between 
efforts to identify, suspend, and remove employees who have shown 
themselves unworthy of the public trust, on the one hand; and the due-
process protections afforded them under the law and Constitution, on 
the other. In the United States, there's always been a balance between 
sanctions and due process. The VA is at the frontier of an important 
effort to re-set this balance. That is an important effort, and the 
Committee could support that effort through its oversight.
    <bullet> Accountability. Solving the department's problems will 
require developing a performance plan for the department and ensuring 
that its managers understand their own contributions to the 
department's performance. The Committee could advance this effort 
through regular oversight of the department's overall performance plan, 
as well as its efforts to bring managers' work into alignment with this 
plan.
    <bullet> Human capital. The VA's success will ultimately depend on 
planning for the employees it needs, recruiting them, hiring them, 
training them, retaining them, and developing them. The Committee could 
advance this effort through oversight of the department's strategic 
human capital management.
    <bullet> High-risk progress. In 2015, GAO placed the VA's health 
care programs on its high-risk list of programs most prone to fraud, 
waste, abuse, and mismanagement. GAO has identified core problems in 
the department's management; improving care for veterans will require 
solving these problems. The Committee could advance the department's 
performance through regular oversight of the department's plan for 
getting off the high-risk list and of the progress in can demonstrate 
in doing so. In particular, it would be useful to ask the department's 
senior managers to testify, on a regular basis, about the steps they 
are taking to develop a plan for improving the department's performance 
and how they will close the gap with the best-performing departments 
and agencies in the Federal Government.

    Our Nation's veterans have given so much to the country. The 
country has made promises to them, and it is a sacred obligation to 
make good on those promises. Nothing could be a more fundamental 
measure of the greatness of our Nation. The VA's problems now are 
significant, but they are eminently solvable. Through its work, this 
Committee has the potential to help the department make the big steps 
that are needed.

    Chairman Isakson. Professor, you are a gem. [Laughter.]
    I hope everybody, particularly the VA folks that are here 
today, paid close attention to your testimony, particularly the 
references to the temporary nature of so many appointees in 
responsibility, acting appointees, vacancies that are there, 
and the fact that the VA has really suffered from a cultural 
depravity, if you will, within its own organization of a bad 
attitude that has kind of perpetuated itself.
    I say that to say this. I personally think Secretary 
McDonald is making a Herculean effort to change that culture. A 
lot of the things that we see that are negative about the VA 
today are historical references to something that happened two, 
three, four, five, six, seven, eight, 10 years ago. I know that 
the Secretary is trying to motivate upper management and 
leadership and to enter into training to try to really change 
the whole paradigm at the VA. I think he is moving in the right 
direction, but I am going to make sure he reads your testimony 
because I have never heard it said better.
    Prof. Kettl. Well, thank you, Senator. I appreciate that. I 
think there is an incredibly unusual opportunity here with the 
strong support of this Committee, with the commitment of the 
Secretary, and with the opportunity that is presented by having 
the VA being placed on the High-Risk List from GAO, which means 
there are specific items for action that GAO has identified and 
analytical horsepower that comes from the GAO to be able to do 
that, which creates, in that conversation, opportunities to lay 
out a strategic plan for the Nation's future, for the VA's 
future, to be able to solve these problems. There is tremendous 
opportunity here in the way that all these forces are coming 
together.
    Chairman Isakson. Well, your testimony added a lot to this 
meeting and I am going to make sure the Secretary and Deputy 
Secretary Gibson get it. I appreciate very much your insight. 
You are right on target.
    Mr. Wescott, the members of your organization, are those 
people like SACS, Southern Association of Colleges and Schools; 
or what is your membership made up of?
    Mr. Wescott. Our membership is made up, Mr. Chairman, of 
the State Approving Agencies. There is a State Approving Agency 
generally set up by a Governor in each State and we are 
responsible for approving programs so that a veteran can enroll 
in that program and use his GI Bill benefits, so----
    Chairman Isakson. This is just for veterans programs?
    Mr. Wescott. That is correct, sir.
    Chairman Isakson. OK. You knew Pete Wheeler, I guess, from 
Georgia.
    Mr. Wescott. I know of him, sir, yes.
    Chairman Isakson. Unfortunately, he just passed away a 
couple of months ago, but served 63 years as Veterans 
Commissioner in Georgia and did an outstanding job.
    Mr. Wescott. Indeed.
    Chairman Isakson. A great guy.
    Mr. Wescott. Yes. Yes. I did meet him.
    Chairman Isakson. On your testimony on Section 3--and this 
is not a trick question by any stretch of the imagination, but 
you were supportive of Section 3 in this discussion draft the 
way it is written?
    Mr. Wescott. Yes, indeed, sir, we are.
    Chairman Isakson. And prior to 9/11/2001, flight training 
schools available for GI benefits were capped at $21,085 
maximum benefit per year, is that correct?
    Mr. Wescott. Prior to----
    Chairman Isakson. Somebody is shaking their head back there 
behind you, but----
    Mr. Wescott. Prior to 9/11, the cap for the private flight 
training was $10,000, so----
    Chairman Isakson. OK.
    Mr. Wescott. And I think that cap has been adjusted for 
inflation today until it is somewhere a little over $12,000. 
And that is for private stand-alone flight schools.
    Chairman Isakson. Did a private school have to affiliate 
with an institution of higher learning that was public?
    Mr. Wescott. No, sir, they did not.
    Chairman Isakson. That was a new add-on with the new GI 
Bill, is that right?
    Mr. Wescott. Yes. What happened with the new GI Bill, and 
then also Public Law 111-377, was that IHL programs, degree 
programs within those institutions, were declared to be deemed 
approved. So, there was not as close oversight by the SAAs over 
those deemed approved degree programs. Then, some flight 
institutions and IHLs came together to provide that training 
because, as opposed to the individual private stand-alone 
flight schools, there was no cap in place on the fees and 
tuition that could be charged.
    Chairman Isakson. There is a lady behind you who has either 
got a bad headache or she is wagging her head to the side that 
you are not telling me the truth, or what you said was not 
right. So, if you will give me a statement as to what you are--
amplification might be, I would appreciate it.
    Audience Member. Do you want me to give you a written 
statement?
    Chairman Isakson. I do.
    Audience Member. OK.
    Chairman Isakson. A written statement because you are not 
on the official panel, but I acknowledge anybody who has a 
comment, and I could tell you had one, so----
    [Laughter.]
    Audience Member. I do. They are not talking about 
Chapter 30.
    Chairman Isakson. OK. Thank you.

    [Written statement from Ms. Lois Reid, Chief Executive 
Officer, Upper Limit Aviation, is in the Appendix.]

    Chairman Isakson. Mr. Butler, thank you for your service 
and what you do. Do you have any comment on the flight question 
that has been raised or was referred to in Section 3?
    Mr. Butler. Other than we support that particular 
provision, as well. We support any educational program that 
would benefit our veterans, so we are in support of that 
provision.
    Chairman Isakson. Mr. Morosky, did you have a--I think in 
your comments, you were supportive, as well, is that correct?
    Mr. Morosky. Mr. Chairman, we support a cap. The only 
caveat that we had in our testimony was we are not sure what 
that cap should be and whether it should be different than the 
current private school, international school cap. The way the 
code is set up, it covers public schools, it covers private 
international schools, it covers vocational programs. There is 
nothing in Chapter 33 that talks about a private entity that 
contracts with a public school, so maybe there should be and 
maybe the cap should be different. It is something that we 
should take a look at. What we do not want to do is set a cap 
that shuts all veterans out of flight training and, therefore, 
the opportunity to pursue this, but at the same time, not allow 
the loophole to continue where schools can charge exorbitant 
fees.
    Chairman Isakson. My time is up.
    Senator Blumenthal.
    Senator Blumenthal. Thank you. I want to join the Chairman 
in thanking you, Professor Kettl, and all the witnesses who are 
here today, but I particularly appreciate Professor Kettl 
accepting our invitation to be here today. I can tell you the 
Chairman, in my experience, has never before called any witness 
a gem. [Laughter.]
    Chairman Isakson. First time for everything.
    Senator Blumenthal. And he does not use four-letter words, 
I can tell you, at least in my presence.
    I do want to follow up on a couple of your comments which I 
thought were tremendously insightful and important. I just met 
with the CEO of a major American corporation about an issue 
completely unrelated to this hearing, yet, I thought to myself 
as you were testifying, if I said to that CEO, our solution for 
improving the performance and personnel in your company is to 
figure out a better way of firing people, he would look at me 
as though I were crazy.
    Now, the difference in the public sector is that the 
measurements for good performance often seem indistinct or 
indecipherable or difficult to discern, because unlike his 
company, the end of quarter revenue, profit, performance, and 
so forth are not measured the same way. So, one of the 
questions I would welcome your thinking about is not only--and, 
by the way, I really welcome and thank you for your support for 
the bill S. 1856--but also how the VA can attract the doctors 
and nurses and others to fill those 41,000 positions, because a 
lot of them are health care positions and a lot of those skills 
are in short supply. As you know, there is a shortage of 
primary care doctors in the country, generally, and that is 
reflected in some of those vacancies.
    So, I would like very much not only to submit your 
testimony to Secretary McDonald, but perhaps ask you to 
undertake an assignment for us. I figure that I am more in the 
category of student than professor. Very rarely does a student 
give a professor an assignment. But, if you could be involved, 
and maybe we can involve you in heading a team to consider this 
issue, because I said at the beginning of this hearing, and I 
believe it is true, that there are so many, many, many hard 
working, proficient professionals who come to work every day. 
They work long hours. They do not punch clocks. They are there 
for patients or veterans who need their help. They really care. 
And there has been this broad brush that has tarred them.
    How do we keep them? How do we reward them? How do we 
attract them? That is kind of a long-winded way of asking a 
question, but if you have thought any more about this issue, I 
would welcome your comments.
    Prof. Kettl. Senator, this is something that really is 
going to require a lot more work, because it is a very complex 
and, unfortunately, a very deep-rooted problem. And let me say 
that not only would I certainly welcome the chance to be able 
to continue working with the Committee on this issue and with 
the Department, as well, but my students would appreciate the 
irony of being handed a homework assignment myself.
    Two points, if I might. The first is that if you step back 
and ask about the opportunity to be able to recruit people for 
a mission of this sort, what area of medicine could possibly be 
more valuable and something that would be easier to motivate 
people for than trying to take care of the veterans who have 
given so much to this country. If you cannot motivate people 
and recruit people on that basis, I do not know what would be 
the possible basis for recruitment. There is nothing that is 
more central to the public interest, it seems to me, than that, 
and it needs to begin with a central statement reinforcing the 
Department's mission.
    But then the second piece is that it is very clear, and 
unfortunately, if you look across the board, and I have some of 
the data in my testimony about the Federal Employee Value 
Survey results, unit by unit by unit within the VA, and the one 
lesson, unfortunately, that comes through very clearly is that 
the VA sits almost at the bottom in every single one of its 
units. But, on the other hand, you look at NASA and NASA sits 
at the very top. What is it that NASA is doing that the VA is 
not? What is it that is possible to discover that what NASA is 
doing could be transferred to the VA?
    That is something that we can identify, learn from. There 
is data that the Office of Personnel Management has where 
people have done in-depth research, including the Partnership 
for Public Service. There are leaders and managers at NASA who 
would be available to tell us what it is that they do to 
motivate people. And there are people inside the VA who are 
receptive to this message.
    If I could just add one other piece to this. NASA is doing 
an incredible job, as one example on this, but NASA is also at 
a point where their mission is under fundamental assault, 
perhaps, or at least fundamental reexamination, and they are 
under tremendous pressure from private sector competition at 
the same time. But despite that, they have employees who are as 
motivated as any within the Federal Government.
    On the other hand, you would think that within the VA you 
would have one of the easiest jobs of motivating employees, 
given the nature of the mission, yet we are falling short. That 
tells us that we have the opportunity to be able to solve this 
problem, but it requires strong and effective leadership from 
the top and the ability to be able to learn from what others 
are doing, from what the Partnership for Public Service is 
doing, from what the Government Accountability Office is 
discovering, from what we can discover from the data that the 
Office of Personnel Management has.
    The information is there and that would provide a game plan 
for figuring out what to do, and this Committee has an 
opportunity by then engaging in an ongoing dialog with the top 
leadership of the Department by saying, you are now on the GAO 
High-Risk List. What is your plan for getting off?
    Senator Blumenthal. Thank you very, very much.
    Chairman Isakson. Senator Boozman, followed by Senator 
Tillis.
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Wescott, in regard to the really high charges that are 
being charged by some of the schools so inappropriately, so you 
all do not have any inability to approve or disapprove or----
    Mr. Wescott. Let me----
    Senator Boozman [continuing]. When something stands out so 
much, right----
    Mr. Wescott. Thank you so much for that question, Senator. 
What happened was back in 2011, 111-377 was passed by the 
Congress and it changed some of the roles between the State 
Approving Agencies and the VA, and degree programs became 
deemed approved at the public and not-for-profit privates. So, 
at that point, the oversight, especially given the 
interpretation of some of the leadership of the VA at that 
time, of those degree programs was removed from the State 
Approving Agencies. One of the things we seek in this law is to 
return some of that oversight and correct that condition.
    I can say that due to the new leadership that came in with 
the VA, Education Service Director Rob Worley and Deputy Under 
Secretary Coy, we have been able to, starting in fiscal year 
2015, to begin to look some at those programs. But, again, 
during the time when these large amounts of tuition and fees 
began to be assessed against veterans, we were not in an actual 
oversight position over the schools.
    Senator Boozman. Is a one-size-fits-all--I guess I think 
Mr. Morosky summed it up well. You know, we want to make it 
such that certainly nobody is cheating the system at all. On 
the other hand, we do not want to make it such that an 
individual is not allowed to pursue a profession that we would 
aspire our veterans to be in, if that is what they would like 
to be in.
    But, I guess fixed-wing versus helicopters, fuel costs make 
a huge difference in flight training and things generally. Are 
you comfortable with just saying, it is this dollar figure?
    Mr. Wescott. I am certainly amenable to looking at the 
dollar figure that is chosen. But I certainly feel like we need 
to find some dollar figure that will take care of this issue. 
It is my understanding that the highest payout for a single 
veteran in a flight program is somewhere in the neighborhood of 
$913,000. Somewhere between $20,000 and $900,000, we need to 
find a cap to----
    Senator Boozman. No, and I agree. I guess our concern is, 
you know, why that did not immediately set off red flags, that 
we are all very, very concerned about it----
    Mr. Wescott. Right.
    Senator Boozman [continuing]. And fix that problem.
    Prof. Kettl, you talked a lot about accountability, which 
is so important. There are various ways of doing that. I was 
struck in your written testimony, you talked about oversight 
recommendations for improving the situation, which, again, 
directly relates to us. So, could you go through some of those 
and kind of point out to us how you think we could do a better 
job of providing oversight to hold people accountable.
    Prof. Kettl. Senator, I think, first of all, it is 
important to recognize that you have identified one of the most 
important issues here, which is that this Committee has an 
important role on an ongoing basis to, on the one hand, keep 
the VA's feet to the fire, but on the other hand, provide 
positive incentives for leadership in the right directions on 
this. I do not for a second want to defend the right of people 
who have performed badly to continue to hold their jobs. We 
need to root them out. But, what do we do with the rest of the 
problem, and the rest of the problem is most of the problem, 
and most of the problem has to be done through the people 
process.
    So, I think it requires, in part, an effort and a strategy 
to ask the VA directly, what is your plan for solving this 
problem? What is your strategic human workforce plan to try to 
identify what kind of people you need and how you are going to 
get them, how you are going to motivate them? How are you going 
to hold them accountable? How are you going to try to develop a 
performance plan that links the Department's strategic goals to 
its objectives? How are you going to ensure that you can fill 
the vacancies in these strategically important areas that are 
in greater need with the greater levels of vacancy in some 
places around the country than others? Do you need greater 
flexibility in some cases, or is it a matter of recruiting? How 
are you going to lead people to try to deal with the underlying 
problems of motivation that exist there?
    In particular, how are you going to work with the Committee 
and with the GAO to develop an action plan for the future, over 
the long haul, that will stretch across administrations to 
ensure that you get off the High-Risk List? No agency wants to 
be on it. There now are 32 different programs that are on the 
High-Risk List. Over the course of time, 24 programs have 
gotten off of it. There is no reason why the VA cannot be one 
of them, and this Committee can play an important role in 
helping the VA develop such a plan and hold them accountable 
for enforcing it.
    Senator Boozman. Very good. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Dr. Wescott, it is good to see you.
    Mr. Wescott. Good to see you, sir.
    Senator Tillis. Thank you for your service to the State and 
in your national legislative role. Thank you for your service 
as a combat officer in the Army.
    Mr. Wescott. Thank you, sir.
    Senator Tillis. I want to congratulate you. After working 
really hard at Wake Forest, you finally were able to get 
admitted to N.C. State for an advanced degree. [Laughter.]
    I want to go back to the two bills that I am working with 
Ranking Member Blumenthal and Senator Brown on. We will go with 
maybe the Fry Scholarship Enhancement Act. I am not going to 
restate what I said earlier except that it really does look 
like we are making a correction to what was clearly an 
oversight. So, I understand, I think, for most of the 
panelists, you support it. Professor Kettl, I do not know that 
you would have a position on that, but it seems like the other 
members of the panel support, as did the prior panel, and that 
we can move forward with that, hopefully, in an expeditious 
manner.
    Then I can move to the Career-Ready Student Veterans Act. 
Dr. Wescott, tell me some areas about that that you had either 
some questions or concerns with respect to the discussion 
draft.
    Mr. Wescott. Well, certainly, one of the areas is--the 
primary concern that I had and our association had would be 
that it would be applied to all sectors of education, not just 
unaccredited, but accredited institutions, as well. When we 
issue an approval for even an accredited institution, we run 
into cases where a program will not yet be accredited 
programmatically, so what I will do on in that case is I will 
exclude that program.
    In fact, someone called me the other day and suggested that 
one of our nursing degree programs at one of our for-profit 
institutions was not approved by the Nursing Board. I can tell 
you that within an hour, I had accreditation documentation from 
the institution, because if in North Carolina I had a degree 
program like that on the books, we would have suspended that 
program immediately.
    So, we are very supportive of this. We understand that 
there may be other States where this is an issue and we 
certainly would like to see this legislation passed.
    Senator Tillis. Well, thank you for that. Mr. Butler or Mr. 
Morosky, did you have any comment on that?
    Mr. Morosky. Senator, we would be more than happy to look 
at any tweaks that Mr. Wescott may have. We support the intent 
of the bill entirely. You know, all too often, the issue of 
credentialing and veterans not being able to translate their 
military skills comes to bear. That is bad enough. It is even 
worse when they get civilian training and then they are still 
not able to get the credentialing after all that. So, we 
certainly support everything that this bill is trying to do.
    Mr. Butler. The Legion, likewise. The only concern or 
comment we had, that if we are going to add additional workload 
or responsibility to SSA, then there should be corresponding 
budgetary consideration as to that additional increase in 
workload.
    Senator Tillis. I think that is a good point. When you 
consider the unemployment rate among veterans, and some of that 
has to link back to just having the right deployable skills, 
and when they go to school, making sure that they can go out 
and get the jobs that they were studying for. I look forward to 
working with you all and I appreciate the Ranking Member's 
leadership in moving this forward. I look forward to working 
with you all.
    The last topic, actually, is that I want to associate with 
the comments of the Chair and the Ranking Member with respect 
to Professor Kettl's comments. I have spent a lot of time down 
in the VA facilities in North Carolina. The vast majority of 
the people in those facilities are good people. Half of them 
are veterans. The other half, many of them left good paying 
jobs or deferred good paying jobs in the private sector because 
they may not have served in the military, but they want to 
serve those veterans out of respect for them.
    I am reminded sometimes with the commentary that we hear of 
a ``Dilbert'' cartoon from years ago that says, ``The floggings 
will continue until morale improves.''
    We have got to make sure that we get to the underlying 
cause that is precipitating the morale problems and other 
things for good hard working people and still hold those who 
are accountable, or those who are responsible for unacceptable 
behavior accountable and terminate them. And I think the 
Department has terminated some 1,400 people since Secretary 
McDonald has come in; probably appropriately so.
    But, we do have to focus on the underlying challenges that 
we have there that do not make this the best place in the 
Federal Government to work. As I told Secretary McDonald the 
other day, I not only want them to rank highest among Federal 
Government agencies, I want them to beat many of the Fortune 50 
companies as the best places to work. They have got a great 
product. They are providing great services for men and women 
that deserve it.
    So, we should not lose sight of the fact that the vast 
majority of them are good people. We are here to help them.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis.
    Ranking Member Blumenthal, do you have any other comment?
    Senator Blumenthal. I do not. Thank you, Mr. Chairman.
    Chairman Isakson. I would like to thank all of our 
witnesses for their testimony today.
    We will leave the record open for 7 days for any 
information that is to be submitted to the Committee.
    The Senate Veterans' Affairs Committee stands adjourned.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


    Prepared Statement of Hon. Jerry Moran, U.S. Senator from Kansas
    As a Member of the Senate Veterans Affairs Committee, I appreciate 
the opportunity to collect views from key stakeholders regarding 
numerous pieces of important legislation. However, some entities with 
varying views do not always have the opportunity to voice their 
opinion, specifically as it relates to a perspective that I share 
regarding draft legislation that would place caps on professional 
aviation training. This is a circumstance where close examination is 
necessary to make certain that subjective caps do not create 
unnecessary burdens and consequences on the institutions and veterans 
seeking this specialized training.
    I understand there are extreme examples of abuse and cost overruns 
occurring in some professional aviation training programs for veterans. 
I agree that controlling cost and eliminating waste and abuse of 
veterans' educational benefits is critical as stewards of taxpayer 
dollars and for the sustainment of the GI benefit program.
    The overwhelming majority of student-veterans who enter these 
programs and the institutions that provide aviation training are honest 
actors who play by the rules. The examples of waste and abuse are 
deplorable but they do not represent all flight training programs and I 
fear that those who conduct honorable and superior programs are 
unnecessarily caught in the fray.
    Should this bill be further considered, I will offer amendments to 
remove the offending provisions and should that effort fail I will 
vigorously oppose this legislation.
    Before we negatively impact institutions with professional aviation 
programs that are properly serving veterans utilizing GI education 
benefits, the VA should take a closer look at enforcing and upholding 
its own policies. Part of the issue is mismanagement and poor decisions 
made from within the VA system.
    I would urge my colleagues, the VA, and other interested parties to 
address the core problems in the way this program is managed and 
administered instead of addressing the symptoms. I look forward to 
discussing ways in which we can improve oversight on the implementation 
of GI educational benefits and avoid a circumstance that would diminish 
or eliminate professional aviation training programs across the 
country.
                                 ______
                                 
Prepared Statement of American Federation of Government Employees, AFL-
                                  CIO
    Chairman Isakson, Ranking Member Blumenthal, Members of the 
Committee, thank you for the opportunity to present the views of the 
American Federation of Government Employees, AFL-CIO and its National 
Veterans Affairs Council (AFGE) regarding pending legislation. AFGE 
represents over 670,000 Federal employees, including more than 220,000 
employees of the Department of Veterans Affairs. AFGE's representation 
of non-management, front line employees working in virtually every non-
management position in the Veterans Health Administration (VHA), 
Veterans Benefits Administration (VBA), and National Cemetery 
Administration (NCA) allows us to share a unique perspective with the 
Committee. AFGE also greatly appreciates the efforts by Members of this 
Committee to solicit the views of our AFGE local officials and the 
employees they represent in settings where they feel free to share 
their concerns and recommendations without reprisal.
                                s. 1856
    AFGE strongly supports S. 1856 and applauds Ranking Member 
Blumenthal for his leadership in introducing meaningful and 
comprehensive accountability legislation. S. 1856 would provide highly 
effective tools for increasing VA accountability while preserving 
essential protections against retaliation and prohibited personnel 
practices. Accountability will only be achieved when managers utilize 
the tools provided to them to properly manage their workforces. S. 1856 
enhances VA management training and evaluation to ensure that managers 
make full use of the accountability tools available to them through 
current law and this important legislation.
    S. 1856 will achieve the accountability improvements that S. 1082 
can only promise. In fact, whereas S. 1856 increases protections for 
whistleblowers and other vocal employees, and takes a multi-prong 
approach to reducing mismanagement, S. 1082 decreases protections for 
these employees and does not create any new tools for addressing 
mismanagement.
    Section 2: Current law requires managers to provide the following 
due process protections before a termination or other adverse action 
becomes final:

    <bullet> 30 days advance written notice;
    <bullet> 7 days to respond and present evidence;
    <bullet> Right to secure representation;
    <bullet> Right to examples of performance problems; and
    <bullet> Written decision with specific reasons.

    Current law provides for an exception to the 30 day notice 
provision when the supervisor has reasonable cause to believe that an 
employee committed a crime which could lead to imprisonment (5 U.S.C. 
7513). Supervisors may also suspend an employee without pay if the 
agency considers it necessary in the interest of national security (5 
U.S.C. 7532). In addition, supervisors may also reassign the employee 
or place the employee on paid, nonduty status if his or her continued 
presence in the workplace during the notice period ``may pose a threat 
to the employee or others, result in loss of or damage to Government 
property, or otherwise jeopardize legitimate Government interests'' (5 
CFR 752.404).
    Section 2 of S. 1856 provides supervisors with an additional 
flexibility: the immediate suspension without pay of an employee who 
presents a clear and direct threat to public health or safety rights. 
Notice and other due process rights apply after suspension and before 
removal. The employee also retains full MSPB appeal rights. The 
employee is entitled to back pay for the post-suspension period if the 
Secretary determines that the termination is not justified.
    Section 3: As noted earlier, accountability can only be achieved if 
managers use the tools they are given in current law and new 
legislation to properly manage the workforce. The requirement in 
Section 3 of the bill for annual performance plans for VA political 
appointees addresses this problem through the following critical 
performance measures:

    <bullet> Hiring, selection and retaining well-qualified employees;
    <bullet> Engaging and motivating employees;
    <bullet> Training and developing employees for leadership roles;
    <bullet> Holding every manager accountable for employee performance 
problems.

    Section 4: This section also ensures that managers will fulfill 
their workforce-related responsibilities by requiring that each manager 
provide feedback to probationary employees and assess whether the 
employee is suitable for permanent status, especially in light of 
findings in the August 2015 MSPB report, Adverse Actions: The Rules and 
The Reality, that supervisors are reluctant to terminate poor 
performers in both management and non-management positions during 
probationary periods.
    Section 5: Similar to the evaluation requirements for political 
appointees in Section 3, this section increases accountability by 
requiring that all managers be evaluated for addressing poor 
performance and misconduct, and their abilities to improve employee 
engagement.
    Section 6: This section addresses growing evidence that VA managers 
have not been receiving sufficient training on workforce management. It 
enhances accountability by mandating manager training in key workforce 
management areas: whistleblower rights, employee motivation and 
managing poorly performing employees.
    Section 7: This section provides the VA with a valuable new 
workforce retention tool: the ability to promote high achieving 
employees to technical expert positions when that is more suitable or 
desirable than a management track position.
    Section 8: AFGE has seen a number of whistleblowers, especially 
those in licensed medical and behavioral health professions suffer 
great harm to their careers as a result of retaliatory negative 
performance evaluations. Current law does not provide clear Office of 
Special Counsel jurisdiction over Title 38 employees filing such 
complaints. Section 8 of the bill closes this major gap in the law.
    Sections 9 and 10: These comprehensive ``revolving door'' 
provisions that safeguard against conflicts of interests between 
acquisition personnel and other personnel involved in sourcing 
decisions, and contractors doing business with the VA. Contracts based 
on self-interest rather than need or merit have been a longstanding 
problem in VHA, VBA and NCA, at both the local and national level.
    Section 11: This section halts the abuses of extended paid 
administrative leave that have wasted taxpayer dollars and prevented VA 
employees from being put back to work to serve veterans. This section 
also mandates the collection of data on the use of administrative leave 
that is sorely needed to separate rhetoric from actual practice. 
Excessive use of administrative leave has been another symptom of VA 
management's reluctance and inability to use current law and policy to 
manage the workforce properly.
    Sections 12 and 13: AFGE also supports new reporting requirements 
for the Office of the Medical Inspector and an assessment of the impact 
of new SES personnel rules, in light of reports of high vacancy rights.
                                s. 1451
    As the exclusive representative of VA employees processing survivor 
benefits, AFGE supports S. 1451. AFGE greatly appreciates Senator 
Hirono's efforts to bring additional attention to survivor benefits and 
the Senator's efforts to streamline this process.
    Based on feedback from our membership, AFGE shares the concerns 
addressed in S. 1451 with the current backlog for processing survivor 
benefits. AFGE believes that ``non-rating'' claims are not provided 
with adequate attention from the Veterans Benefits Administration 
(VBA). As of August 2015, the non-rating total workload was just shy of 
415,000 claims with over 265,000 claims pending for 125 days. AFGE 
members are proud of their success with VBA in reducing the disability 
claims backlog, now below 100,000. However, AFGE believes VBA has not 
adequately prioritized the non-rating claims, worsening the backlog. 
AFGE believes the inadequate attention on non-rating claims also 
created problems elsewhere, such as the current backlog of dependency 
claims. Unfortunately, VBA has once again turned to the quick fix of 
contracting out even though contractor work on the dependency claims 
has wasted taxpayer dollars that would be better spent hiring 
additional claims processors. Contracting out also increases 
inaccuracies that increase the workload for VBA employees. Therefore, 
AFGE urges Congress and VBA to place additional attention on the non-
rating backlog, including survivor benefits, by increasing in-house 
capacity as opposed to relying on contractors.

    Thank you for the opportunity to testify on these important 
legislative issues.
                                 ______
                                 
 Prepared Statement of Beth Moten, Legislative and Political Director, 
          American Federation of Government Employees, AFL-CIO

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Joint Statement of Aircraft Owners and Pilots Association, 
  General Aviation Manufacturers Association, Helicopter Association 
   International, National Association of State Aviation Officials, 
                 National Business Aviation Association
    Collectively, our five aviation associations represent hundreds of 
thousands of individuals and companies from all segments of the general 
aviation community, including flight schools, pilots, aircraft owners, 
operators, businesses that utilize aircraft, mechanics, and 
manufacturers. We welcome and thank the Committee for this opportunity 
to offer a written statement for the record.
    The industry is extremely concerned about language in Section 3 of 
the discussion draft of the bill to amend 38 U.S.C. 3313. We believe 
that language will create for many veterans a Hobson's choice requiring 
them either to select a program that will severely limit the 
availability of funds that they were told they were entitled to when 
they elected to serve their nation or severely restrict the number of 
fully funded programs available to them.
    The need for this provision is, as yet, unknown. The Department of 
Veterans Affairs (VA) has in place rules and regulations intended to 
ensure that market forces hold the cost of flight training in check. 
Specifically, the rule known as the 85/15 rule, requiring that no more 
than 85 percent of students enrolled in a flight training degree 
program can have their education paid for with VA funds, is designed to 
hold prices in check under the theory that the price sensitivity of the 
remaining 15 percent who are using private or alternate sources of 
funding would hold flight training costs down.
    Unfortunately, the enforcement of this rule across VA regions can 
be most charitably described as uneven. According to one flight school 
operator whose operations fall under the jurisdiction of two VA 
regional offices, the school routinely gets differing interpretations 
from each office. In one instance, a single VA official changed the 
interpretation of the 85/15 rule four times in one conversation.
    The original legislation introduced in the House of Representatives 
(H.R. 475, the GI Bill Processing Improvement and Quality Enhancement 
Act of 2015) was based upon a request from the Department of Veterans 
Affairs and state authorizing agencies, and was intended to protect the 
U.S. taxpayer from a relatively small number of instances of flight 
schools and public institutes of higher learning charging significantly 
higher fees than normal to achieve the FAA certificates necessary to 
work in the aviation industry.
    The aviation industry had raised concerns with members of the House 
of Representatives that the proposed solution in their legislation--
capping funds available to veterans enrolled in flight training degree 
programs at public colleges and universities--would leave veterans with 
far too little money to achieve their educational goals and is 
discriminatory because only flight training degree programs would be 
subject to the cap. In attempting to address the discriminatory nature 
of the House proposal, the Senate has instead created a provision that 
is destined to harm even more of the very people the Post-9/11 GI Bill 
was intended to help--veterans of the United States' Armed Forces--and 
yet will fail to address the discriminatory nature of the provision. To 
the best of industry's knowledge, flight training is the only degree 
program for which colleges and universities normally contract such 
programs of education.
    According to the Congressional Budget Office cost estimate for H.R. 
475, an estimated 600 veterans would be denied full access to the 
benefits promised them by the American people. The report further 
states that the first year the cap is in place, each affected veteran 
will lose approximately $30,000 in payments. The amount lost is 
expected to grow in each subsequent year.\1\
---------------------------------------------------------------------------
    \1\ Congressional Budget Office, H.R. 475 GI Bill Processing 
Improvement and Quality Enhancement Act of 2015, cost estimate report 
as ordered by the House Committee on Veterans' Affairs, August 26, 
2015, 6, https://www.cbo.gov/sites/default/files/114th-congress-2015-
2016/costestimate/hr475.pdf.
---------------------------------------------------------------------------
    The aviation industry's concern about H.R. 475 and the Senate's 
discussion draft relates to veterans' ability to earn a college degree 
in aviation that includes, as part of the course of study, flight 
training that leads to the Federal Aviation Administration (FAA) 
certificates considered necessary to be employable as a commercial 
pilot.
    While fair treatment of veterans must, of course, be the first 
priority of this Committee, it is worth noting that legislation that 
would severely restrict flight training benefits for veterans would 
have enormous detrimental impact on the aviation industry--and 
especially the helicopter sector. The helicopter industry is in the 
midst of a worsening pilot shortage. Veterans separating from the 
military are seen as highly valued employees and a vital potential pool 
of new pilots. Further, reducing the pool of new pilots ultimately 
hurts the veterans because fewer pilots will cause the industry to 
contract, leaving fewer openings for those veterans seeking other 
careers in the helicopter industry such as maintenance technicians, 
dispatchers, or business managers.
    Under the current language of the Post-9/11 GI Bill (Public Law 
110-252), public colleges and universities are allowed to partner with 
flight schools to offer aviation degree programs that lead to FAA pilot 
certifications and careers in the aviation industry. The law allows 
flight training expenses, which include hourly aircraft rental fees and 
the instructor's hourly rate, to be treated as course fees.
    The Senate's discussion draft affects the entire flight training 
industry. However, due to significantly higher fixed operating costs 
(primarily maintenance-related) for helicopters, it has a 
disproportionate effect on helicopter flight training. In addition, the 
Department of Veterans Affairs initially raised its concerns with 
regard to fees charged at certain helicopter flight schools. Therefore 
much of the industry research has focused on helicopter flight 
training.
    HAI worked closely with the staff of the House Veterans' Affairs 
subcommittee on economic opportunities to provide an understanding of 
the costs associated with flight training. Since one of the goals of 
the Post-9/11 GI Bill is to provide veterans with the education and 
training necessary to enter their chosen career field, employability 
within the aviation industry was defined and used as a benchmark for 
entry-level pilot jobs. As the predominant entry-level position in the 
industry is as a helicopter flight instructor, we defined 
``employable'' as a commercially rated pilot holding certificated 
flight instructor (CFI) and certificated flight instructor-instrument 
(CFII) certificates from the FAA.
    FAA regulations require a pilot to hold, at a minimum, a commercial 
pilot certificate in order to conduct revenue flights such as an 
instructional flight. A pilot must also receive additional training and 
be certificated as a flight instructor in order to give instruction. 
And in today's flight instruction industry, flight instructors are 
expected to be able to teach pilots how to fly in poor visibility 
weather, known as instrument conditions. In order to give that 
instruction, flight instructors require additional training and 
certification. Therefore a commercial pilot certificate with CFI and 
CFII is considered the minimum credentials required to be employable.
    HAI polled flight schools providing helicopter flight training 
through public colleges and universities to determine an historical 
average cost to achieve employability under the following assumptions: 
the minimum number of hours required by the FAA to achieve each level 
of certification; the least expensive helicopter available to rent at 
the flight school appropriate to the type of training and environmental 
conditions.
    HAI surveyed 15 flight schools affiliated with public colleges and 
universities. Thirteen responded. The results indicate that flight 
training alone (not counting academic tuition, books, or other fees) 
costs $112,500 (\5%) in a four-year college aviation degree program, 
and $107,500 (\5%) in a two-year college aviation degree program.
    Based on HAI's survey results, the total cost for tuition and 
flight training at a four-year college aviation degree program is 
approximately $212,500, while the total cost for a two-year program is 
approximately $122,500.
    Both the Senate's discussion draft and the flight training 
amendment to H.R. 475 seek to impose the same caps on flight training 
degree programs at public institutes of higher learning as are 
currently in place for all degree programs at private colleges and 
universities--currently $20,240 per year, or slightly less than $81,000 
for a four-year college career. That clearly falls far below the cost 
of the required flight training, let alone flight training plus 
tuition, books, and other related expenses.
    Proponents supporting an amendment to cap flight training benefits 
have argued that there would remain additional funds available through 
the Department of Veterans Affairs' Yellow Ribbon program. According to 
the Department's own information,

        [t]his program allows institutions of higher learning (degree 
        granting institutions) in the United States to voluntarily 
        enter into an agreement with VA to fund tuition expenses that 
        exceed either the annual maximum cap for private institutions 
        or the resident tuition and fees for a public institution. The 
        institution can contribute up to 50% of those expenses and VA 
        will match the same amount as the institution.\2\

    \2\ U.S. Department of Veterans Affairs. ``Education and Training: 
Yellow Ribbon Program.'' Created Nov. 21, 2013. Last Reviewed July 9, 
2015. http://www.benefits.va.gov/gibill/yellow_ribbon/
yellow_ribbon_info_schools.asp
---------------------------------------------------------------------------
    However this ignores the economic reality that the amount forgiven 
for a veteran student can be amortized across scores or even hundreds 
of students in a lecture class setting; it is impossible to amortize 
the cost of flight training with one student and one instructor in a 
two-seat training aircraft. Based on HAI's survey, the average combined 
cost to rent a helicopter with instructor is $349 per flight hour. That 
cost is driven primarily by the cost of required maintenance and does 
not change. The assumption in the HAI survey was that it will require 
210 flight hours for a pilot to achieve all the certificates necessary 
to be employable.
    Margins at flight schools are very thin. Therefore, for a flight 
school to bill only half the price of an instructional flight is to 
guarantee a loss on every flight. It is unreasonable to expect any 
college or university to discount the cost of fuel and equipment by as 
much as 50 percent in order to continue to operate a flight training 
degree program under VA's Yellow Ribbon program.
    The aviation industry strongly believes that Congress should direct 
the Department to adopt uniform enforcement of market force regulations 
and allow those market forces to exert their influence before adopting 
a legislative solution.
    As associations representing the broad spectrum of the general 
aviation industry, we urge the Committee to remove section 3 from the 
discussion draft document and continue to fulfill the promises made to 
America's veterans in the Post-9/11 GI Bill.
    Further, we request that the Department of Veterans Affairs be 
directed to enforce its own regulations uniformly--specifically the 85/
15 rule--allowing market forces to regulate flight training prices, as 
the rule is intended to do, and to convene a working group of flight 
training industry leaders and associations to examine the costs 
necessary to train veterans to meet both FAA requirements and 
employability standards for professional careers in the aviation 
industry.
    Finally, we request the Committee direct the Government 
Accountability Office (GAO) to conduct a study of the flight training 
industry and the associated costs for a commercial rotorcraft 
certificate with IFR, CFI and CFII ratings. The study should examine 
course completion rates, the need for additional safety-related 
training, the needs of potential employers, and the private student 
loan market, and should include a cost/benefit analysis of training in 
piston aircraft vs. turbine aircraft, and its effect on employability. 
It should examine the value of creating benchmarks and their potential 
beneficial effect on reducing excessive expenditures on courses that 
are being frequently retaken by veterans. Because stand-alone flight 
school programs are less costly than combined academic/flight school 
programs, the study should examine the benefits of creating an 
accreditation program that would grant accredited flight schools parity 
with flight training programs associated with academic institutions. As 
a subset of the study, the GAO should examine the costs borne by the 
United States Department of Defense in training military pilots to the 
same level of proficiency as veterans that receive commercial flight 
training.
    We do not dispute that there were some instances of the VA being 
charged far more than is necessary for some veterans' flight training. 
We agree that, while within the law, such charges exceed the intent of 
the Post-9/11 GI Bill and should be addressed. But we firmly believe 
the best way to keep flight training fees in line with the costs to 
train veterans to employable status as a pilot is for the aviation 
industry, the Department of Veterans Affairs, and state authorizing 
agencies to work together. We look forward to working with the 
Committee to find the solution that best serves the needs of both the 
veteran and the taxpayer.
    Veterans have given the nation their very best. They deserve the 
very best from the nation in return.
            Submitted very respectfully,
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                                             Mark R. Baker,
                                                 President and CEO,
                                Aircraft Owners and Pilots Association.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                            Peter J. Bunce,
                                                 President and CEO,
                            General Aviation Manufacturers Association.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                        Matthew S. Zuccaro,
                                                 President and CEO,
                                  Helicopter Association International.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Greg Principato,
                                                 President and CEO,
                         Natl. Association of State Aviation Officials.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                                  Ed Bolen,
                                                 President and CEO,
                                National Business Aviation Association.

                                 ______
                                 
Prepared Statement of Diane M. Zumatto, National Legislative Director, 
                                 AMVETS
    Distinguished members of the Senate Veterans' Affairs Committee, on 
behalf of the 23 million American Veterans in this country, AMVETS, a 
leader since 1944 in preserving the freedoms secured by America's Armed 
Forces and providing support for Veterans, Active Duty military, the 
National Guard/Reserves, their families and survivors, it is my 
pleasure, to offer this `Statement for the Record' concerning the 
following pending legislation:

 s. 290, increasing the department of veterans affairs accountability 
                              act of 2015
    Even though AMVETS made a conscious decision to elevate the issue 
of VA accountability to the very top of our list of legislative 
priorities, we do not believe that this bill is goes far enough to the 
do the necessary job.
    While there are a couple of provisions which we approve of in this 
bill, we cannot endorse limiting the number of annual ``Outstanding'' 
or ``Exceeds-Fully-Successful'' performance ratings, as this seems 
counter-productive. The last thing VA should do is ``punish'' their 
best employees through the application of this provision; instead 
AMVETS would recommend focusing more on the ill-performing employees.
    As far as the provision for reassigning SES employees ``at least 
once every five years * * * to a position at a different location that 
does not include the supervision of the same personnel or programs'', 
AMVETS sees both positive and negative outcomes.

    <bullet> On the positive side: this would ensure that SES employees 
have a broad range of both personnel and programmatic experiences which 
could conceivably be beneficial.
    <bullet> On the negative side: this would seriously curtail any 
form of institutional memory and the development of any real expertize 
in any specific area.

    AMVETS believes that if, or until, each and every VA employee, not 
just SES personnel as stipulated in S. 290, can be held accountable for 
their actions or lack thereof, the VA system will remain broken, 
unsatisfactory and unsafe. AMVETS believes that H.R. 1994, while 
perhaps not perfect, is currently the best option available to address 
the VA accountability problem.
         s. 563, the physician ambassadors helping veterans act
    While AMVETS doesn't doubt the good intentions of this legislation, 
we do not believe that it will have a substantive effect on VA patient 
wait times or quality of care.
        s. 564, the veterans hearing aid access & assistance act
    We heartily offer our support for this legislation which would 
allow licensed hearing aid specialists to provide hearing aid services 
to veterans as VA providers.
    Many of the wounded veterans who have returned from the conflicts 
in Iraq and Afghanistan sustained sensory injuries, including hearing 
loss and tinnitus, the treatment of which may require the use of 
hearing aids or other prosthetic items to help those injured rebuild 
their lives and gain independence.
    This much needed legislation would improve hearing healthcare 
access, service and outcomes for veterans, as well as:

    <bullet> reduce treatment and follow up costs;
    <bullet> improve quality of life;
    <bullet> shorten appointment wait times;
    <bullet> strengthen the VAs hearing healthcare team; and
    <bullet> shorten veteran travel time by providing access in rural 
and urban settings.

    As a hearing impaired veteran myself, both AMVETS and I would like 
to take this opportunity to thank Senator Moran and Senator Tester for 
introducing this important piece of legislation and for all you do in 
support of American Veterans
s. 1450, the department of veterans affairs emergency medical staffing 
                      recruitment & retention act
    AMVETS supports this legislation, but believes this is might be 
more appropriately a policy, rather than a legislative issue.
 s. 1451, the veterans' survivors claims processing automation act of 
                                  2015
    AMVETS supports this legislation which would take the burden of 
filing a claim for benefits from the surviving spouse of a recently 
deceased veteran and, if there is sufficient evidence in the record to 
warrant such payment, would automatically pay those benefits.
          s. 1460, the fry scholarship enhancement act of 2015
    AMVETS supports this legislation which seeks to extend the Yellow 
Ribbon G.I. Education Enhancement Program to cover recipients of the 
Marine Gunnery John David Fry Scholarship.
 s. 1693, a bill to expand eligibility for reimbursement for emergency 
medical treatment to certain veterans that were unable to receive care 
  from the va in the 24-month period preceding the furnishing of such 
                          emergency treatment
    AMVETS thinks this bill is too limiting and that during a medical 
emergency, a veteran should be able to seek care at the nearest 
facility regardless of whether it is a VA facility or not and if that 
facility is a non-VA hospital, the veteran should be reimbursed for 
their expenses without the 24-month caveat.
    s. 1856, the department of veterans affairs equitable employee 
                       accountability act of 2015
    AMVETS cannot fully support this bill because it only calls for the 
suspension or removal of VA employees if their performance or 
misconduct is a threat to public health or safety. What about instances 
of unethical, fraudulent, improper or poor performance which isn't a 
threat to public health or safety? AMVETS also believes that all 
employees should be held accountable for their behavior and actions, or 
lack thereof, not just managers.
    AMVETS does, however like the provision that would require an 
annual performance plan for political appointees and, though as already 
stated, we think all employees need to be held accountable, we are glad 
to see some added accountability for hiring well-qualified people and 
improved training for managers.
         s. 1938, the career-ready student veteran act of 2015
    AMVETS support this legislation.
draft legislation, to make improvements in the laws administered by the 
    secretary of veterans affairs relating to educational assistance
    AMVETS is completely and utterly opposed to this draft legislation 
which claims it would make improvements in the laws administered by the 
Secretary of Veteran Affairs relating to educational assistance.
    AMVETS strongly believes that since veterans ``earn'' their G.I. 
Bill benefits, no one, neither Congress, nor the VA should be able to 
control, how those benefits are utilized. Unfortunately, this appears 
to be nothing more than an ill-conceived, unjust and prejudicial 
attempt to reduce our veterans' earned benefits and curtail their 
freedom to pursue aviation training.
    Additionally, if this bill gets signed into law, it will be the 
start of a very ``slippery slope''. Down the road I can see the law 
being expanded to add further limits on how educational benefits may be 
utilized. Maybe the next cap will apply to medical school and the next 
might be for law school, etc.
    The only purpose I can attribute the drafting of this legislation 
to, is cost savings for the VA. This situation highlights, what to 
AMVETS is one of the biggest problems with the VA--and that is that 
there seems to be more focus on VA employees and what's good for them, 
than on the needs of veterans. If cost-savings truly is the impetus 
behind this bill, I can suggest a number of other options which would 
bring about the same end result.
    Before we start legislating what veterans can and cannot study with 
their G.I. Bill benefits, let's review and eliminate all 
inconsistencies, inefficiencies and duplications in VA's educational 
policies and procedures. Additionally, we must require continuity 
throughout the VA so that policy is appropriately and equitably applied 
and enforced throughout the country. We also should look for 
consistency in all the schools, to ensure that we're comparing apples-
to-apples.
    Some additional cost saving suggestions, include:

    <bullet> require some form of pre-enrollment qualification and 
testing to ensure student success. Think of how this is done in the 
military, many apply and would love to get into military flight 
schools, but very few are accepted and even fewer successfully complete 
their programs;
    <bullet> limit the number of times a class can be repeated;
    <bullet> require successful, on-going progress throughout the 
program; and
    <bullet> allow schools to issue short-term ``incomplete'' grades to 
students who are within a number of flight hours

    Perhaps the most important point I'd like to make, is that there 
are three individual components involved in this situation:

    <bullet> the VA;
    <bullet> the School; and
    <bullet> the veteran

    Let's make sure we deal with the first two, before we take anything 
away from our veterans.
    This completes my statement at this time and I thank you again for 
the opportunity to offer our comments on pending legislation. I will be 
happy to answer any questions the Committee may have.
                                 ______
                                 
   Prepared Joint Statement of The American Speech-Language-Hearing 
Association (ASHA), the Academy of Doctors of Audiology (ADA), and the 
                  American Academy of Audiology (AAA)
    The American Speech-Language-Hearing Association (ASHA), the 
Academy of Doctors of Audiology (ADA), and the American Academy of 
Audiology (AAA) respectfully submit this joint statement for the record 
in opposition to S. 564, the Veterans' Access to Hearing Health Act of 
2015. The bill would authorize the Secretary of the Department of 
Veterans Affairs (VA) to appoint hearing aid specialists under Title 38 
of the United States Code as professionals eligible to provide 
healthcare to veterans in the Veterans Health Administration. While we 
appreciate and support the intent of the bill sponsors to ensure 
appropriate access to hearing health services by our Nation's veterans, 
we strongly believe that S. 564 would not in any way advance this 
effort.
    Hearing loss is one of the top service related disabilities for 
veterans and requires complex and comprehensive treatment. While noise-
induced hearing loss is common, veterans frequently present with 
complex audiology and vestibular pathologies that may be exacerbated by 
tinnitus, Traumatic Brain Injury, or Post Traumatic Stress Disorder. 
This complexity is further intensified by the increased number of 
veterans with combat-related hearing loss.
    The provision of hearing aids is neither simple nor straight 
forward--especially when addressing the complex needs of veterans. As 
with all technologies, the technology of hearing aids is becoming 
increasingly more complex and the options beyond hearing aids, such as 
streaming capabilities, direct audio input, or Bluetooth coupling, are 
becoming more numerous. Coupled with advances in understating complex 
ear brain interactions, the provision of hearing aids requires advanced 
education and training to effectively service our veterans.
    Audiologists are doctoral-level professionals who undergo a 
rigorous four year post-graduate program that includes academic 
education, clinical training, and a required national exam. They are 
qualified to evaluate the effects of acoustic trauma and ear injuries 
on hearing; to detect underlying medical conditions; and to diagnose 
and treat tinnitus, hyperacusis, vestibular issues, auditory processing 
disorders, and hearing loss. Audiologists provide a complete diagnostic 
evaluation to veterans in need of hearing healthcare services. As you 
know, veterans frequently present with complex auditory and vestibular 
pathologies that may be exacerbated by tinnitus, Traumatic Brain 
Injury, or Post Traumatic Stress Disorder. They require and deserve the 
highest standard of care.
    Hearing aid specialists are trained in the fitting of hearing aids. 
While some states require a college-level associates degree as a 
minimum educational requirement to become a hearing aid specialist, 
many states still require only a high school diploma. Further, there 
are no national standards or dedicated curricula that outline the core 
competencies of a hearing aid specialist. In testimony before the U.S. 
Congress, the VA has expressed concern that the lack of standardized 
education for hearing aid specialists could lead to fragmented hearing 
healthcare services and limit delivery of comprehensive care.
    Timely access to care in the VA should not come at the expense of 
diminished access to high quality services provided by the most highly 
trained individuals. Given the minimal training required to become a 
hearing aid specialist in comparison to the extensive education and 
training of an audiologist, hearing aid specialists are ill-equipped to 
provide the quality hearing health services that our Nation's veterans 
require and deserve.
                          va hiring authority
    Another career classification for hearing aid specialists as 
proposed by S. 564 is unnecessary and administratively burdensome. The 
VA does not need additional legislative authority to hire hearing aid 
specialists. Both Title 5 of the U.S. Code and Pub. L. 113-146, the 
Veterans Access, Choice and Accountability Act (Choice Act), provide 
the VA the necessary authority to hire hearing aid specialists within 
the VA and to contract out to these individuals, as appropriate, in the 
fee-for-service market. The VA has established policies for hearing 
healthcare services that are intended to ensure best practices and to 
provide the highest level of care for veterans by emphasizing the need 
for a care team lead by an audiologist. We believe that the current VA 
model is appropriate to address the complex hearing healthcare needs of 
veterans.
    Further, S. 564 would add hearing aid specialists to the list of 
professionals eligible to provide healthcare services to veterans under 
Title 38 of the U.S. Code. Hybrid Title 38 is not the appropriate 
statutory authority under which to define the scope of practice for 
hearing aid specialists. The VA's hiring authority for these 
individuals should remain under Title 5. With the exception of 
positions created specifically for the VA, all other professionals 
listed under Hybrid Title 38 have higher education requirements (at 
least two years of college) and national standards for certification, 
and/or requirements to pass a national exam in order to establish 
standardized core competencies. While hearing aid specialists are 
licensed in each state to fit and dispense hearing aids, there is no 
uniformity among states in their standards. (See www.asha.org/
uploadedFiles/State-Licensure-Trends-Hearing-Aid-Dispensing.pdf)
    Hearing aid specialists are currently hired under the Health Aid 
and Technicians Series 0640 of Title 5. The level of education and 
training for hearing aid specialists is consistent with the knowledge, 
skills, and abilities of health technicians who work in the VA 
audiology clinics under the supervision of an audiologist. Many VA 
audiology health technicians are hearing aid specialists. VHA Handbook 
1170.02. Section 1170.02 defines the role of the audiology health 
technician in part, to increase productivity by reducing wait times, to 
enhance patient satisfaction, to reduce costs by enabling health 
technicians to perform tasks that do not require the professional 
skills of a licensed audiologist. The job of these technicians 
includes, for example, checks of hearing aids and other amplification 
devices, trouble shooting and minor repairs to hearing aids, ear molds 
and other amplification devices, and electroacoustic analysis of 
hearing aids. No modification of existing law is needed for the VA to 
hire or contract with the hearing aid specialist consistent with their 
scope of practice.
    The VA also has the capability to contract services for hearing aid 
specialists through its fee-for-service program ``where timely referral 
to private audiologists or other VHA facilities is not feasible or when 
the medical status of the veteran prevents travel to a VHA facility or 
a private audiologist.'' VHA Handbook 1170.02, Appendix A.
                       department of labor (cos)
    We believe that the VA is appropriately using hearing aid 
specialists in their role as technicians. This classification is 
supported by the Department of Labor Standard Occupational 
Classification (COS), which defines hearing aid specialists under 
``Broad Occupation: 29-2090 Miscellaneous Health Technologists and 
Technicians.'' This falls under a broader category of ``Health 
Technologists and Technicians'' (29-2000), and the major heading is 
``Healthcare Practitioners and Technical Occupations'' (29-0000). (See 
www.bls.gov/soc/2010/soc292092.htm) Occupation Code 29-2092 provides 
that a hearing aid specialist may:

        ``Select and fit hearing aids for customers. Administer and 
        interpret tests of hearing. Assess hearing instrument efficacy. 
        Take ear impressions and prepare, design, and modify ear molds. 
        Excludes ``Audiologists'' 29-1181).''

    Currently, hearing aid specialists can be hired by the VA as health 
technicians and work appropriately under the supervision of 
audiologists. According to the VA Handbook, technicians perform tasks 
that do not require the professional skills of a licensed audiologist. 
This is an appropriate model of care given the complex needs of 
veterans and the required level of care.
                  s. 564 will lead to fragmented care
    We remain deeply concerned that the legislation could lead to 
fragmented care due to the lack of uniformity in education and training 
required for the licensing of hearing aid specialists. Additionally, 
individuals seeking a dispensing license are not required to be 
trained, educated, or credentialed as health care professionals unless 
they choose to pursue an Applied Science Degree in Hearing Instrument 
Science. According to the International Hearing Society (IHS) Web site, 
there are currently seven programs offering an associate's degree in 
Hearing Instrument Sciences. A quick review of these programs shows no 
uniformity in program requirements. (See www.ihsinfo.org/IhsV2/
education/collegeprograms.cfm)
    Most states require hearing aid specialists to sit for an exam 
prior to getting their license; however, there is no uniformity among 
exams. Some require both practical and written exams, while some are 
written or practical only. Some require the IHS exam, while others 
devise their own. In order to sit for the exam, the individual must 
meet requirements that vary from state-to-state.
    In most states, hearing aid specialists are only required to have a 
high school diploma or general education diploma (GED) and training. 
Eleven states require hearing aid specialists to complete two years of 
college or post-secondary education in any field of study prior to 
applying for a license. Some states also require the completion of a 
distance learning program prior to taking the exam. A list of 
requirements by state can be found on ASHA's Web site at www.asha.org/
uploadedFiles/State-Licensure-Trends-Hearing-Aid-Dispensing.pdf.
    Those interested in obtaining a hearing aid dispensing license can 
obtain experience either by attaining an associate's degree in Hearing 
Instrument Science or gaining experience through an apprenticeship 
program. Many of these apprenticeship programs are run by hearing aid 
manufacturers who have a vested interest in selling their product. In 
most instances, hearing aid specialists acquire their training through 
apprenticeships and mentoring from other licensed hearing aid 
specialists. There is no uniformity in the continuity of practice and 
no real basis in science.
    We would like to bring to your attention an article that was 
published in the December 2013 edition of ``The Hearing Professional,'' 
which provides information on the two paths toward hearing dispensing 
licensure. This illustrates the fragmented and disparate nature of 
hearing aid specialist training. (See https://ihsinfo.org/IhsV2/
hearing_professional/2013/oct-dec/THP%20Q4%202013%20R2%20Low-
Res%20Web.pdf)
    We encourage you to review the desirable skills of an apprentice, 
which can be found on page 23. These skills do not reference education 
and training in healthcare, but rather emphasize characteristics, such 
as being good at your job, being driven, and being a salesman who stays 
on top of technology. Our veterans deserve healthcare practitioners 
dedicated to staying on top of science, research, and best practices, 
not the latest features of a hearing aid. In comparison, audiologists 
are doctoral-level professionals with education in the health sciences 
as well as extensive externship requirements.
    The VA is required to develop uniform standards and qualifications 
for professions identified in Hybrid Title 38. Given the disparity in 
licensure and education requirements that range from an associate's 
degree to a two year apprenticeship with a GED, it would be difficult 
for the VA to develop uniform standards and qualifications that are not 
based on the lowest level of education and training. This could result 
in the decrease in access to the highest quality of care.
                       intent of the legislation
    S. 564 would permit the VA to hire hearing aid specialists to 
independently deliver hearing healthcare services that currently can be 
provided only by licensed audiologists. While the stated intent of the 
legislation is to ensure that veterans have access to quality care, the 
reality is that the hearing aid specialists, represented by the IHS, 
are pursuing an expanded scope of practice through the VA system. Their 
primary goal is to achieve parity with audiologists both at the Federal 
and state levels. (See The Hearing Professional, Volume 62, No. 
4 October--November--December 2013, page 34). To this end, the hearing 
aid specialists are also advancing apprenticeship standards through the 
Department of Labor that go well beyond their scope of practice as 
defined in state licensing laws.
    S. 564 would permit hearing aid specialists to work independent of 
audiologists in the VA. While hearing aid specialists play an important 
role in the VA in support of audiologists, their training and education 
does not prepare them to work independently with veterans who 
frequently present with complex medical needs. The education and 
training of hearing aid specialists are not parallel to that of an 
audiologist, and Federal legislation should not be used to bolster the 
status of a profession.
    In sum, S. 564 has the potential to inappropriately elevate hearing 
aid specialists to a higher level of professional recognition, beyond 
their current education levels and Department of Labor classification 
as health technicians. Their training and education do not merit 
parity, through recognition under Hybrid Title 38, with audiologists or 
other health care professionals who have college and doctoral level 
degrees.
                    s. 564 and perceived wait times
    S. 564 is not a simple fix to alleviate wait times for the VA 
audiology services. The VA has specific requirements related to the 
delivery of hearing aids and related services. Prescriptions for 
hearing aids are based on a complete (not basic) diagnostic audiology 
evaluation, which is not within the scope of practice of hearing aid 
specialists, as well as a hearing aid evaluation, which is within the 
scope of a hearing aid specialist. Not all veterans are eligible for 
hearing aids. In addition, eligibility must be determined by an 
audiologist before the veteran schedules an audiologic evaluation.
    The argument that the hearing aid specialists can remove the burden 
of dispensing hearing aids from the VA audiologists' workload runs 
contrary to current policies of the VA, which require the best practice 
of both a compete audiologic evaluation and a hearing aid evaluation 
prior to the dispensing hearing aids. (See VHA Handbook 1170.07 
Appendix A www.va.gov/vhapublications?ViewPublication.asp? pub_ID=2397)
          implementation of choice act and oig recommendations
    ADA, AAA, and ASHA are aware that the VA Office of Inspector 
General (OIG) report dated February 20, 2014, found that the VA was not 
timely in issuing new hearing aids to veterans or in meeting timely 
goals to complete hearing aid repair services. We understand that the 
VA is currently working to implement the recommendations of this 
report.
    Additionally, our members are reporting that--since the 
implementation of the Choice Act--the VA is now contracting with more 
audiologists. It is our understanding that wait times that may have 
been in existence when the Act was first introduced three years ago 
have been reduced. We also strongly encourage the Committee to contact 
the VA to discuss the VA's plans for staffing and what the VA is 
currently doing to ensure timely access to hearing health services. We 
remain committed to working with the Committee to ensure quality, 
appropriate, and timely hearing healthcare services in the VA. As 
outlined above, S. 564 does not advance this effort. It simply furthers 
the interests of the hearing aid specialists in their attempt to 
practice audiology without the proper education, training, clinical 
experience, verification of knowledge, or license to practice. We urge 
you to table further discussion of S. 564 until the VA has had the 
ability to fully implement the Choice Act and recommendations made by 
the OIG, which we believe are the most appropriate means to improve 
access to hearing health services.
    The American Speech-Language-Hearing Association is the national 
professional, scientific, and credentialing association for 182,000 
members and affiliates who are audiologists; speech-language 
pathologists; speech, language, and hearing scientists; audiology and 
speech-language pathology support personnel; and students. ASHA 
supports its members through professional development, research, 
advocacy and public awareness of communication, hearing and balance 
disorders.
    The Academy of Doctors of Audiology is dedicated to the advancement 
of practitioner excellence, high ethical standards, professional 
autonomy and sound business practices in the provision of quality 
audiologic care.
    The American Academy of Audiology is the world's largest 
professional organization of, by, and for audiologists. The active 
membership of more than 12,000 is dedicated to providing quality 
hearing care services through professional development, education, 
research, and increased public awareness of hearing and balance 
disorders.
                                 ______
                                 
 Prepared Statement of the Children of Vietnam Veterans Health Alliance
    Thank you for holding a hearing on S. 564, the Veterans' Hearing 
Aid Access and Assistance Act. Children of Vietnam Veterans Health 
Alliance (COVVHA) stands in strong support of this badly needed 
legislation, which would increase veterans' access to hearing 
healthcare services by enhancing the Department of Veterans Affairs' 
(VA) ability to utilize hearing aid specialists.
    COVVHA is committed to serving as a voice for the children of 
Vietnam veterans, including second and third generation victims of 
Agent Orange and Dioxin Exposures worldwide. We believe in empowering 
each other to hold the companies and governments responsible for 
causing so much devastation and suffering to our generations.
    In April, the VA, in a statement to the Institute of Medicine, 
highlighted that nearly half the Veterans waiting for appointments at 
that time were waiting for audiological appointments.
    It is particularly troubling that the VA has not created an 
appropriate staffing model to meet the ever growing need for hearing 
services amongst veterans. With hearing loss and tinnitus continuing to 
be the most prevalent service-connected disabilities affecting veterans 
who receive disability compensation, failure to adjust staffing is 
unacceptable.
    S. 564 would allow the VA to hire hearing aid specialists--an 
ability the VA currently does not have the authority to do--and ask 
that the VA report back to Congress on an annual basis regarding wait 
times and the number of audiologists, hearing aid specialists, and 
hearing technicians hired by the VA. It truly is a common sense piece 
of legislation that would help deal with the current backlog faced by 
many of our Nation's veterans.
    As you may be aware, COVVHA expressed our support for S. 564 in a 
letter addressed to Senators Moran and Tester following the bill's 
introduction in the 114th Congress and we continue to strongly support 
the bill. We believe that passage of this bill will help those Veterans 
in need of hearing aids, who are unable to access them due to physical 
limitations, long distances to VA facilities, and long wait times for 
appointments.
    We encourage the Committee to continue to advance this bill, and 
Members of the Committee to support S. 564.
                                 ______
                                 
          Prepared Statement of Concerned Veterans for America
   s. 290 (moran), the increasing the department of veterans affairs 
                 accountability to veterans act of 2015
    To amend title 38, United States Code, to improve the 
accountability of employees of the Department of Veterans Affairs, and 
for other purposes.
    In the wake of last year's VA scandals, Congress approved a measure 
allowing for VA Senior Executive Service (SES) officials to be more 
easily removed from VA employment. However, more accountability is 
needed. This bill would make strides toward increasing accountability 
for SES officials by requiring that a removed employee's covered 
service not be considered for the calculation of the annual annuity for 
the individual, and by allowing the Secretary to order that the covered 
service of an employee who retires prior to a final determination not 
be considered for the annuity. Additionally, it further clarifies the 
criteria for yearly performance appraisals for SES employees, as well 
as restricts the amount of administrative leave--or any other paid non-
duty status--on which a given employee may be placed to 14 days in any 
365-day period.
    CVA SUPPORTS this legislation.
 s. 563 (moran/tester), the physician ambassadors helping veterans act
    To amend title 38, United States Code, to establish the Physician 
Ambassadors Helping Veterans program to seek to employ physicians at 
the Department of Veterans Affairs on a without compensation basis in 
practice areas and specialties with staffing shortages and long 
appointment waiting times.
    This legislation would establish a volunteer program that would 
allow qualified physicians to provide assistance on a no-compensation 
basis at VA medical centers that are experiencing staffing shortages, 
or in practice areas or specialties that exceed wait time goals 
established by the Department of Veterans Affairs. While this is no 
substitute for more comprehensive reform that addresses the issues 
faced by VA in a more systemic way, CVA believes that marshalling the 
resources of the community to serve veterans in need is an important 
short-term step toward addressing the issues of an understaffed VA, 
which often results in extended wait times for veterans in need of 
care.
    CVA SUPPORTS this legislation.
 s. 564 (moran/tester), the veterans hearing aid access and assistance 
                                  act
    To amend title 38, United States Code, to include licensed hearing 
aid specialists as eligible for appointment in the Veterans Health 
Administration of the Department of Veterans Affairs, and for other 
purposes.
    CVA has NO POSITION on this legislation.
s. 1450 (hirono), the department of veterans affairs emergency medical 
                 staffing recruitment and retention act
    To amend title 38, United States Code, to allow the Secretary of 
Veterans Affairs to modify the hours of employment of physicians and 
physician assistants employed on a full-time basis by the Department of 
Veterans Affairs.
    Current VA practices regarding schedule management for medical 
professionals are misaligned with best practices that are being 
utilized in the private sector. This legislation would provide 
statutory authorization to allow flexibility in scheduling that mirrors 
private sector practices, which will assist in recruiting and retention 
of medical professionals. CVA stands by its call for comprehensive VA 
reform, but we regard movement toward alignment with industry best 
practices as progress.
    CVA SUPPORTS this legislation.
      s. 1451 (hirono), the veterans' survivors claims processing 
                         automation act of 2015
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to adjudicate and pay survivor's benefits without 
requiring the filing of a formal claim, and for other purposes.
    CVA has NO POSITION this legislation.
  s. 1460 (brown/tillis), the fry scholarship enhancement act of 2015
    To amend title 38, United States Code, to extend the Yellow Ribbon 
G.I. Education Enhancement Program to cover recipients of the Marine 
Gunnery Sergeant John David Fry scholarship, and for other purposes.
    CVA has NO POSITION on this legislation.
                            s. 1693 (hirono)
    To expand eligibility for reimbursement for emergency medical 
treatment to certain veterans that were unable to receive care from the 
Department of Veterans Affairs in the 24-month period preceding the 
furnishing of such emergency treatment, and for other purposes.
    Under current law, in order to be eligible for reimbursement for 
emergency for care at a non-VA facility, enrolled veterans must have 
have received VA care within the preceding 24 months. In some cases, 
veterans have been denied this reimbursement despite the fact that they 
have requested and scheduled a new patient examination, though 
excessive wait times have prevented them from receiving the 
examination. This legislation would provide VA the flexibility to 
provide reimbursement to these veterans, who number as many as 144,000 
by some estimates. CVA believes this is a common-sense measure, 
particularly at a time when wait times remains a persistent problem in 
VA care access.
    CVA SUPPORTS this legislation.
                          s. 1856 (blumenthal)
    To provide for suspension and removal of employees of the 
Department of Veterans Affairs for performance or misconduct that is a 
threat to public health or safety and to improve accountability of 
employees of the Department, and for other purposes.
    While CVA appreciates this attempt to improve accountability for 
incompetent VA employees, we believe that the standard employed in this 
legislation sets the bar too low. It goes without saying that VA 
employees who threaten public health or safety should not be granted 
safe haven in VA. CVA, however, is concerned that this legislation 
would fail to hold accountable employees who fail to live up to their 
responsibilities to veterans, even if their actions do not rise to the 
level of threatening public health and safety. As such, we cannot 
support this legislation, and we instead urge support of S. 1082, the 
VA Accountability Act.
    CVA OPPOSES this legislation.
   s. 1938 (blumenthal/tillis), the career ready student veterans act
    To amend title 38, United States Code, to improve the approval of 
certain programs of education for purposes of educational assistance 
provided by the Department of Veterans Affairs, and for other purposes.
    CVA has NO POSITION on this legislation.
                            discussion draft
    To make improvements in the laws administered by the Secretary of 
Veterans Affairs relating to educational assistance, and for other 
purposes.
    CVA has NO POSITION on this legislation.
                                 ______
                                 
 Prepared Statement of Adrian M. Atizado, Deputy National Legislative 
                  Director, Disabled American Veterans
    Thank you for inviting DAV (Disabled American Veterans) to submit 
testimony for the record of this legislative hearing, and to present 
our views on the bills under consideration. As you know, DAV is a non-
profit veterans service organization comprised of nearly 1.3 million 
wartime service-disabled veterans. DAV is dedicated to a single 
purpose: empowering veterans to lead high-quality lives with respect 
and dignity.
s. 290, increasing the department of veterans affairs accountability to 
                              veterans act
    This bill would make significant changes to the status, working 
conditions, incentives, and environment of work of members of the 
Senior Executive Service (SES) who work in the Department of Veterans.
    Section 2 of his bill would impose reduction in retirement benefits 
of a removed member of the SES of the Department of Veterans Affairs 
(VA) if that former member were convicted of a felony, provided the 
felony influenced the individual's performance while employed in the 
previous VA position. The bill would establish a number of procedures 
to govern and regulate the retirement reduction and its amount, and 
would define the pertinent terms associated with this authority.
    Section 3 would establish a new performance appraisal system to be 
used in VA for its SES members, and would cap the rating levels of 
``outstanding'' and ``exceeds fully successful'' in any year not to 
exceed 10 percent and 20 percent of the members of the VA SES whose 
performance is appraised, respectively.
    This section also would require SES performance evaluations to 
include review and consideration of relevant information from the VA 
Inspector General (IG), Government Accountability Office (GAO) and the 
Equal Employment Opportunity Commission, related to any facility or 
program managed by the SES member whose performance is being evaluated 
and rated.
    This section would also require each member of the VA SES to 
relocate each five-year period to a different location that would 
exclude the supervision of the personnel or programs managed in the 
prior position. The Secretary could waive this requirement in 
individual cases by providing notice and explanation to the Committees 
on Veterans Affairs of the House and Senate.
    This section would require VA to make an annual report to Congress 
on SES appraisals and related information, and require VA to contract 
with an outside entity to review the SES management training program in 
use in VA, compared to that of other agencies and private sector 
organizations, and to make associated reports to the VA Secretary and 
to Congress.
    Section 4 of the bill would impose a 14-day limit on the use of 
administrative leave for VA SES members, and would require VA to make 
an annual report to Congress on the use of administrative leave by SES 
members.
    The delegates to our most recent National Convention approved 
Resolution No. 214, calling for the imposition of meaningful employee 
accountability measures in VA, but with due process for employees 
targeted for such sanctions, to strike a balance between accountability 
and VA's need to employ the best and brightest to serve veterans. Thus, 
we support the sanctions embedded in section 2 of the bill in the wake 
of a criminal conviction by a member or former member of the VA SES. 
This policy should be made applicable to all Federal agencies.
    Regarding section 3 of the bill, we understand the desire to make 
VA's performance bonus system more meaningful by statutorily limiting 
the number of senior executives eligible to receive top performance 
ratings and thus qualify for performance bonuses. However, the VA is 
but one of all Federal agencies competing to attract high performing 
senior executives; it is important that VA's performance bonus 
structure remain comparable to that of other Federal agencies, many of 
which award executive bonuses at significantly higher rates than VA. 
Any changes to VA's SES compensation structure must properly balance 
these sometimes competing concerns to ensure that VA is able to recruit 
and retain the most highly qualified executives and managers.
    In addition, the mandatory relocation provision in this bill is 
vague with respect to defining ``a different location.'' We caution 
against forcing individuals and their families to move every five 
years, a requirement that may serve as a disincentive for even high 
performing employees to continue their careers with VA.
           s. 563, physician ambassadors helping veterans act
    This bill would require the VA Secretary to employ certain 
physicians without regard to civil service or classification laws, 
rules, or regulations, on a without-compensation basis in any VA 
practice area or specialty for which the average waiting time for 
veterans seeking an appointment with a physician exceeds the VA's 
waiting time goals, or, at any VA medical facility where the physician 
would be employed has demonstrated certain staffing shortages.
    The bill would require each VA medical facility to designate a 
coordinator of volunteer physicians to establish relationships with 
medical associations serving the area, recruit physicians for 
uncompensated employment at the VA facility, and serve as the initial 
point of contact for physicians seeking uncompensated employment.
    The bill would require a physician volunteer to commit to providing 
a minimum of 40 hours for the initial year as a condition of receiving 
credentials and privileges to practice in a VA facility, and the bill 
would require the Secretary to decide whether to grant an uncompensated 
physician's request for credentials and privileges to practice in the 
VA facility within 60 days of a filed application.
    The bill would require the director of a VA medical facility to 
approve, and accept the uncompensated services of, any physician who 
has made the requisite service commitment and receives credentials and 
privileges to practice in the facility.
    DAV has received no resolution on this specific matter, but would 
offer no objection to enactment. Nevertheless, given VA's struggles 
over the past several years in recruiting and employing clinical and 
other personnel, but especially physicians, for both full- and part-
time appointments, and considering the priority and resource diversion 
this act would impose on VA's limited human resources activities, we 
question whether the administrative burden might be too heavy, given 
that these physician ambassadors would be committing so little time to 
their practices in VA facilities. Also, the credentialing and 
privileging procedures are complex and time consuming, and would be as 
complicated for these volunteers as they are for full- or part-time VA 
physicians. For these reasons, we ask that the Committee carefully 
consider the practicality of this bill versus VA's need to ramp up 
human resources improvements physician hiring indicated recently by VA 
Secretary Bob McDonald, to be one of VA's top priorities.
         s. 564, veterans hearing aid access and assistance act
    This bill would add authority under title 38, United States Code, 
to VA's current authority under title 5, United States Code, to employ 
licensed hearing aid specialists. In addition, the measure would 
require VA to submit to Congress an annual report on the timely access 
of veterans to VA's specialized hearing health services, and on VA's 
contracting policies regarding the provision of specialized hearing 
health services to veterans in non-VA facilities.
    In a previous Congress, VA testified on a similar bill authorizing 
hearing specialists to be employed by VA. During that hearing, VA 
indicated that direct employment of hearing aid specialists would 
potentially fragment VA's well-established national audiology program. 
In addition, VA asserted a pre-existing statutory authority to employ 
hearing aid specialists should they be determined to meet an unmet 
need.
    The VA Office of Inspector General's (OIG) 2014 audit of VA's 
specialized hearing aid services described the delays in providing such 
services as attributable to inadequate staffing to meet an growing 
workload, due in part to the large number of veterans requiring 
compensation and pension (C&P) audiology examinations. We understand 
that these C&P examinations typically take priority over other 
appointments, such as those to issue hearing aids, in order for VA to 
process C&P claims as timely as possible.
    Accordingly, the waiting time report required by this bill would 
include the average waiting time for a veteran to receive an 
appointment for a disability rating evaluation for a hearing-related 
disability. This time would be measured beginning on the date the 
veteran made the request.
    The vast majority of C&P audiology examination appointments in the 
VHA are not made at a veteran's request but rather at the request of 
the Veterans Benefits Administration. We believe the no-show rate is 
much higher in these instances where an appointment is made without 
regard to the veteran's preference.
    We recommend amending these provisions to ensure the information 
being reported is more meaningful and provides greater granularity, 
particularly if VA policy continues to place a higher priority on C&P 
examinations over other hearing health appointments.
    Moreover, the bill's required reporting of staffing levels and 
performance measures related to appointments and specialized hearing 
health within VHA should be considered in light of VHA's audiology 
productivity standards (due to commence in fiscal year 2016) to provide 
a more accurate depiction of utilization rates of audiologists and 
hearing aid specialists in and outside of the VA health care system.
    We laud the bill's efforts to create more transparency in VA 
performance to provide specialized hearing health services; however, 
the Committee must also ensure that sufficient funding is appropriated 
commensurate with the increase in services this measure would intend to 
provide. DAV has not received a resolution from our membership dealing 
with the specific matter taken up by this bill; however, DAV takes no 
issue with Congress encouraging VA to use all professional avenues 
available in order to address the backlog and improve care for veterans 
as long as it does not diminish the quality of care and the capacity to 
provide such care within the VA health care system itself.
  s. 1450, department of veterans affairs emergency medical staffing 
                     recruitment and retention act
    The proposed authority would align VA practice with the private 
sector, facilitating the recruitment and retention of emergency 
physicians and the recruitment, retention and operation of a 
hospitalist physician system in VA medical centers.
    To accommodate the need for continuity of efficient hospital care, 
emergency medicine (EM) physicians often work irregular schedules. This 
measure would modify the hours of employment for a full-time physician 
or physician assistant to more or less than 80 hours in a biweekly pay 
period provided the employee's total hours of employment in a calendar 
year would not exceed 2,080. Consequently, VA medical centers would 
gain the ability to implement flexible physician and physician 
assistant work schedules that could accommodate hospitalist and EM 
physicians' schedules and practices.
    DAV does not have a resolution calling for this specific 
legislation; however, because of the measure's beneficial nature, we 
would not oppose its favorable consideration.
 s. 1451, veterans' survivors claims processing automation act of 2015
    This bill would authorize the VA Secretary to pay benefits to a 
qualified survivor of a veteran who did not file a formal claim, 
provided the veteran's records contained sufficient evidence to 
establish entitlement to survivor benefits to a qualified survivor. 
Additionally, the bill would require VA to associate the date of the 
receipt of a claim under this authority as the date of the survivor's 
notification to VA of the death of the veteran.
    Providing a reasonable exemption from standard form-filing 
requirements is one way to streamline the claims process, as well as 
ease some of the processing burdens a survivor would otherwise 
experience. DAV supports this bill in accordance with Resolution No. 
091, adopted at our most recent National Convention. This resolution 
calls on Congress to support meaningful reforms in the Veterans 
Benefits Administration's disability claims process, and this bill is 
consistent with that goal.
    Furthermore, DAV testified before the Disability and Memorial 
Affairs Subcommittee of the House Veterans' Affairs Committee on 
June 24, 2015, in support of H.R. 2691, the Veterans' Survivors Claims 
Processing Automation Act of 2015, a companion measure.
            s. 1460, fry scholarship enhancement act of 2015
    This bill would amend title 38, United States Code, to extend the 
Yellow Ribbon Post-9/11 G.I. Bill education enhancement program to 
cover eligible recipients of the Marine Gunnery Sergeant John David Fry 
Scholarship.
    Currently, surviving spouses and children are eligible to receive 
Post-9/11 G.I. Bill benefits in cases when a servicemember's death 
occurs in the line of duty, on or after September 11, 2001, and while 
serving on active duty as a member of the Armed Forces. Yellow Ribbon 
eligibility currently does not apply to the surviving spouse or child, 
but this bill would extend this benefit to the fallen servicemember's 
eligible survivor(s).
    DAV does not have a resolution pertaining to this issue, but we 
would not oppose this legislation.
 s. 1693, a bill to expand eligibility for reimbursement for emergency 
medical treatment to certain veterans that were unable to receive care 
    from the department of veterans affairs in the 24-month period 
          preceding the furnishing of such emergency treatment
    Section 1725, title 38, United States Code, was enacted in the 
Millennium Health Care and Benefits Act, Public Law 106-117, and took 
effect on May 29, 2000. The statute authorizes the Secretary to 
reimburse an eligible, non-service-connected veteran the reasonable 
value of emergency treatment furnished in a non-Department facility.
    To be considered an active Department health-care participant at 
the time of the emergency treatment, a veteran must be enrolled in the 
VA health care system and have received care under chapter 17 of title 
38, United States Code, within the 24-month period preceding the 
furnishing of the emergency treatment.
    DAV has a long-standing resolution to eliminate the provision that 
requires enrolled veterans to have received care from VA within the 24-
month period prior to the date of the emergency care. However, we note 
Congress has passed legislation over the years to address numerous 
issues veterans with which veterans have had to contend due to rules 
limiting eligibility to VA's emergency care benefit. While we support 
the intent of this legislation, this approach allows many other 
existing restrictions to remain in place. These restrictions force 
veterans to choose between seeking life-saving emergency care or facing 
financial hardship.
    It is for this reason the delegates to our most recent national 
convention adopted DAV resolution No. 125, calling for a more 
comprehensive legislative solution to integrate emergency care as part 
of VA's medical benefits package and allow veterans to receive the 
full-continuum, including emergency care, of holistic patient-centered 
services. Thus, DAV supports this bill.
 s. 1856, a bill to provide for suspension and removal of employees of 
 the department of veterans affairs for performance or misconduct that 
is a threat to public health or safety and to improve accountability of 
                      employees of the department
    If enacted, this bill would establish new procedures to govern the 
suspension and removal of employees of the VA for performance or 
misconduct that is determined to be a threat to public health or 
safety, or, to suspend or remove an employee in the interests of public 
health or safety.
    Section 2 of the bill would empower the VA Secretary on a 
discretionary basis to suspend or remove an employee in the above 
circumstances, without pay; the employee so affected would be provided 
a written statement of charges, and would be given not less than seven 
days to provide a response to them. A suspended employee pending 
removal would be entitled to a formal review by a designated VA 
official, and could be represented by an attorney or another party. In 
the case of an affirmed removal recommendation, the Secretary would be 
required to review the case, and VA would provide the employee a 
written statement of the Secretary's decision.
    An individual suspended or removed under this authority would be 
entitled to appeal to the Merit Systems Protection Board (MSPB), and 
would retain the right to seek judicial remedy of MSPB's decision.
    The bill would provide back pay restoration to an employee 
suspended or removed whose case was later determined to be not 
warranted or constituted a prohibited personnel practice as that term 
is defined by law, rule, regulation, or collective bargaining 
agreement.
    The bill would require an annual report by the VA Inspector General 
(IG) to Congress on VA's use of this authority, its various elements, 
and any associated IG recommendations made to the VA Secretary.
    Section 3 of this bill would create a requirement for the VA 
Secretary to establish performance plans for political appointees 
similar to those which already exist for career appointees.
    Section 4 would require all VA managers who supervise probationary 
employees to provide them not less than 30-day notices on whether they 
have demonstrated successful performance during their probationary 
periods. This section would also require VA to add to the performance 
plans of all managers of probationary employees a requirement to 
provide effective feedback to probationary employees, and to make 
timely determinations regarding these employees' probationary status.
    Section 5 of the bill would require VA to include in all VA 
managers' performance plans measures that focus on taking action in the 
case of poor performance and misconduct, as well as improving 
performance and sustaining employee engagement.
    Section 6 would require VA to provide periodic training to all 
managers in dealing with their employees, including training in the 
rights of whistleblowers, motivating and rewarding employees, and 
effectively managing poor performers.
    Section 7 of the bill would establish a requirement for VA to 
create a new career field of ``technical experts,'' who would gain the 
means to advance their careers without needing to become VA managers.
    Section 8 of the bill would add performance evaluations of VA 
employees to the definition of ``personnel action'' as described in 
section 2302 of title 5, United States Code.
    Sections 9 and 10 of the bill would restrict recently terminated VA 
employees who had previously made or influenced significant acquisition 
decisions in employment with VA contractors under certain 
circumstances, and would place additional requirements on such 
contractors who hire these former VA employees.
    Section 11 would impose a 14-day limit on the use of administrative 
leave for certain VA employees, and would require VA to make an annual 
report to Congress on the use of administrative leave.
    Section 12 of the bill would require the Office of Medical 
Inspector to provide an annual report to Congress, as well as to 
provide Congress individual reports of problems or deficiencies in the 
Veterans Health Administration observed and reported internally by the 
Medical Inspector.
    Section 13 of this bill would require the Government Accountability 
Office to report to Congress on the implementation of section 713 of 
title 38, United States Code (enacted in Public Law 113-146), focused 
on performance and accountability of VA employees, and on recruitment 
and retention of Senior Executive Servicemembers in the VA.
    Delegates to our most recent National Convention approved 
Resolution No. 214, calling for the imposition of meaningful employee 
accountability measures in VA, but with due process for employees 
targeted for such sanctions. Parts of this bill meet the intent of 
DAV's resolution; therefore, DAV supports enactment of sections 2 
through 6. Nevertheless, with respect to section 2, DAV recommends that 
the term ``public health'' and ``public safety'' either be defined in 
bill language or be reconsidered as the foundation for the authority 
proposed.
    The World Health Organization defines public health as `` * * * 
refer[ring] to all organized measures (whether public or private) to 
prevent disease, promote health, and prolong life among the population 
as a whole. Its activities aim to provide conditions in which people 
can be healthy and focus on entire populations, [emphasis added] not on 
individual patients or diseases. Thus, public health is concerned with 
the total system and not only the eradication of a particular disease. 
The three main public health functions are:

    <bullet> The assessment and monitoring of the health of communities 
and populations at risk to identify health problems and priorities.
    <bullet> The formulation of public policies designed to solve 
identified local and national health problems and priorities.
    <bullet> To assure that all populations have access to appropriate 
and cost-effective care, including health promotion and disease 
prevention services.''

    Public safety carries a looser definition but generally means the 
responsibility of a state, Federal or local governmental subdivision 
that protects the safety of the public. Those who work in public safety 
are typically members of organizations such as emergency medical 
services, police and fire departments, and other governmental functions 
that are intended to keep the public safe.
    By these definitions, arguments could made that, except in a few 
instances (biomedical researchers handling hazardous toxins, or armed 
VA police officers, for example) VA employees play no role in public 
health or public safety--rather, VA employees work in, conduct, and 
manage programs to deliver services and benefits to a fraction of the 
public. On the other hand, perhaps these terms could be applied to any 
number of activities or events in which VA employees might have been 
involved or managed, and could be held accountable (contaminated food; 
poor water quality; inadequate snow removal from parking lots; wet or 
slick waxed floors that constitute a falling hazard, etc.).
    We believe the Committee should clarify the intent of the bill with 
respect to the use of the concepts of public health and public safety, 
to avoid misinterpretation or misapplication of its meaning if this 
bill is advanced. We suggest consideration of concepts adapted from the 
Uniform Code of Military Justice such as ``gross negligence,'' 
``incompetence,'' and ``willful misconduct'' as actionable behaviors. 
These terms might serve as a stronger foundation to reflect the intent 
of this measure to root out VA employees who should not be serving 
veterans for specific and justifiable reasons.
               s. 1938, career ready student veterans act
    This bill would ensure that VA education benefits are paid for duly 
recognized educational and employment programs and courses.
    VA and state approving agencies are authorized to approve 
applications of institutions providing veterans non-accredited courses. 
Approval is authorized when institutions and their non-accredited 
curricula are found to meet criteria specified in law.
    This bill would add two new standards for such approvals. First, 
approval could be granted in cases of programs designed to prepare 
individuals for licensure or certification in a state when programs 
meet any instructional curriculum, licensure or certification 
requirements of the state concerned. Second, approval could be given in 
cases of certain programs if they are designed to prepare individuals 
for employment.
    The bill also would provide the Secretary with waiver authority 
when warranted and also require the Secretary to disapprove certain 
courses, unless the educational institution providing the course of 
education publicly discloses any conditions or additional requirements, 
such as training, experience, or examinations required to obtain 
licenses, certifications, or approval for which the course of education 
is designed to provide preparation.
    On June 2, 2015, DAV testified before the Economic Opportunity 
Subcommittee of the House Veterans' Affairs Committee regarding H.R. 
2360, the Career-Ready Student Veterans Act, the companion bill. At 
that hearing, we noted DAV did not have a resolution from our 
membership on this particular issue, but would not oppose passage of 
this bill; our position remains unchanged.
discussion draft, to make improvements in the laws administered by the 
    secretary of veterans affairs relating to educational assistance
    This bill seeks to make changes in educational programs authorized 
in title 38, United Stated Code. If enacted into law, these changes 
would affect the Post-9/11 GI Bill program and require additional 
reporting and survey responsibilities. The legislation also addresses 
when certain entities petition the VA for recognition as a qualified 
program of education for VA benefits purposes. Furthermore, the bill 
would make changes to the amounts payable to certain public 
institutions, including institutions of higher learning when specific 
contractual agreements are formed.
    DAV does not have a resolution pertaining to the issues outlined 
within this bill and takes no position on the proposed legislation.

    Mr. Chairman and Members of the Committee, this concludes DAV's 
testimony. We thank the Committee for inviting DAV to submit this 
testimony for the record of this hearing. DAV is prepared to respond to 
any further questions by Committee Members on the positions we have 
taken with respect to the bills under consideration.
                                 ______
                                 
     Prepared Statement of John L. Stonecipher, President and CEO, 
                           Guidance Aviation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement by Elizabeth Welke, J.D., Legislative Associate, 
                Iraq and Afghanistan Veterans of America

 
------------------------------------------------------------------------
  Bill #    Bill Name or Subject          Sponsor          IAVA Position
------------------------------------------------------------------------
    S.290 Increasing the                   Sen. Moran        Supports
           Department of
           Veterans Affairs
           Accountability to
           Veterans Act of 2015
------------------------------------------------------------------------
    S.563 Physician Ambassadors     Sen. Moran/Tester        Supports
           Helping Veterans Act
------------------------------------------------------------------------
    S.564 Veterans Hearing Aid      Sen. Moran/Tester        Supports
           Access and
           Assistance Act
------------------------------------------------------------------------
   S.1450 Department of                   Sen. Hirono        Supports
           Veterans Affairs
           Emergency Medical
           Staffing Recruitment
           and Retention Act
------------------------------------------------------------------------
   S.1451 Veterans' Survivors             Sen. Hirono        Supports
           Claims Processing
           Automation Act of
           2015
------------------------------------------------------------------------
   S.1460 Fry Scholarship           Sen. Brown/Tillis        Supports
           Enhancement Act of
           2015
------------------------------------------------------------------------
   S.1693 A Bill to Expand                Sen. Hirono        Supports
           Eligibility for
           Reimbursement for
           Emergency Medical
           Treatment to
           Veterans
------------------------------------------------------------------------


    Chairman Isakson, Ranking Member Blumenthal and Distinguished 
Members of the Committee, on behalf of Iraq and Afghanistan Veterans of 
America (IAVA) and our more than 425,000 members and supporters, we 
would like to extend our gratitude for the opportunity to share our 
views and recommendations regarding these pieces of legislation.
    While there are many important bills before the Committee today, 
the most pressing topic our members and the veteran community continue 
to urge action on is accountability at the Department of Veterans 
Affairs (VA).
    Just under a year and a half ago, whistleblowers revealed a wait-
list at the Phoenix VA hospital that rocked the veterans community and 
the Nation. It was revealed some employees engaged in the manipulation 
of wait times. The scandal did not stop in Phoenix; 110 VA facilities 
across the country also kept secret lists in order to hide wait times. 
Congress responded with the Veterans Access, Choice and Accountability 
Act (VACAA) in order to empower VA to clean up its personnel problems.
    In addition to VACAA, IAVA supported the House-passed VA 
Accountability Act (H.R. 1994), which expands the firing authority 
authorized in VACAA from SES employees to the greater VA workforce. 
IAVA believes the vast majority of VA employees perform their job 
properly and to the utmost of their ability, but it is the occasional 
bad actor that needs to be held accountable so our veterans do not have 
to endure another Phoenix-like episode again.
    In a recent health care survey, 50 percent of IAVA members reported 
utilizing VA services, so IAVA understands the need for reform at the 
VA, and we believe reform begins with accountability of all VA 
employees. Ranking Member Blumenthal's bill (S. 1856) is a step in the 
right direction in getting VA accountability legislation passed in the 
Senate. However, IAVA takes no position on this bill at this time 
because we believe certain provisions of this bill lack the strength 
necessary to actually hold VA employees accountable.
    The removal of employees under this bill can only be authorized by 
the VA Secretary if the employee's performance or misconduct is a 
``clear and direct threat to public health or safety.'' This standard 
is extremely high and vague; few could possibly meet this standard, 
maybe not even those employees who were responsible for the heinous 
actions that occurred at the Phoenix VA. The VA Secretary needs real 
authority and the ability to remove actual bad employees, not just 
those deemed ``a clear and direct threat'' to the public.
    While S. 1856 is not as aggressive as IAVA prefers, we do recognize 
value in this bill as a path forward on VA accountability in the 
Senate. IAVA is concerned the Senate may come to an impasse when it 
comes to VA reform and this bill, and others relating to VA 
accountability, will be used as political fodder in the upcoming 
election cycle. This would not only be a mistake, it would be a huge 
disservice to our Nation's veterans. As a community, we have to find a 
strong middle ground going forward when it comes to accountability at 
the VA, or our veterans will suffer the consequences.
    While accountability at the VA is a top priority for IAVA, 
defending the Post-
9/11 GI Bill continues to be of high importance for IAVA and our 
members. According to IAVA's 2014 Member Survey, 62 percent of 
respondents indicated either they or their dependent have used the 
Post-9/11 GI Bill and 42 percent of respondents also indicated they are 
currently enrolled in a degree, certification or training program.
    IAVA was a leader in driving the passage of the Post-9/11 GI Bill 
in 2008 and championed upgrades in 2009 that expanded eligibility to 
more than 500,000 veterans. Despite the enormous success of this piece 
of legislation, there is a continuous need to protect against fraud, 
waste and abuse.
    An example of such waste and abuse is in regards to helicopter and 
fixed wing flight schools. A loophole in the Post-9/11 GI Bill allows 
flight schools to work as contractors for public institutions and train 
veterans completely at the expense of the government and at twice the 
amount non-veterans pay, which amounts to tens of millions of taxpayer 
dollars each year. According to a VA investigation, it costs $1,800 per 
hour of flight training and students are required to train for 200 to 
300 hours. For one veteran to receive training it could cost up to 
$500,000 in Post-
9/11 GI Bill benefits, as reported by the L.A. Times. If this is not an 
abuse of the VA benefits system, then there is not much else that will 
be considered waste.
    On March 24, 2015, IAVA testified in front of the House Veterans' 
Affairs Committee Economic Opportunity Subcommittee, where we strongly 
supported Chairman Wenstrup's GI Bill Quality Enhancement Act (H.R. 
476), which caps flight school training fees at $20,235 per year in 
order to prevent exorbitant costs for high-end training programs.
    Unfortunately, the Discussion Draft put forth at today's 
legislative hearing only serves to further the abuse of Post-9/11 GI 
Bill benefits as it places caps on certain programs but purposefully 
leaves out flight school programs. IAVA strongly supports capping pay 
for flight schools and a bill that leaves out a provision for such 
obvious waste does a disservice to all veterans and weakens the intent 
of the Post-9/11 GI Bill.
    At IAVA, we believe our members, and all veterans, deserve the very 
best our Nation can offer when it comes to fulfilling the promises made 
to them upon entry into the military. There is no doubt every Member of 
this Committee has the best interests of our veterans in mind when 
drafting legislation. But we do hope you take into consideration and 
implement what we, and our fellow veteran service organizations, have 
had to say on these pieces of legislation today.

    Thank you for your time and attention. IAVA is happy to answer any 
questions you may have.
                                 ______
                                 
       prepared statement from the international hearing society
   s. 564, the veterans hearing aid access and assistance act of 2015
    Chairman Isakson, Ranking Member Blumenthal, and esteemed Members 
of the Committee: International Hearing Society thanks you for the 
opportunity to comment on S. 564. IHS stands in full support of the 
bill, which would create a new provider class for hearing aid 
specialists within the Department of Veterans Affairs (VA), thereby 
enabling the VA to hire hearing aid specialists to help deliver hearing 
aid services to Veterans. The bill would also require the VA to report 
annually to Congress on appointment wait times and the utilization of 
providers for hearing-related services, which would make the VA's 
efforts to address the backlog more transparent and provide much needed 
data to inform Congress about Veterans' experiences in accessing 
hearing aid services through the VA.
    The International Hearing Society, founded in 1951, is a 
professional membership organization that represents hearing aid 
specialists, dispensing audiologists, and dispensing physicians, 
including the approximately 9,000 hearing aid specialists who practice 
in the United States. IHS promotes and maintains the highest possible 
standards for its members in the best interests of the hearing-impaired 
population they serve by conducting programs in competency 
accreditation, testing, education and training, and encourages 
continued growth and education for its members through advanced 
certification programs.
    The VA continues to see a dramatic rise in the demand for audiology 
services. According to the VA the number of unique Veterans that 
received VA audiology services in FY 2014 was 903,075, an increase of 
19% since 2011, with 52,138 new Veterans in 2014 alone (a 5.8% 
increase) \1\ \2\. The number of hearing aids ordered per year by the 
VA has also dramatically increased with more than 800,000 ordered in 
2014,\3\ up 34% since 2011.\4\ With tinnitus and hearing loss being the 
two most prevalent service-connected disabilities for veterans 
receiving Federal compensation combined with the aging Veteran 
population, the demand will continue to rise. And despite clinical 
audiologist-hiring within the VA following a similar growth track with 
a 26% increase in staffing between 2011 and 2015,\5\ \6\ the high 
demand and subsequent backlog continue to affect the VA's ability to 
deliver timely and high-quality hearing healthcare.
---------------------------------------------------------------------------
    \1\ David Chandler, Ph.D., ``Perspective from Department of 
Veterans Affairs,'' Presentation to the Institute of Medicine's 
Committee on Accessible and Affordable Hearing Health Care for Adults, 
April 27, 2015
    \2\ Lucille Beck, Ph.D., ``Meeting the Challenges of VA Audiology 
Care in the 21st Century,'' presentation to the Association of VA 
Audiologists, March 19, 2012
    \3\ Chandler, ``Perspective from Department'' (see footnote 1)
    \4\ Beck, ``Meeting the Challenges'' (see footnote 2)
    \5\ Chandler, ``Perspective from Department'' (see footnote 1)
    \6\ Beck, ``Meeting the Challenges'' (see footnote 2)
---------------------------------------------------------------------------
    IHS and its members have a great deal of respect for VA 
audiologists. They provide a wide variety of critical services to our 
Veterans, including compensation and pension exams (over 151,000 
performed in 2012 \7\), programming and providing support for cochlear 
implant implantation and use, vestibular (balance) disorder services, 
tinnitus services, hearing conservation, hearing aid services and 
assistive device use, and advanced hearing testing. They also partner 
with several medical disciplines and are part of the Traumatic Brain 
Injury and Polytrauma teams, addressing balance and auditory issues. 
Further, VA audiologists also responsible for training and supervising 
audiology health technicians.
---------------------------------------------------------------------------
    \7\ VA Office of Inspector General, ``Audit of VA's Hearing Aid 
Services,'' February 20, 2014
---------------------------------------------------------------------------
    The high demands on VA audiologists' time and expertise means that 
the VA is not currently able to meet all Veterans' needs for hearing 
healthcare services. To that point, in February 2014, the VA Inspector 
General released a report, ``Audit of VA Hearing Aid Services'' that 
found that ``during the 6-month period ending September 2012, VHA 
issued 30 percent of its hearing aids to veterans more than 30 days 
from the estimated date the facility received the hearing aids from its 
vendors.'' The audit also found that deliveries of repaired hearing 
aids to Veterans were subject to delay partially due to ``inadequate 
staffing to meet an increased workload, due in part to the large number 
of veterans requiring C&P audiology examinations.'' Further, in an 
April 2015 presentation to the Institute of Medicine's Committee on 
Accessible and Affordable Hearing Health Care for Adults, VA 
Rehabilitation and Prosthetic Services Department Chief Consultant, 
David Chandler, Ph.D., cited that ``nearly half of all patients 
awaiting care in the VA are for audiology services.''
    In a practical sense, as a result of the backlog and delays, many 
Veterans are experiencing long wait times for appointments, shortened 
appointments, and limited follow-up care and counseling. Hearing aid 
specialists are observing an increase in the number of Veterans who 
seek care in their private offices as well. These Veterans request 
hearing aid specialists' help with hearing aid adjustments and repairs, 
oftentimes because they do not want to wait for the next available VA 
appointment, which may be months away, or because the distance to the 
closest VA facility that offers audiology services is too far to 
travel. There are also many Veterans who choose to purchase hearing 
aids at their own expense through a private hearing aid specialist, 
rather than using the benefits they've earned and are entitled to, 
because they want to work with someone local who they trust and ensure 
their hearing aids are properly programmed, address their loss, and can 
be adjusted or repaired in a timely fashion. This relationship also 
enables them to obtain support from their hearing professional on 
demand, which is important to those with daily commitments or who are 
employed, and is especially critical to those who are new users of 
hearing aids. For a point of reference, in the private market, a new 
user would typically see their hearing aid specialist 4-6 times in the 
first three to six months to help them to adapt to a hearing world and 
optimize their success with hearing aids.
    Considering the safety risks involved as well as the impact 
untreated hearing loss can have on one's personal relationships and 
mental well-being, the VA needs an immediate solution to deal with the 
backlog and get Veterans the help they need. We also know that our 
working-age Veterans are anxious to contribute to society through 
employment, and properly fit and programmed hearing aids are necessary 
for their success in obtaining and maintaining meaningful employment.
    S. 564 provides the VA a much needed solution by creating a new 
provider class for hearing aid specialists to work within the VA. 
Hearing aid specialists can help the VA hearing healthcare team by 
providing hearing aid evaluations; hearing aid fittings and 
orientation; hearing aid verification and clinical outcome 
measurements; customary after care services, including repairs, 
reprogramming and modification; and the making of ear impressions for 
ear molds--just as they are currently authorized to do in the VA's fee-
for-service contract network.
    By adding hearing aid specialists to the audiology-led team to 
perform these specialized hearing aid services independently, 
audiologists will be able to focus on Veterans with complex medical and 
audiological conditions, as well as perform the disability evaluations, 
testing, and treatment services for which audiologists are uniquely 
qualified to provide--thereby maximizing efficiency within the system 
and supporting the team-based approach, a common model in the private 
market. Adoption of the hearing aid specialist job classification at 
this juncture will also be advantageous given the fact that VA 
Audiology and Speech Pathology Service management will be developing 
staff and productivity standards as a result of the Inspector General's 
audit and recommendations,\8\ and would be able to consider the use of 
hearing aid specialists as they develop their model.
---------------------------------------------------------------------------
    \8\ VA Office of Inspector General report ``Audit of VA's Hearing 
Aid Services,'' February 20, 2014
---------------------------------------------------------------------------
    Also, by virtue of the report language in S. 564, which would shine 
a light on the VA's utilization of hearing aid specialists in its 
contract network, it is our hope that the VA would take better 
advantage of this willing and able provider type to help address the 
need for hearing aid services. To open up additional points of access, 
the VA can and should eliminate unnecessary policy restrictions that 
impact VA clinics' abilities to utilize hearing aid specialists in the 
contract network.
Hearing Aid Specialist Qualifications
    Hearing aid specialists are regulated professionals in all 50 
states and in the non-VA market, hearing aid specialists perform 
hearing tests and dispense approximately 50% of hearing aids to the 
public. They are licensed/registered to perform hearing evaluations, 
screen for the Food and Drug Administration (FDA) ``Red Flags'' 
indicating a possible medical condition requiring physician 
intervention, determine candidacy for hearing aids, provide hearing aid 
recommendation and selection, perform hearing aid fittings and 
adjustments, perform fitting verification and hearing aid repairs, take 
ear impressions for ear molds, and provide counseling and aural 
rehabilitation.
    Training for the profession is predominantly done through an 
apprenticeship model, an accepted and appropriate path given the hands-
on and technical skill involved in the profession. And while licensure 
requirements vary from state to state, in addition to the 
apprenticeship experience, candidates generally must hold a minimum of 
a high school diploma or an associate's degree in hearing instrument 
sciences. These requirements merely create a floor, evident in the fact 
that 87% of hearing aid specialists have obtained some college 
coursework, or an associates or higher academic degree.\9\ In nearly 
every state, candidates must pass both written and practical 
examinations, and in many states a distance learning course in hearing 
instrument sciences is required or recommended. Ultimately, when making 
hiring decisions, the VA will have the ability to determine which 
candidates meet their needs.
---------------------------------------------------------------------------
    \9\ International Hearing Society, Health Policy and Payment 
Survey, June 2013
---------------------------------------------------------------------------
    Hearing aid specialists are already recognized by several Federal 
agencies to perform hearing healthcare services. The Standard 
Occupational Classification (SOC) identifies hearing aid specialists 
within the Healthcare Practitioners and Technical Occupations category 
(29-2092), and the Federal Employee Health Benefit program and Office 
of Policy and Management support the use of hearing aid specialists for 
hearing aid and related services. And while Medicare does not cover 
hearing testing for the purpose of recommending hearing aids (a policy 
that applies to all dispensing practitioners), hearing aid specialists 
provide hearing testing, hearing aids, and related services for state 
Medicaid programs around the country. Further, most insurance companies 
contract with hearing aid specialists to provide hearing tests and 
hearing aid services for their beneficiaries.
    Finally, evidence shows that there is no comparable difference in 
the quality and outcomes of hearing aid services based on site of 
service or type of provider (audiologist or hearing aid specialist). A 
well-respected industry study found that instead the best determinant 
of patient satisfaction is whether the provider used best practices 
like fit verification, making adjustments beyond the manufacturer's 
initial settings, providing counseling, and selecting the appropriate 
device for one's loss and manual dexterity.\10\
---------------------------------------------------------------------------
    \10\ MarkeTrak VIII: The Impact of the Hearing Healthcare 
Professional on Hearing Aid User Success, The Hearing Review, Vol 17 
(No.4), April 2010, pp. 12-34
---------------------------------------------------------------------------
VA Strategies to Address Demand
    To address the demand for audiology and hearing aid services, the 
VA has been relying on the use of teleaudiology, audiology health 
technicians, and contract audiologists outside the VA setting. While 
IHS applauds the VA for its efforts to better serve the needs of 
Veterans, each of these strategies has its limitations. Though 
teleaudiology can make audiological services more available in remote 
settings, the cost of staffing and facilities are needlessly high, 
especially given that hearing aid specialists have fully-equipped 
offices, oftentimes operate in rural settings, and perform home and 
nursing home visits. Audiology health technicians have a very limited 
scope of duties, which does not include hearing aid tests or the 
fitting and dispensing of hearing aids, and they must be supervised by 
audiologists. Hiring hearing aid specialists to work as health 
technicians, as the VA currently does, significantly limits their role 
and effectiveness. Finally, increased reliance solely on audiologists 
may also limit access as there are not enough audiologists to fill the 
current and future need for hearing care services. In order to fill the 
need, the number of licensed audiologists needs to double in size 
within the next 30 years to 32,000; however only about 600 are entering 
the profession annually. Even the best case scenarios for increasing 
the number of graduates and reducing attrition still fall short.\11\
---------------------------------------------------------------------------
    \11\ Demand for Audiology Services: 30-Yr Projections and Impact on 
Academic Programs, Journal of the American Academy of Audiology, Ian A. 
Windmill and Barry A. Freeman, 24:407-416, 2013
---------------------------------------------------------------------------
    In a June presentation, VA Deputy Chief Patient Care Services 
Officer for Rehabilitation and Prosthetic Services, Dr. Lucille Beck, 
Ph.D., cited several barriers to the delivery of hearing health care 
services for the VA, including ``Some VA sites having space constraints 
that challenge expansion of current audiology services,'' ``Some 
veterans are very old or sick and cannot travel outside of the home,'' 
and ``Lack of developed hearing health care networks and standards for 
VA to partner with the community.'' In each of these areas, hearing aid 
specialists, both internally and through their expanded use in the fee-
for-service network can help.
    As the Federal Government seeks to become more efficient and cost-
effective, we urge the Subcommittee to pass S. 564, which will round 
out the VA hearing healthcare team to mirror the private-market model, 
and increase Veterans' access to care, improve overall quality, and 
reduce cost. Again, using hearing aid specialists as health technicians 
is not the answer; this limits service delivery and underutilizes the 
skills and expertise hearing aid specialists can offer to the VA 
hearing healthcare team. Now is the time to embrace hearing aid 
specialists in the role they are trained and licensed to play to help 
meet the hearing healthcare needs of our Veterans, which will only 
continue to rise in the coming years.
    Thank you for your consideration and for your service to our 
Veterans. With questions, please contact government affairs director 
Alissa Parady at 571-212-8596 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcddccddceddd8c5fcd5d4cfd5d2dad392d3cedb92">[email&#160;protected]</a>
                                 ______
                                 
            Statement from Travis Warthen, Vice President, 
                      Leading Edge Aviation, Inc.
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee: Thank you for the opportunity to provide a statement for the 
record regarding Leading Edge Aviation's position on H.R. 475 and the 
current Discussion Draft as it relates to flight training programs 
under the GI Bill.
    Leading Edge Aviation (LEA) has been providing flight training 
services for Central Oregon Community College (COCC) since 2006. We 
currently have 128 Veterans enrolled in flight programs at COCC and our 
overall ratio is 76% Veterans. The COCC program was the first to enroll 
students in flight programs using the Post-9/11 GI Bill and has 
successfully graduated many veterans who are now enjoying very 
lucrative careers in professional aviation. The cost of this program 
has only increased incrementally (an average of 5%/year), which is 
consistent with the costs associated with providing this training. Our 
program has, and always will be, completely focused on the best 
interests of the student. Our company is owned and run by Veterans and 
we strongly believe these men and woman have earned the right to choose 
the career that best fits their personal interests. We believe both 
H.R. 475 and the Discussion Draft, as written, threatens the ability of 
Veterans to continue to afford this level of education.
                                 issue
    The Post-9/11 GI Bill became available for eligible Veterans on 
August 1, 2009. This new GI Bill allowed Veterans to receive fees 
associated with a degree which allowed those public schools with 
aviation degree programs to incorporate flight training fees into their 
program.
    In order for any degree program to receive VA benefits the State 
Approving Authority (SAA) must approve that degree program. The 
approval criteria between different SAA's varies greatly across the 
country and the Oregon SAA established conditions for approval for 
flight training degree programs in 2010. In Oregon, the institute of 
higher learning seeking approval for a flight training degree has to 
clearly show how they are in compliance with all the applicable laws 
and regulations in order to receive VA benefits.
                                problem
    Due to lack of VA oversight, and inconsistent conditions for 
approval from the SAA's, some schools have received approvals for 
programs that are not in compliance with existing laws and regulations. 
The costs of these programs have increased exponentially, raising 
concerns inside the VA regarding the overall cost of these programs. 
Based on VA's own internal audit of the program, the national average 
annual per student cost for flight training programs is now nearly 
$240,000/year, far exceeding rational cost/student milestones (nearly 
one fourth that amount).
    In recent months, due to external scrutiny by the press and 
increased congressional pressure, the VA has finally begun to enforce 
the existing regulations and has capped enrollment of several schools 
that were found to be non-compliant with one of the two following 
criteria for the program:

    (1) 38 CFR Sec. 21.4201--Restrictions on enrollment; percentage of 
students receiving financial support--clearly establishes an enrollment 
limit of no more than 85% veterans in any degree program. It requires 
programs be delineated by ``educational or vocational objective'' and 
the 85/15 ratio be calculated separately; and
    (2) 38 CFR Sec. 21.9600--Overcharges--prohibits the institution of 
higher learning from charging an individual an amount for tuition and 
fees that exceeds the established charges that the institution of 
higher learning requires from similarly circumstanced individuals 
enrolled in the same course

    The intent of both of these regulations is to ensure costs are 
equitable for Veteran and non-Veteran students and at a level the 
market will support. If costs escalate to the point a school cannot 
attract the 15% non-Veteran students the ability to receive Veteran 
benefits will be suspended until the ratio is within the limitations.
    The schools who are abusing the system have grouped together a 
large pool of students in a very generic degree with several different 
education objectives, which do not include flight training and are not 
calculating the ratio separately as required by the regulations. They 
are also allowing the student to choose the type of aircraft they fly, 
creating a sometimes-significant cost differential for Veteran and non-
Veteran students.
    Another potential challenge with the regulations is many students 
participating in the non-compliant programs are being trained in very 
expensive aircraft which comes with its own set of challenges: (1) it 
further skews the cost of an already non-compliant program; and (2) it 
undermines the intent of the program in that when trained in this 
aircraft, Veterans lack the necessary experience to find a job in the 
field without further training, experience and expense.
                    current congressional approaches
    H.R. 475--Equates degree programs from public institutions that 
include flight training to that of private institutions, thereby 
establishing an annual cap for tuition and fees, which adjusts 
annually.
    <bullet> The cap is just over $20,000/year, far below a reasonable 
average cost/student and limiting the opportunity for flight operators 
to continue to serve the Veteran population as they do today.
    <bullet> Veterans would have to self-fund (or apply for loans) to 
make up the difference in programmatic costs.

    Senate Bill Draft Language--Public institutions who contract 
educational services with private entities will be subject to tuition 
and fee cap of a private institution.

    <bullet> Unlike H.R. 475, this draft does not limit the scope to 
just flight training. Therefore there is less opportunity to adjust the 
cap to address the over 1,800 veterans enrolled in flight training 
programs without greatly increasing the expense to the VA for all 
private institutions.
    <bullet> The Draft would require public institutions to outlay 
significant funds for capital expenditures to continue to offer degree 
programs which currently include some element of contracted educational 
service.
    <bullet> The draft fails to address the lack of State Approving 
Authority/VA oversight for programs that have had considerable cost 
increases, well above industry standards.
                           a better solution
    While it is clear the current flight training program has fallen 
victim to a few unscrupulous providers, the overly-punitive nature of 
the current language in H.R. 475, and now the follow-on Discussion 
Draft serves only to disenfranchise students who may seek to pursue a 
flight program at a public institution. Instead of officially managing 
the cap under which operators have to operate, one of the two following 
Congressional solutions would ensure that ``bad actors'' are disallowed 
from abusing the program AND the viability of future flight programs is 
maintained:

    (1) Make clear to VA, either legislatively or publicly, that 
renewed oversight WILL be exercised by Congress in the area of flight 
training programs and that continuous internal cost analyses will be 
required as well as a timeline developed for their delivery to 
Congress. This will ensure that overall costs will begin to migrate to 
the middle, preventing outlier flight operators from escaping scrutiny 
and enforcement actions; and/or
    (2) Establishing a cap closer to the median cost of a two-year 
flight program ($50,000-60,000 per year). This will, almost by natural 
selection, ``weed out'' the operators who have historically abused the 
program for their own financial gain, AND allow those committed to the 
program to continue to provide opportunity for those who have rightly 
earned it.

    Establishing an unrealistic cap for flight training programs 
punishes Veterans who are enrolled in schools that are in compliance 
with the regulations and providing a viable option for our men and 
women who have earned these benefits. Since the VA has started to 
enforce the existing regulations, we believe time should be given for 
these rules to work and ensure sufficient enforcement action is taken 
by the VA when operators run afoul.
    Let's not take this option away from our veterans and give them 
every opportunity to re-enter the civilian workforce at a living wage 
with opportunities for real, sustainable long-term success.

    Thank you again for the opportunity to present our position on 
these important issues and please consider Leading Edge a resource as 
you continue your deliberations on these issues.
                                 ______
                                 
     Prepared Statement of Military Officers Association of America
    Chairman Isakson, Ranking Member Blumenthal: The Military Officers 
Association of America (MOAA) is pleased to present its views on the 
following legislative measures under consideration at the legislative 
hearing of September 16, 2015.
    MOAA does not receive any grants or contracts from the Federal 
Government.

    S. 1938. Career-Ready Student Veterans Act of 2015 (Senator 
Blumenthal, D-CT and Senator Tillis, R-NC). S. 1938 is a much needed 
bi-partisan bill that would:

    <bullet> Modify the requirements for approval of courses for 
enrolled veterans using Department of Veterans Affairs (VA) educational 
assistance by requiring that educational programs meet instructional 
curriculum licensure or certification requirements of the state.
    <bullet> Require that programs are approved by the appropriate 
board or agency in a state if an occupation requires approval or 
licensure.
    <bullet> Authorize the VA Secretary to waive this requirement only 
under limited, clearly defined circumstances.

    Under the legislation the VA would be required to disapprove a 
course of education unless the educational institution providing the 
course publicly discloses any conditions or additional requirements, 
including training, experience, or exams, required to obtain the 
license, certification, or approval for which the course of education 
is designed to provide preparation.
    Institutions of higher learning (IHLs) may meet regional or 
national accreditation standards. But some IHLs do not meet 
programmatic requirements that enable graduating veterans to meet state 
criteria for licensing or certification in a specific field of study.
    Degree programs that require state-level approval include, for 
example, teaching, nursing, criminal justice and dental assistant. 
Specialized or programmatic accrediting is required for professional 
qualification in fields such as law and psychology.
    S. 1938 closes a gap that has left some veterans ``holding the 
bag''--veterans who believed they were studying toward proficiency in a 
field of study and who graduated or completed the required coursework 
only to learn they could not sit for the licensure exam or meet the 
certification requirement because the program failed to meet state, 
regional or programmatic requirements.

    S. 1938 Builds on the National Defense Authorization Act (NDAA) for 
FY 2014. The Fiscal Year 2014 NDAA, Public Law 113-66, established new 
requirements for colleges and universities that wished to continue 
participation in certain Defense Department (DOD) educational 
assistance programs including military tuition assistance (TA) and My 
Career Advancement Account (MyCAA) for military spouses.
    In reporting out the NDAA, the Senate Armed Services Committee 
recommended a provision that became Section 541 of the final bill 
noting that schools that wished to continue to participate in TA or 
MyCAA must ``comply with program participation agreements under Title 
IV of the Higher Education Act, and to meet certain other standards.'' 
The Secretary of Defense could waive these requirements in certain 
cases.
    Section 541 was intended to address the growing concern in DOD that 
some IHLs were promising civilian credentials to military members when 
in some cases, the program of study being offered was not approved by 
an appropriate accrediting body.
    The result was a wasted investment in professional development for 
the military member and an adverse impact on morale and promotion 
potential.
    MOAA strongly supported the NDAA provision. Since enactment MOAA 
has met with officials in the Defense Department who oversee policy for 
DOD tuition assistance programs to receive updates on the 
implementation of the statute. (In our view, DOD has done a commendable 
job in developing and promulgating policy for Section 541 of the NDAA 
for FY 2014).

    The Career-Ready Student Veterans Act of 2015 addresses the same 
need for transparency and accuracy regarding the actual outcomes that 
IHLs propose to deliver for students using VA GI Bill programs after 
separating from military service. The proposed provisions in S. 1938 
are similar to those contained in Section 541 of Public Law 113-66.
    DOD and the VA have a common objective in ensuring that military 
and veteran students become ``career ready'' in a wide variety of 
civilian disciplines that require a license or certification.
    Some military members begin the journey toward civilian licensure 
while still in uniform and complete the requirements when they separate 
or retire using GI Bill eligibility.
    Numerous lawsuits brought by states' Attorneys General and the 
Federal Trade Commission against certain proprietary IHLs point to the 
need for common sense, practical rules that simply say schools must 
deliver on what they promise.
    For example, in May, the Federal Trade Commission (FTC) announced a 
settlement with Ashworth College for misleading students about programs 
that ``failed to meet the basic educational requirements set by state 
licensing boards for careers or jobs'' in numerous states because they 
lacked the proper accreditation. FTC noted that Ashworth's programs 
were eligible for GI Bill dollars, but not for Federal student loans, 
and that Ashworth targeted veterans and servicemembers for recruiting, 
including through recruiters posing as ``military advisors.''
    At a press conference announcing the introduction of the Career-
Veterans Student Veterans Act of 2015 on August 5, 2015 Senators 
Blumenthal and Tillis emphasized that their bi-partisan bill is 
intended to protect the investment made by our Nation in the future 
employment of our veterans.
    Senator Blumenthal said, ``Only accredited school programs should 
receive GI benefits, because our Nation's heroes deserve the best, not 
the dregs, of American education. Federal funding for substandard 
programs is a disservice to veterans as well as taxpayers--and this 
safeguard is long overdue. Valid, approved education and training are 
necessary for veterans to have the right credentials required by 
employers.''
    MOAA strongly supports S. 1938, the Career-Ready Student Veterans 
Act of 2015.

    S. 1460, the Fry Scholarship Enhancement Act of 2015 (Senators 
Sherrod Brown, D-OH and Tillis, R-NC). S. 1460 would ensure that 
surviving spouses and children of service women and men who have died 
in the line of duty receive the same educational benefits as the family 
members of servicemembers who elect to transfer their benefits.
    Private colleges and universities who volunteer to participate in 
the Post-9/11 GI Bill ``yellow ribbon'' matching program may elect to 
offset some or all of the difference in tuition and fees between their 
schools and public colleges and universities in the same state. The VA 
matches up to half of any delta in cost that a private college agrees 
to match.
    Unfortunately, however, Yellow Ribbon matching is not authorized 
for dependent children who lost a parent in the line of duty since 
Sept. 10, 2001 and who thereby become eligible for the Gunnery Sergeant 
John D. Fry Scholarship program.
    MOAA worked very closely with lawmakers in the Senate and House to 
advance enactment of the Fry Scholarship program for surviving spouses 
and their children.
    MOAA is very pleased to extend our full support for enactment of 
S. 1460, the Fry Scholarship Enhancement Act of 2015.

    S. 1451, Veterans' Survivors Claims Processing Automation Act of 
2015 (Senator Hirono, D-HI). S. 1451 would authorize the Secretary of 
Veterans Affairs to expedite the payment of benefits to a survivor of a 
veteran who has not filed a formal claim if the Secretary determines 
there is sufficient evidence to establish the survivor's entitlement to 
such benefits.
    The intent of this legislation as we understand it is to permit the 
VA to process and pay survivor benefits to survivors of military 
members who die in the line-of-duty. In such cases, the official 
announcement of the death of the servicemember by the military service 
department should be sufficient prima facie evidence that survivor 
benefits should be processed promptly. Requiring such survivors to 
apply to the VA for their survivor benefits is burdensome, time-
consuming and unnecessary.
    MOAA supports S. 1451 the Veterans' Survivors Claims Processing 
Automation Act of 2015.
                                 ______
                                 
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                 
                                 
                                 
                                 ______
                                 
          Prepared Statement of Max Stier, President and CEO, 
                     Partnership for Public Service
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                     


                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to submit our views on legislation pending before 
the Committee. We appreciate the Committee focusing on these critical 
issues that will affect veterans and their families.
      s. 290, the ``increasing the department of veterans affairs 
                    accountability to veterans act''
    PVA understands the intent of S. 290, the ``Increasing the 
Department of Veterans Affairs (VA) Accountability to Veterans Act of 
2015.'' This legislation would presumably give the Secretary more 
leverage as he continues his campaign to improve the VA health care 
system. This legislation would allow the Secretary to reduce benefits 
of Senior Executive Employees that have been convicted of certain 
crimes.
    However, we believe that Section 3, the Reform of Performance 
Appraisal System for Senior Executive Service Employees, establishes a 
troublesome precedent. This section limits the recognition of employees 
that have contributed more than a position requires while maintaining a 
personal goal of improving service to veterans. While the forced 
distribution of the various levels in performance evaluations would 
seemingly limit the number and amount of bonuses paid to senior 
employees, we believe these provisions would punish those employees 
that are overachievers. Similarly, we believe that mandating that no 
more than a certain percentage of SES employees receive a given rating 
in a year ignores the important work that these individuals produce on 
a daily basis. We believe this circumstance will severely limit the 
number of individuals who are willing to consider SES employment at VA. 
Last, we believe that forcing SES employees to move every five years is 
unnecessarily punitive. We do not believe it makes sense to move 
management employees simply for the sake of doing it, particularly if 
they are doing an outstanding job.
       s. 563, the ``physician ambassadors helping veterans act''
    PVA has no official position on S. 563, the ``Physician Ambassadors 
Helping Veterans Act.'' As we understand it, this bill would presumably 
direct the VA to allow volunteer physicians to serve in VA medical 
facilities struggling with wait times or staff shortages. It is our 
understanding that this is an authority the VA already exercises and 
that in areas where volunteer support is limited, physicians have 
chosen not to navigate the cumbersome administrative process that 
allows them to become a volunteer physician. The VA also often fills 
gaps through direct hire authority rather than rely upon volunteer 
support. We appreciate the interest of those physicians who are willing 
to volunteer to cover the access gaps that may exist in VA facilities.
     s. 564, the ``veterans hearing aid access and assistance act''
    PVA supports S. 564, the ``Veterans Hearing Aid Access and 
Assistance Act.'' This legislation would amend title 38, United States 
Code, to clarify the qualifications of hearing aid specialists of the 
Veterans Health Administration of the Department of Veterans Affairs. 
Hearing loss and tinnitus are the most common service-connected 
disabilities treated by VA healthcare. Demand for hearing services has 
increased, dramatically, over recent years. This is due to the large 
cohort of aging veterans compounded by a newly returned veteran 
population from the most recent conflicts. With limited resources VA 
cannot meet the demand in a timely manner. Currently, hearing aid 
specialists are not authorized by VA as an approved care provider, and 
as such, VA can only procure hearing services from an audiologist. 
Authorizing hearing aid specialists would expand VA's network of 
providers and reduce veterans' need to travel long distances.
    s. 1450, the ``department of veterans affairs emergency medical 
                staffing recruitment and retention act''
    PVA also supports S. 1450, the ``Department of Veterans Affairs 
Emergency Medical Staffing Recruitment and Retention Act.'' This bill 
would allow the Secretary to modify the hours of employment of 
physicians and physician assistants employed on a full-time basis by 
the Department of Veterans Affairs. Currently, VA emergency room 
physicians work inflexible 12-hour shifts within the required 80 hours 
per pay period that denote full-time status. This rigidity does not 
exist in the private sector. Irregular work schedules are needed to 
provide high quality patient care. Additionally, the Veterans Health 
Administration (VHA) antiquated system interferes with recruitment and 
retention efforts.
s. 1451, the ``veterans' survivors claims processing automation act of 
                                 2015''
    PVA supports S. 1451, the ``Veterans' Survivors Claims Processing 
Automation Act of 2015.'' The legislation allows VA to pay benefits to 
a survivor who for whatever reason didn't file a claim as long as 
sufficient evidence of record existed to grant the claim. For example, 
in the case of a veteran who was known to have been exposed to Agent 
Orange and died of lung cancer, the VA could establish entitlement to 
DIC in the absence of a properly filed claim. In such a case the 
notification of death would become the date of claim. While this may 
not be the intent of the legislation, this could protect a date of 
claim which could otherwise be untimely and will ensure the survivor 
receives benefits their loved one earned. This is appropriate 
legislation that will pay benefits to a veteran's survivor as quickly 
as possible and streamline the process. In many cases, the benefits a 
disabled veteran receives may be the only family income.
    One change that PVA would like to see in the language is in Section 
2(B)(ii) that states ``* * * the date on which a survivor of a veteran 
notifies the Secretary of the death * * *'' As in many cases with 
legislation, PVA believes this should read ``survivor or duly appointed 
representative'' to ensure it is clear that veteran service officers or 
others that may be assisting the survivor can act on their behalf. It 
may also be appropriate to include language referencing VA learning of 
the death from another Federal agency such as the Social Security 
Administration or the Internal Revenue Service before a survivor may 
notify VA. Limiting notification to the survivor strikes PVA as being 
too narrowly defined. However, this being said, VA has already 
initiated a process to automatically begin payment of DIC to the spouse 
of record in cases where the veteran has been rated at 100% for ten 
years, without a requirement for the widow to file a claim. This 
legislation would better establish that process into law.
        s. 1460, the ``fry scholarship enhancement act of 2015''
    PVA strongly supports S. 1460, the ``Fry Scholarship Enhancement 
Act of 2015.'' The Marine Gunnery Sergeant John David Fry Scholarship 
provides Post-9/11 GI Bill benefits to the surviving spouses and 
children of servicemembers who have died in the line of duty while on 
active duty after September 11, 2001. This legislation would also 
expand eligibility for the Department of Veterans Affairs' Yellow 
Ribbon Program, which helps students avoid out-of-pocket tuition and 
fees for education programs that cost more than the allowance set by 
the Post-9/11 GI Bill.
                                s. 1693
    PVA supports S. 1693, a bill ``to amend title 38, United States 
Code, to expand eligibility for reimbursement for emergency medical 
treatment to certain veterans that were unable to receive care from the 
Department of Veterans Affairs in the 24-month period preceding the 
furnishing of such emergency treatment, and for other purposes.'' 
Currently, a veteran who receives emergency care at a non-VA facility 
can be reimbursed for those costs only if the veteran had also received 
care at a VA facility in the preceding 24 months. This legislation 
would authorize VA to reimburse veterans for emergent non-VA care who 
were unable to receive care at VA within the 24-month period because of 
wait times. The strict 24-month requirement is an unfair burden for 
rural veterans and those near facilities with long wait times. For 
newly separated veterans, should they have a medical emergency prior to 
being seen at a VA facility, their claim for reimbursement will be 
denied. Veterans are then burdened with crushing medical bills through 
no fault of their own. No veteran should have to choose between 
receiving care and financial hardship.
                                s. 1856
    PVA understands the intent of S. 1856. This legislation is meant to 
provide greater employment and due process protections for employees 
who are suspended for performance. The bill targets individuals whose 
actions represent a ``threat to public health or safety.'' We find it 
hard to believe that the VA does not currently have the authority to 
remove individuals when the conditions covered by ``threat to public 
health or safety'' are met. We also believe that the language in 
Section 2 should at the very least cover removal for malfeasance or 
misconduct that is ``detrimental to the operations of the Department,'' 
assuming such a circumstance does not already exist. Ultimately, we are 
not wholly convinced that this legislation will achieve actual 
accountability that ensures that health care is delivered better or 
more efficiently.
    We appreciate the focus on improving management training. Too many 
of the problems identified across the VA health care system in recent 
years have stemmed from ineffective, or simply poor, management. This 
is not to suggest that all of the problems have been the fault of bad 
management. We know that there has been substandard performance at 
every level of the employee ladder in the VA. Change begins at the top 
with management, but it also requires a commitment to doing the right 
thing from all employees, a proposition that we believe has not been 
enforced strong enough across the VA.
           s. 1938, the ``career ready student veterans act''
    PVA supports S. 1938, the ``Career Ready Student Veterans Act.'' 
This legislation would provide protection for veterans using their GI 
Bill benefits as they prepare for a career. Since the passage of the 
Post-9/11 GI Bill, hundreds of training programs and career schools 
have appeared in every state with the intention of securing the 
veterans GI Bill funds with little concern for producing a qualified 
career-ready prospect. These institutions rely on deceptive marketing 
and false promises to recruit veterans. S. 1938 provides protection for 
veterans by prohibiting schools lacking appropriate programmatic 
accreditation from receiving GI Bill benefits. Although some schools 
may have developed a complete training program, the program they 
promote may lack appropriate programmatic accreditation, or fail to 
meet state-specific criteria required for certification or licensure. 
This legislation will protect veterans from squandering their GI Bill 
benefits while being mislead about future career possibilities.
              draft legislation on educational assistance
    PVA supports the changes provided in this draft legislation which 
makes adjustments, modifications and some necessary limitations of the 
benefits provided to veterans within the educational programs provided 
by the VA. Most changes have been previously discussed and approved in 
the House Committee on Veterans Affairs.
    Once again, we thank you for the opportunity to submit for the 
record. We look forward to working with the Committee to see these 
proposals through to final passage. We would be happy to take any 
questions you have for the record.
                                 ______
                                 
               Letter from Carol A. Bonosaro, President, 
                     Senior Executives Association

                             Senior Executives Association,
                                Washington, DC, September 14, 2015.
Hon. Johnny Isakson
Chairman
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.
Hon. Richard Blumenthal,
Ranking Member,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Isakson, Ranking Member Blumenthal, and Members of 
the Committee: As you know, the Senior Executives Association (SEA) 
represents the interests of career Federal executives in the Senior 
Executive Service (SES), and those in Senior Level (SL), Scientific and 
Professional (ST), and equivalent positions. On behalf of the 
Association, and of the SEA members who serve at the Department of 
Veterans Affairs (VA), I write to share the Association's perspective 
on two pieces of legislation before the Committee, S. 290 the 
Increasing the Department of Veterans Affairs Accountability to 
Veterans Act of 2015, and S. 1856 the Department of Veterans Affairs 
Equitable Employee Accountability Act of 2015.
    In 2014, Congress and the Nation awoke to the realities of access 
issues facing the VA with the public revelations from the VA's Phoenix 
Medical Center. While the agency Inspector General and the Government 
Accountability Office (GAO) had well documented the VA's problems with 
access to care and waitlists dating back to the late 1990s, Congress 
chose not to act to remedy these well-documented problems until the 
eruption of a major ``scandal.'' \1\ The reaction to that scandal was 
to pass a hastily and poorly crafted bill that contained what SEA 
warned lawmakers to be counterproductive and unconstitutional 
provisions relating to VA Senior Executives.
---------------------------------------------------------------------------
    \1\  http://www.nytimes.com/interactive/2014/05/29/us/reports-on-
va-patient-wait-periods.html?_
r=1
---------------------------------------------------------------------------
    Since that time, Congress has still not demonstrated an 
understanding of and an ability to seriously address the complex issues 
facing the VA. Instead, lawmakers continue to promote largely talking-
point legislation centered on Congress' current favorite platitude--
accountability. Accountability is certainly needed for the VA 
workforce, but passing statutes with punitive provisions will do 
nothing to drive the cultural transformation necessary to turn the VA 
and its workforce around.
                                 s. 290
    SEA has long called for reforms to the SES performance management 
system to ensure it is utilized to incentivize the best performance. 
Those reforms have included ensuring greater transparency, timeliness 
of establishing performance plans and conducting performance appraisals 
and communicating their results, and ensuring political appointees who 
often supervise career senior executives understand the system and 
their obligation to making it work properly. Problems with the SES 
performance management system are highlighted in SEA's report, 
Deteriorating Pay for Performance Adversely Impacting Morale and 
Retention Within the Federal Career Senior Executives and Professionals 
Corps.\2\
---------------------------------------------------------------------------
    \2\ https://seniorexecs.org/images/documents/
Deteriorating_Pay_for_Performance.pdf
---------------------------------------------------------------------------
    As you know, the SES is a governmentwide cadre. Consequently, SEA 
has concerns about creating a distinct framework for a single agency, 
which balkanizes that governmentwide system and creates challenges in 
maintaining consistency and providing for appropriate oversight by OPM.
    Furthermore, we are concerned that the forced distribution of 
ratings at the outstanding and exceeds fully successful levels 
challenges an underpinning factor of the SES system that agencies make 
meaningful distinctions in performance. Senior Executives face a high 
barrier of entry into the corps; therefore a normal distribution of 
performance should not be expected nor imposed.
    The VA Secretary has authority to sign-off on every SES performance 
appraisal. Complaints or reports from various oversight bodies are 
already taken into account in assessments of executive performance. 
Inspectors General are already consulted prior to issuance of 
performance awards. Yet it is important that only substantiated 
complaints or reports are used in such assessments--it is unfair for an 
individual's performance to be negatively affected by unconfirmed 
allegations. It is not unusual that executives seeking to improve 
performance may find themselves the subjects of union grievances or EEO 
complaints which are later found to have no merit.
    SEA does not believe Congress should be in the business of 
micromanaging agencies by reviewing every performance appraisal. 
However, if the Committee persists in seeking this authority, then any 
information on performance appraisals provided to Congress should also 
be provided to the employee, along with notice that the information has 
been provided to Congress. Additionally, SEA strongly believes that 
protections should be put in place that prevents the public release of 
such sensitive personnel records by Congress along with strict 
penalties for doing so.
    SEA suggests adding language under Section 3, subsection (3)(b), to 
require that before embarking on any rotations, the Secretary must 
develop a comprehensive human capital plan that ensures that rotations 
are appropriate, serve a business purpose, and won't negatively impact 
agency operations. On a related note, in subsection (b) of the same 
Section (review of SES Management Training) SEA also recommends 
language be added to include a review of the VA's talent development 
pipeline and training programs for rising leaders in the agency, as 
well as for training of noncareer executives, including political 
appointees.
    Regarding Section 2 of the bill, SEA agrees that should an employee 
be convicted of a felony related to their job duties, then they should 
not receive service credit toward their pension for the year or years 
in which the felony was committed. This provision should be narrowly 
tailored to ensure that the felony conviction is final (no pending 
appeals) and that the conviction is tied to the employee's job (e.g. 
embezzlement of agency funds). The legislation should also make clear 
that the pension claw back is only for the time period in which the 
felony is committed, as determined by the courts and not the Secretary.
    Regarding Section 4 of the bill, SEA shares the concern of many 
Members of Congress about the misuse of administrative leave at the VA 
and across the government. Yet this bill does not put an end to the 
ability of agencies to abuse administrative leave, but rather simply 
creates new reporting and tracking requirements. SEA is currently 
crafting a bipartisan legislative solution with Senators Grassley and 
Tester to address the issue of administrative leave abuse.
                                s. 1856
    Last year when Congress passed the Choice Act, very few Members 
expressed concern for the constitutional rights of VA Senior 
Executives. Neither did President Obama, who welcomed the authority to 
more easily terminate VA SES in his signing statement for the bill. 
With new legislation (S. 1082/H.R. 1994) broadening the application of 
the section 713 authority to the entire VA workforce, albeit in a far 
less onerous manner, many lawmakers and the President are now 
expressing concern for the constitutional rights and protections 
afforded to employees working at the VA.
    Yet, Section 2 of this legislation maintains the section 713 
authority pertaining to VA SES, while affording a completely distinct 
standard for suspension and removal, and more robust due process, 
including the ability to appeal to the full Merit Systems Protection 
Board (MSPB) and judicial review of a MSPB decision. Such a position 
sends the wrong message to the workforce, and to the American people, 
namely, that there are two classes of Federal employees (citizens) in 
the eyes of congressional representatives--those in unions and those 
who are not, and that those represented by unions receive more 
favorable attention by lawmakers.
    If the cosponsors to S. 1856 believe there are provisions contained 
in S. 1082/H.R. 1994 which are unconstitutional and violate the rights 
of Federal employees, then SEA implores you to work to retroactively 
repeal the far more onerous provisions contained in Section 707 of the 
Veterans Access, Choice, and Accountability Act of 2014 that applied to 
VA Senior Executives (i.e. the section 713 authority), and not rely on 
the courts to mend the errors of congressional action.
    Furthermore, rather than waiting on passage of this legislation, 
SEA urges the supporters of this legislation to immediately submit to 
the Government Accountability Office (GAO) a request consistent with 
Section 13 of the bill. At a time when authority similar to that of 
section 713 is being considered for the rest of the VA workforce, it is 
imperative that Congress and the VA understand the effects of section 
713 on the VA SES as soon as possible.
    SEA appreciates the intent of Section 3, that political appointees 
have performance plans by which they can be held accountable. However, 
SEA cautions against micromanaging the elements to be included in such 
performance plans, as doing so may restrict needed agency flexibility 
to tailor performance plans based on position.
    SEA generally supports Sections 4, 5, 6, 7, 8, 9, 10, and 12 of the 
bill. Regarding Section 4, it is important that the probationary period 
be used appropriately, and SEA supports managers pro-actively 
certifying that employees have completed their probationary period. In 
Section 5, SEA has concerns with legislating performance management. In 
particular, the inclusion of (2) on employee engagement can well be 
perceived to be an effort by the Partnership for Public Service, 
creator of the annual ``Best Places to Work in the Federal 
Government,'' to derive business based on a legislative mandate.
    While SEA agrees with Congress that abuse of administrative leave 
must be addressed, SEA is concerned that Section 11 may be 
unconstitutional. The House and Senate VA Committees are not the 
personnel office of the VA. As indicated above, SEA is currently 
crafting a bipartisan legislative solution with Senators Grassley and 
Tester to address the issue of administrative leave abuse.
                               conclusion
    The singular focus of Congress on providing punitive authorities to 
address the issues at the VA belies fundamental truths that all good 
employers understand, and which Congress, as the board of directors of 
the Federal Government, has an imperative to understand--when employees 
know how their job contributes to an organization's mission, their 
contributions are recognized and rewarded, and their supervisors and 
leaders listen to concerns and feedback and act on it, that the 
organization will see heightened employee engagement, and as a result, 
improved organizational performance.
    Punitive measures and authorities and creating new, unnecessary 
bureaucracies will not result in improved organizational performance or 
services to our Nation's veterans. Legislation cannot change 
organizational culture, nor do culture changes come about quickly. 
Sufficient legislative authority already exists to deal with poor 
performance and misconduct of VA employees.
    What is needed at the VA is a sustained, positive investment by the 
Congress in the organization's strongest asset--its people. Employees 
need to have the training, resources, and knowledge necessary to fulfil 
their duties, whether those duties are providing front-line service to 
veterans or managing the workforce. This is an important area for 
congressional attention, sorely lacking in the debate around the VA. If 
left unaddressed, no amount of new accountability authorities, 
whistleblower protections, or any other provisions of these bills will 
make a dent in the issues at the VA.
    It's time for Congress to move beyond its current focus--
accountability--and have a real conversation with all stakeholders, 
including employee groups, about the significant issues facing the VA 
and its workforce in order to chart a realistic path toward reform 
together. SEA stands ready to work with Members to pursue meaningful, 
constitutional reforms to improve the VA and its workforce.

            Sincerely,
                                         Carol A. Bonosaro,
                                                         President.
                                 ______
                                 
           Prepared Statement of Dr. Scott Wyatt, President, 
                        Southern Utah University
    Chairman Isakson, Ranking Member Blumenthal, and Distinguished 
Members of the Committee: Thank you for the opportunity to weigh in 
through this written statement on the issue of the proposed aviation 
education tuition and fee caps within the Post-9/11 GI Bill program.
    As President of Southern Utah University, I am proud that our 
public institution of higher learning offers students from all over the 
world the opportunity to receive professional aviation training as part 
of a 4-year bachelors degree program. We are one of the few public 
universities in the country to offer this combination of high-quality 
education and training, and we are especially proud that so many 
veterans chose our school and our aviation program to continue their 
education after completing their military service.
    Unlike many post-secondary degree programs today, aviation is one 
of the few fields of study and training that enjoys very high placement 
rates and leads to significantly higher than average starting salaries 
for students who complete the program and acquire the requisite number 
of training hours desired by employers in the industry. This is 
especially true of turbine-engine rotor-wing (i.e., helicopter) 
training.
    The education and training required to become a professional 
helicopter pilot is certainly more costly than the education and 
training required to become a teacher, a mechanic, a banker, or many 
other professions that college graduates may pursue. However, rotor-
wing aviation is also a field in which the investment in education and 
training yields a very high return on that investment, a qualification 
for a high-demand job market, and the potential for graduates to 
realistically build a stable career and a better life for themselves 
and their families post-service.
    Because those who serve in the military are exposed to the various 
subfields of aviation in the course of their service at a much higher 
rate than are civilians, many veterans either have or develop an 
affinity for the field of aviation, and subsequently desire to pursue a 
post-service education and career in aviation with the help of their VA 
education benefits.
    Veterans have used their GI Bill benefits for professional flight 
training for decades, dating back to the old Montgomery GI Bill 
benefit. As with most post-secondary undergraduate degree programs, the 
Post-9/11 GI Bill program, passed by Congress in 2008 and improved upon 
with further expansions of the benefit in 2010 and 2014, covers the 
full cost of aviation education at public institutions of higher 
learning.
    Veterans who have served honorably, and especially those who have 
borne the burden of fighting the longest wars in our Nation's history, 
deserve to take full advantage of this benefit that they have earned, 
and many chose to use it to pursue their dream of a career in 
professional aviation. This field has always been covered by the GI 
Bill program, and it being covered fully at public institutions under 
the New GI Bill program is in line with and consistent with the intent 
of that benefit program to cover the full cost of a new veteran's 
chosen undergraduate program at any public college or university.
    Because there have historically been some entities and even some 
students that have abused various VA education benefit programs, 
Congress and the VA long ago implemented various statutory and 
regulatory safeguards that were designed to control the quality and 
cost of programs of education without placing arbitrary caps on those 
programs or trying to artificially legislate market prices. Instead, 
Congress has allowed free market principals to dictate the value of 
programs of education to consumers.
    Oversight mechanisms such as the 85/15 Rule, the 90/10 Rule, the 
Two-Year Rule, and others have effectively and consistently controlled 
the cost and quality of higher education programs for decades, 
including with aviation education and training programs like the one at 
Southern Utah University. However, in the past two years, the 
implementation of these long-effective oversight mechanisms by the 
Department of Veterans Affairs (VA) has deteriorated. They have 
recently been inconsistently and arbitrarily applied and reinterpreted, 
often by unaccountable regional and local bureaucrats far removed from 
VA Central Office and leadership.
    These failures on the part of VA to properly and consistently 
enforce these long-standing and highly effective program oversight 
regimes have, naturally, recently resulted in several examples, however 
rare, of eye-popping tuition and fee bills for flight training, the 
fault and responsibility for which have been deflected away from VA and 
improperly and erroneously laid at the feet of the public institutions 
of higher learning who offer this training.
    One example of the frustrations that public institutions such as 
Southern Utah University have had in dealing with the VA relates to 
satisfactory academic progress. VA is supposed to follow institutional 
policies on satisfactory academic progress, in other words on the 
number of times a student is allowed to fail and then re-take a course. 
However, in several cases VA officials have overruled our institutional 
policy, designed to protect institutional resources and student 
education benefits, and compelled us allow student veterans who have 
repeatedly failed helicopter skills flight labs to repeat those skills 
labs four, five, and even six times.
    With professional flight training already being one of the more 
expensive programs of education, it is not hard to see how five or six 
repeats of one single course can quickly drive up a tuition and fee 
bill and drain a student veteran's GI Bill entitlement. However, as in 
the case of the above-referenced student veteran (who has become the 
subject of recent unfair, unbalanced, and incomplete media reporting as 
well), these unreasonably high tuition and fee bills are actually the 
result of VA deviating from long-established cost-control policies and 
not the fault of the institution.
    Another example relates to the use of ``incompletes'' to allow a 
student to succeed in a course in the most economical way. Most 
institutions of higher learning, including ours, allow students to 
receive a grade of incomplete at the end of a course if they need a 
little extra time to complete an assignment, take an exam, or master a 
skill in order to satisfactorily complete a course. In aviation 
training, this would mean that a student might need an extra two or 
three hours of practice on a particular maneuver in order to be able to 
pass the FAA Practical Exam for that course.
    If a student is approaching the end of a semester or course period, 
our institutional policy allows students to receive an incomplete in 
that course, spend a few additional flight hours practicing or taking a 
brief tutoring lab, then take and hopefully pass the FAA Practical Exam 
for that course. However, in several cases VA has disallowed the use of 
incompletes, required our instructors to fail the student, and required 
the student to repeat the 40- or 45-flight-hour course in full. And 
when students have to pay for use of aircraft by the hour, one can see 
how forcing him or her to pay for an additional 35-40 hours of unneeded 
flight time is highly wasteful.
    Schools like ours do not want students taking up precious flight 
time and occupying expensive aircraft unnecessarily. Aviation training 
equipment, especially our aircraft, is expensive and in limited supply, 
and our desire and goal is to educate and train our students as 
efficiently and safely as possible so that other students whose dream 
is also to become a professional helicopter pilot are able to use the 
equipment to train without unnecessary delays. If the VA were to go 
back to following their own well established policies and deferring to 
our institutional policies when appropriate, the outlier tuition and 
fee bills that have raised red flags and resulted in over-reactive 
legislation like Congress is considering again today would simply not 
exist.
    Solutions already exist to control the cost of programs of 
education, ensure the quality of those programs, make sure a student 
veteran's GI Bill benefit is being properly utilized, and safeguard the 
taxpayer investment in these veterans' careers and futures as a reward 
for their honorable service. Legislating additional arbitrary and 
misguided burdens and caps on these high-quality programs that have 
served as facilitators of veterans' upward socio-economic mobility for 
decades is simply unnecessary.

    Mr. Chairman, again I thank you for the opportunity to share with 
you these views, concerns, and recommendations from the perspective of 
a public institution of higher learning with a highly successful track 
record of offering professional aviation education and training and of 
serving many of America's finest veterans. We are eager and stand ready 
to further engage with you, your staff, and the wider stakeholder 
community to further educate and work with you on this complex and 
highly consequential issue.
    Thank you.
                                 ______
                                 
  Prepared Statement of William Hubbard, Vice President of Government 
                  Affairs, Student Veterans of America
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                  

                                 ______
                                 
  Prepared Statement of Michael Saunders, National Deputy Legislative 
               Director, The Retired Enlisted Association
    The Retired Enlisted Association (TREA) believes that it is very 
possible that Section 102 of H.R. 475 will slash veteran benefits for 
degree programs that include flight training at public colleges and 
universities. Section 102 of H.R. 475 seeks to cap the tuition for 
flight training at a number that is significantly below the actual cost 
to provide the number of flight training hours that are required by the 
industry to secure employment.
    Although the Department of Veterans Affairs (VA) consistently lists 
aviation as a high demand career, its proposal to Congress that is 
included in H.R. 475 would essentially serve as a financial impediment 
for veterans seeking a career in the aviation industry while the U.S. 
faces of one of the worst pilot shortages in history.
    Apparently the sponsors of Section 102 in the House of 
Representatives believed that imposing a cap on flight training 
education for veterans would generate sufficient savings to pay for 
other favored legislative initiatives. However, based on CBO's 
subsequent score of the overall bill, those assumptions were grossly 
inaccurate and the assumed savings from rolling back this benefit fell 
short by nearly $150 million.
    Finally, we believe Section 102 may also be duplicative and 
unnecessary, as the 85-15 and Two-Year rules are already valid and 
effective tools for reigning in abusers within this program of 
education. There is simply no need for additional legislative action on 
this topic. Instead, the VA needs to consistently enforce the 
longstanding and valid statutes currently in place that already deal 
with this issue.
                                 ______
                                 
         Prepared Statement of Susan Tsui Grundmann, Chairman, 
                  U.S. Merit Systems Protection Board
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                  
                  


                                 ______
                                 
     Prepared Statement of Michael Mower, Chief Operating Officer, 
                          Upper Limit Aviation
    Thank you for the opportunity to submit a written statement on the 
draft legislation related to VA education benefits for flight training 
that is the subject of this legislative hearing today.
    Put simply, the draft bill before you today will slash veteran 
benefits for degree programs that include flight training at public 
colleges and universities. This bill, as currently written, would cap 
the tuition for flight training at a number that is significantly below 
the actual cost to provide the training. Although the Department of 
Veterans Affairs (VA) consistently lists aviation as a high demand 
career, this proposal would essentially serve as a financial impediment 
for veterans seeking a career in the aviation industry while the U.S. 
faces one of the worst pilot shortages in history.
    The intent of this bill is to prevent schools from taking advantage 
of GI Bill reimbursements. However, it is ill-conceived and 
duplicative, since valid and effective rules and regulations already 
exist that curtail potential abuses by schools seeking to take 
advantage of student veterans and the taxpayers. In the end, this 
legislation will destroy well-planned degree programs at public 
institutions of higher learning across the country that offer flight 
training to deserving veterans and will eliminate aviation careers for 
veterans in an industry that is in desperate need of well-trained 
pilots.
                            pilot shortages
    Demand for pilots will increase at a rapid pace over the next 
several decades, as the United States is currently facing its worst 
pilot shortage since the 1960's.\1\ As global economies expand and tens 
of thousands of new aircraft come online, the aviation industry will 
need to supply more than 500,000 new pilots by 2033.\2\
---------------------------------------------------------------------------
    \1\ Wall Street Journal
    \2\ Boeing Study
---------------------------------------------------------------------------
    Nevertheless, total pilots holding Federal Aviation Administration 
(FAA) certificates fell at a CAGR of 0.36% from 2004-2013 (see chart, 
``FAA Estimated Total Pilots'').\3\ In 1989, a total of 110,541 FAA 
flight tests were conducted in the United States, compared to only 
42,440 FAA flight tests in 2014.\4\ Adding to the pilot shortage will 
be the aging U.S. pilot population, as pilots over the age of 50 years 
old currently hold approximately 42% of FAA pilot certificates (see 
chart, ``FAA Certificates by Age'').\5\
---------------------------------------------------------------------------
    \3\ FAA Airmen Certificate Statistics, http:/www.faa.gov/data--
research/aviation_data_statistics/civil_airmen_statistics.
    \4\ FAA Designated Pilot Examiner (DPE) Program Under Watch
    \5\ FAA Airmen Certificate Statistics,
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               __________
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

    Moreover, a study conducted by a subgroup of collegiate aviation 
researchers, including professors from Embry Riddle and 5 other 
universities, explains that a sharp increase is occurring in the 
training of foreign pilots in the United States.\6\ Using data provided 
by the FAA's certification branch, the study determined that in 2004 
the ratio of U.S. citizens to foreign citizens training in the United 
States for their commercial pilot certificate was 4.80 to 1.00. In 
2012, that ratio had dramatically declined to 1.19 U.S. pilots trained 
to every one foreign pilot trained (see chart, ``US and Foreign 
Citizens Completing the Commercial Written''). This fact is staggering 
because many of these foreign pilots will take jobs outside of the 
U.S., further intensifying the current pilot shortage.
---------------------------------------------------------------------------
    \6\ An Investigation of the United States Airline Pilot Labor 
Supply,

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      the 85-15 and two-year rules
    The ``85-15'' and ``Two-Year'' Rules are valid exercises of 
Congress' power intended to curtail abuses by schools seeking to 
capitalize on veterans and American taxpayers. While the Two-Year Rule 
bars VA education dollars from going to institutions that have been 
open for less than two years, the 85-15 Rule prohibits VA education 
dollars from going to schools unless at least 15% of enrolled students 
are not using GI Bill funds to pay for the cost of their education at 
the school. These rules have been in place for decades, and when 
enforced correctly and consistently by the VA, the rules effectively 
allow the open market to determine worthwhile and valuable programs--
and program prices--for veterans. This bill, which seeks to 
artificially and arbitrarily legislate a cap on flight training, is 
unnecessary and flies in the face of the longstanding and legitimate 
purposes of the 85-15 and Two-Year Rules.
                congressional budget office (cbo) report
    The sponsors of this legislation in the House of Representatives 
believed that imposing a cap on flight training education for veterans 
would generate sufficient savings to pay for other favored legislative 
initiatives. However, based on CBO's subsequent score of the overall 
bill, those assumptions were grossly inaccurate and the assumed savings 
from rolling back this benefit fell short by nearly $150 million.
    The same CBO cost estimate for the bill also recognized that 
aviation training necessarily has a high cost of delivery, stemming 
from the costs of aircraft, fuel, insurance, and rigorous FAA-imposed 
safety standards. CBO itself determined that reasonable flight training 
costs averaged out to around $62,000 per year, per student. But the cap 
proposed by this draft is nearly one-third of the real cost for student 
veterans to receive this type of advanced professional aviation 
training.
                               conclusion
    Mr. Chairman, this bill as currently proposed will not only 
eliminate benefits and aviation career opportunities that were earned 
through honorable service by veterans, but it will also exacerbate one 
of the worst pilot shortages in the history of the United States. The 
bill is also duplicative and unnecessary, as the 85-15 and Two-Year 
rules are already valid and effective tools for reigning in abusers 
within program of education.
    There is simply no need for additional legislative action on this 
topic. The VA merely needs to consistently enforce the long-standing 
and valid statutes and regulations currently in place that already 
effectively deal with the issues and concerns that have been raised.

    Thank you again for the opportunity to share our views with the 
Committee.

                                 ______
                                 
                                      Upper Limit Aviation,
                            Salt Lake City, UT, September 20, 2015.
Hon. Johnny Isakson,
Chairman,
Senate Committee on Veterans' Affairs
U.S. Senate, Washington, DC.

    Dear Mr. Chairman: Thank you for the opportunity to submit to you a 
written statement, as verbally requested by you at the recent Senate 
Veterans' Affairs Committee hearing on pending and draft legislation, 
regarding some of the inaccurate, false, and misleading information 
about veterans education benefits and professional aviation education 
and training that was put out to you and other Members of the Committee 
in oral and written testimony at this hearing.
    We, like you, firmly believe that the only way to properly evaluate 
policy proposals and changes is to do so with proper due diligence, 
comprehensive and accurate information, and fully informed views from 
all of those who may be impacted or have a stake in a given issue. 
Thus, as we expressed to you the week prior to the hearing at our 
dinner together in Atlanta and the day before the hearing in your 
office, the premature consideration of the proposal to degrade the 
Post-9/11 GI Bill benefit by essentially slashing professional aviation 
training from the program by way of a cap is of grave concern to us 
all.
    As evidence of the premature nature of some of the positions that 
were offered at this hearing, several of the organizations represented 
by those testifying at the hearing never sought out the input of either 
their members or of those who are experts in the aviation education 
industry and who could weigh in on the impact of this proposal on the 
programs for which thousands of servicemembers and veterans aspire to 
use their hard-earned and well deserved Post-9/11 education benefit. In 
fact, while one organization represented on the panel had previously 
taken a meeting and spoken to a representative of those who would be 
affected, another had not had an opportunity to do so until only three 
hours prior to the hearing and yet another had not spoken to those who 
would be impacted at all. In addition, other organizations who 
submitted written testimony in support of degrading the Post-9/11 GI 
Bill did not seek out expert, industry, or their members' views, and at 
least one appears to have even misread the nature of the draft proposal 
in its entirety.
    Furthermore, the Department of Veterans Affairs (VA) itself had not 
sought the input of experts in aviation education or of those who would 
be impacted by this proposal prior to the development of their 
position, and one of the VA witnesses had only engaged with experts and 
industry representatives for the first time just five hours prior to 
the hearing.
    As you can surely understand from the above circumstances at the 
time of the hearing, Mr. Chairman, the positions thus presented to you 
and other Members of the Committee were certainly not developed 
pursuant to due diligence, with comprehensive and accurate information, 
nor were they fully informed. As evidence of this, there are 
consequential differences in the positions submitted by witnesses in 
written form days before the hearing and the positions to which they 
testified both at a previous hearing in the House and even orally at 
the Senate hearing. Whereas some organizational representatives 
testified solidly in favor of the horrendously misguided and uninformed 
House version of the proposal, those same organizations backed off on 
those positions in their written testimony on the Senate side after 
learning more and/or backed off even further on those positions in 
their oral testimony before you just days later.
    But beyond the critical issue of the views presented at the hearing 
being premature and still in development at the time, let me speak to 
some of the outright misinformation that was presented orally at the 
hearing to you and to other Members of the Committee.
                              va testimony
    In my opinion and experience, as someone who has been intimately 
involved in the provision of professional aviation education and 
training to veterans for more than a decade, the testimony of the VA 
witnesses was particularly egregious and irresponsible. In fact, the VA 
itself is the direct cause of many of the issues about which it is 
coming before your Committee and complaining, and about which many 
stakeholder organizations and even suppliers of professional aviation 
training like us, are upset.
    For example, the cost overruns that have resulted in the sky-high 
tuition and fee bills for a very limited number of students are the 
result of two primary failures on the part of the VA to consistently 
enforce its own policies to help control Post-9/11 GI Bill costs. The 
VA is supposed to respect the policy of educational institutions with 
respect to satisfactory academic progress in courses, yet VA 
representatives themselves out in the VA's regional offices (in our 
case the Muskogee Regional Office) have verbally told schools' 
certifying officials that schools must override their policy on course 
repeats allow veterans to re-take repeatedly failed courses using their 
remaining GI Bill entitlement.
    Similarly, the VA is supposed to respect institutions' policies on 
the use of ``incompletes,'' which it has not in many cases. In programs 
of education that are expensive to being with, forcing a student 
veteran to repeat an entire course and re-paying for that entire course 
and associated lab fees -instead of simply allowing the veteran to take 
an incomplete, top off their skills training with a few hours of extra 
practice or a brief remedial lab, and then taking the final exam and 
receiving their final grade--is unnecessarily costly, wasteful, in 
violation of institutional policy, in violation of VA's own policy of 
deferring to institutional policy on ``incompletes,'' and simply 
irresponsible.
    Our schools do not want to be forced to recycle students over and 
over again who are clearly not cut out to be pilots and whose presence 
in our limited aircraft with our instructors is both dangerous to our 
staff and wasteful of the limited time and equipment we have for other 
students who are making reasonable satisfactory progress in their 
training. Nor do we want to be putting students through an entire 
course again who we know can master a required course skill in only a 
few more hours and move on. Mr. Chairman, it is in our interest also--
and reflects on our statistics--to ensure the safety of our students 
and staff, ensure the most efficient use of our equipment, and ensure 
that our students complete their courses and our program as quickly 
(and safely!) as possible.
    In addition, the comments within VA's oral testimony regarding the 
inability of VA to properly enforce the 85/15 rule was contrary to 
reality and practice. In fact, VA completes 85/15 compliance audits on 
a per-semester basis. Our school had a stellar record of 100% 
compliance for eight consecutive years since our founding, until just 
two years ago when VA began the first of several arbitrary and 
capricious changes, some again in violation of its own policies and 
regulations, to its interpretation of the 85/15 rule.
    The truth is, Mr. Chairman, the 85/15 Rule, when properly applied, 
has done a fine job of ensuring quality education for veterans and 
weeding out bad actors for four decades. It has only been in the past 
two years that problems have arisen, and as I explained above many of 
those problems are directly attributable to the VA's own incompetence 
and arbitrary changes in administering these laws, rules, and 
regulations. Yet VA representatives come before you and other Members 
of the Committee and, just as VHA bureaucrats did last year when their 
mismanagement of VA medical care was just coming to light, mislead, 
misspeak, and misrepresent the reality of how VA is administering and 
overseeing veterans' education benefits and the quality educational 
institutions that proudly and humbly provide programs of education for 
veterans and civilians alike in good faith.
    Indeed, Mr. Chairman, there are plenty more ways in which the VA 
has over the years screwed up the administration of VA education 
benefits not only to the detriment of many quality programs, but also 
to the detriment of hundreds, if not thousands, of veterans themselves. 
In the past, when VA moved away from a less costly and more 
administratively efficient pay-as-you-go policy for professional 
aviation education and training, overpayments to schools resulted from 
this change in payment policy by VA.
    Schools like ours have an interest in ensuring that students 
complete their programs of education as quickly (but as safely!) as is 
possible for them to earn their degree, certificates, and required 
flight hours to be competitive in the job market. When the VA began 
inadvertently overpaying for the cost of our training as a result this 
change, we sent money back to the VA for hundreds of students who 
completed their programs without using all of the money the VA paid out 
to us.
    However, in nearly 200 cases, the VA would not accept this money 
back and instead forwarded it directly on to the student. However, in 
what was surely an administrative mishap, but mismanagement and 
incompetence nevertheless, VA officials instituted a convoluted 
recertification regimen to deal with the overpayments and the transfer 
of the excess funds by VA directly to the veterans, then ended up 
billing veterans for overpayments, sending them to collections, and 
ruining their credit records just as they were beginning their civilian 
professional lives.
    While this is a separate issue that is worthwhile for this 
Committee to investigate, I mention it here not only to bring it to 
your attention but also to demonstrate the level of incompetence and 
mismanagement of veterans' hard earned benefits that also goes on 
within the Veterans Benefits Administration. If properly investigated, 
Mr. Chairman, I'm sure you and your staff would find that this too is a 
crisis that has similarly, while perhaps not lethally, ruined the lives 
of countless veterans who were only seeking to use their VA education 
benefits in good faith to improve their and their families' lives and 
livelihoods post-service.
                       saa association testimony
    Neither we, nor to our knowledge any other expert in aviation 
education or representative of the aviation education industry, have 
had an opportunity to meet with representatives of the National 
Association of State Approving Agencies and educate them on the many 
ways in which the administration of the tools and policies in place to 
properly regulate and control the costs of flight training are not 
being utilized or are being arbitrarily enforced. We would have 
graciously welcomed this opportunity prior to this important 
organization analyzing the impact of this proposed legislation on the 
aviation education industry and on the Post-9/11 benefit, and prior to 
the organization developing its position on this proposal. However, 
this critical conversation did not occur prior to the hearing, and the 
result was not only an uninformed position, but the propagation of some 
very unfortunate misinformation by the Association's witness during 
oral remarks.
    First, the Association's witness claimed that student veterans' 
tuition and fee bills had in the past reached as high as $900,000. 
While we have heard some absurdly high claims of aviation education 
program totals, this was the wildest claim we have heard to date. While 
we have seen a few rare outlier bills as high as a few hundred thousand 
dollars, as I explained earlier in this statement these bills (at least 
the ones that occurred at our institution) were actually the result of 
the VA's overrides of policies that are in place precisely to prevent 
such high bills and our school absolutely did not want to jeopardize 
the safety of our instructors or waste our limited time and equipment 
on these repeated student recycles.
    While there may have been high flight training bills at other 
institutions, we have yet to see evidence of this presented by the VA, 
and if so I would strongly suspect that those were due to similar 
misapplications and overrides of cost-control policies by other VA 
officials as well. Regardless, we find the suggestion of the existence 
of even one flight training bill in excess of $900,000 completely 
outrageous, and we challenge either the witness or the VA to produce 
proof of such an outrageous and irresponsible claim.
    Second, Mr. Westcott testified that prior to the more generous 
Post-9/11 GI Bill benefit, veterans attending flight schools only 
received around $10,000 per year. In fact, this is incorrect. Under the 
previous Montgomery GI Bill (Chapter 30), the VA covered 60% of flight 
training costs after the private pilot certificate. This meant that the 
old GI Bill could cover up to nearly $70,000 for professional flight 
training costs alone in one year, not even including the tuition for an 
accompanying degree program like we include in our programs to make our 
graduates competitively employable and secure. This means that under 
the proposed low-ball cap, you would not only be slashing the current 
Post-9/11 GI Bill, but you would be rolling it back to be enormously 
far less generous than even the old Montgomery GI Bill program.
    What the witness was confused about was that when a student attends 
private vocational flight training under the New GI Bill benefit, they 
max out at $12,000, and for good reason--the amount of flight training 
you can receive in a vocational program like these is not anywhere 
sufficient to become a professionally trained pilot with enough 
training or flight hours to become employable, rendering private 
vocational flight training largely a recreational pursuit, for which 
the GI Bill program was not intended. But under the private vocational 
school standards of the New GI Bill, even beauty schools are given a 
much more generous benefit of $24,000 per year rather than the $12,000 
currently allocated for vocational flight training.
    We maintain, however, that the GI Bill program is best invested in 
programs of education, whether public or private, that lead to high-
paying jobs and stable livelihoods for veterans and their families, and 
the fact remains that professional aviation education, especially high-
demand, turbine-engine, rotor-wing aviation training, while more costly 
than a philosophy degree or beauty school certificate, remains one of 
the best returns on investment for veterans, the GI Bill program, and 
the American taxpayer.
    Thank you again, Mr. Chairman, for recognizing my strong objection 
to and disagreement with several witness oral statements to you at this 
recent hearing, and for offering me the opportunity to submit 
additional information to you in writing. We would be happy to continue 
educating Members of the Committee on the nuances of this issue, the 
detrimental impact of this proposed legislation on schools and 
veterans, and the myriad other issues that necessitate congressional 
oversight with respect to VA's administration and management of 
veterans' education benefits.
            Sincerely,
                                                 Lois Reid,
                                           Chief Executive Officer.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 
      

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
